NO.
IN THE

Supreme Court of the United States
WILBUR S. VEASY, WILL S. TWIGG
and JERMAINE T. DAVIS,

v.

Petitioners,

FRATERNAL ORDER OF POLICE
JIM FOGLEMAN LODGE #50, INC.,

Respondent.

On Petition for a Writ of Certiorari to the
Florida Fourth District
Court of Appeal

APPENDIX
Nicole A. Milson
MILSON LAW, PA
201 S. Biscayne Blvd.,
Suite 2700
Miami, FL 33131

Robert N. Harris
Counsel of Record
THE HARRIS LAW
FIRM GROUP, P.A.
201 S. Biscayne Blvd.,
Suite 2700
Miami, FL 33131
(305) 536-6131
robert@harrislawinfo.com

Counsel for Petitioners

APPENDIX
TABLE OF CONTENTS
Order of the Fourth District Court of Appeal .......................... 0001
Order of the Fourth District Denying Rehearing ................... 0002
Trial Court Final Judgment Against Petitioners .................... 0003
Trial Court Order on Summary Judgment ............................... 0005
Amended Complaint ...................................................................... 0007
Answer and Affirmative Defenses .............................................. 0011
Motion for Summary Judgment and Protective Order ......... 0014
Affidavit of Patrick Yoes .................................................... 0023
Declaration of Thomas Hannigan .................................... 0027
Declaration of Jermaine Davis .................................................... 0040
Declaration of Mark Johnson ...................................................... 0055
Plaintiff’s First Request to Produce ................................ 0058
Plaintiff’s First Set of Interrogatories ............................ 0063
Emergency Motion to Not Enter Summary Judgment........... 0104
Affidavit of Edward J. Manak ........................................... 0108
Order on Plaintiffs’ Emergency Motion .................................... 0120
Supplement to Motion for Summary Judgment ...................... 0122
Plaintiffs’ Response to Court Order ........................................... 0173
Order Denying Summary Judgment for Edward Manak ...... 0189
Motion for Reconsideration ......................................................... 0191
Order Denying Motion for Reconsideration ............................ 0202
Appellants’ Initial Brief ................................................................ 0203
Appellants’ Motion for Rehearing .............................................. 0229

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT

WILBUR S. VEASY, WILL S. TWIGG and JERMAINE T. DAVIS,
Appellants,
v.
FRATERNAL ORDER OF POLICE JIM FOGLEMAN LODGE #50 INC.
and EDWARD J. MANAK,
Appellees.
No. 4D19-2152
[May 14, 2020]
Appeal from the Circuit Court for the Fifteenth Judicial Circuit, Palm
Beach County; Lisa S. Small, Judge; L.T. Case No. 50-2014-CA-009494XXXX-MB.
Nicole Milson of Milson Law P.A., Miami, for appellants.
Robert C. Buschel and Eugene G. Gibbons of Buschel Gibbons, P.A.,
Fort Lauderdale, for appellee Fraternal Order of Police Jim Fogleman Lodge
#50 Inc.
PER CURIAM.
Affirmed.
LEVINE, C.J., DAMOORGIAN and KUNTZ, JJ., concur.
*

*

*

Not final until disposition of timely filed motion for rehearing.

APPENDIX 0001

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
July 07, 2020
CASE NO.: 4D19-2152
L.T. No.:
502014CA009494XXXXMB
WILBUR S. VEASY, WILL S. TWIGG
and JERMAINE T. DAVIS
Appellant / Petitioner(s)

v.

FRATERNAL ORDER OF POLICE JIM
FOGLEMAN LODGE #50, INC.
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that appellants’ May 29, 2020 “motion for issuance of a written opinion,
rehearing, rehearing en banc, and certification” is denied.

Served:
cc: Eugene George Gibbons

Nicole Milson

Robert C. Buschel

kr

APPENDIX 0002

Filing# 95629510 E-Filed 09/12/2019 04:54:25 PM

IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
EDWARDJMANAK,
JERMAINE T DAVIS,
WILBUR S VEASY,
and WILL S TWIGG

CASE NO.:
502014CA009494XXXXMB

Plaintiffs,

v.
FRATERNAL ORDER OF POLICE JIM
FOGLEMAN LODGE #50 INC
Defendant.
- - - - - - - - - - - - - - - -I

PARTIAL FINAL JUDGMENT

THIS CAUSE having come on to be heard on Defendant's Motion for Summary Judgment heard
on August 28, 2018 and the Court having granted Summary Judgment in favor of Defendant, it is
thereupon
ORDERED AND ADJUDGED as follows:

Final Judgment is entered against Plaintiffs WILBUR S. VEASY, WILL S. TWIGG and
JERMAINE T. DAVIS in this action.
DONE AND ORDERED in West PahnBeach, PahnBeach Collllty, Florida.

/: ·~··.. r
.h /~ ·d •

-;/?·
·

so,2014;cA,009494;xxx,u,1s= 09112\~01: ___ / / y
'

L~Srntt!!-"Judge

so-2oi4~cA~oo9494~xxxx-1m

Lisa s. _Small

0911212oig··

Judge

Pagelof2

APPENDIX 0003

001005
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 09/12/2019 04:54:25 PM

Case No.50-2014-CA-009494-XXXX-MB
COPIES TO:

JERMAINE T. DAVIS
No Address Available
jayd045@yahoo.com
buschel@bglaw-pa.com
ROBERT C. BUSCHEL, ESQ 201 S.E 9TH STREET
FT LAUDERDALE, FL 33316 indira@bglaw-pa.com
ROBET BUSCHEL
No Address Available
buschel@bglaw-pa.com
WILBUR S. VEASY
No Address Available
jlopezwils@msn.com
WILLS. TWIGG
No Address Available
willstwigg@yahoo.com
EDWARD MANAK
No Address Available
edwardmanak@attnet

Page 2 of 2
001006

APPENDIX 0004

Filing# 77730260 E-Filed 09/11/2018 03:45:03 PM
IN
THE
FIFTEENTH
JUDICIAL
CIRCUIT IN AND FOR PALM BEACH
COUNTY, FLORIDA

EDWARD J. MAN AK, et al.
Plaintiff,

v.

Case No. 14-CA-9494

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.
- - - - - - - - - -I

ORDER ON DEFENDANT'S MOTION FOR SUMMARY JUDGMENT
THIS CAUSE came before this Court on Defendant's Motion for Summary Judgment
heard onAugust 28, 2018. The Court, having reviewed the moving papers and being otherwise
duly advised in the premises, does hereby rule as follows:
ORDERED AND ADJUDGED that Defendant's Motion for Summary Judgment is
GRANTED as to Plaintiffs JERMAINE DAVIS, WILBUR VEASY and WILLS. TWIGG based
upon the Court having found that there are no genuine issues of material fact as to these
Plaintiffs not having standing to proceed with the claims against Defendant.
IT IS FURTHER ORDERED that the Court RESERVED ruling on Defendant's Motion
for Summary Judgment as to Plaintiff EDWARD J.MANAK.
The Court DIRECTED counsel to perform additional research on the issues relating to
application of Florida Statute Section 617.0607 to this case. In particular, the Court directed
counsel to research whether Section 617.0607 can provide a basis for a civil cause of action.

Pagelof2

APPENDIX 0005

000328
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 09/11/2018 03:45:03 PM

Case No.50-2014-CA-009494-XXXX-MB
Plaintiff Manak and Defendant Fraternal Order of Police shall have until September 13,
2018 to provide the Court with additional research and memoranda on this matter.
DONE and ORDERED in Chambers inWestPalmBeach, PalmBeachCounty, Florida.

/'

·~ r

h /~ d

so~2014;cA~oo9494;xxx,c.r,1s=o9111\201s _

•

t::7f

.

L~Smtt!r:_Judge

50-2014-CA-009494-XXXX-r.m
Lisa S. Small

09/11/2018

Judge

Isidro M. Garcia, 120 South Olive Avenue, Suite 401, West Palm Beach, Florida, 33401
Robert C. Busche!, 100 S.E. Third Avenue, Suite 1300, Ft. Lauderdale, FL 33394

Page 2 of 2
000329

APPENDIX 0006

Filing# 60630140 E-Filed 08/18/2017 04:38: 14 PM

IN THE CIRCUIT COURT OF THE 15m JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARD J. MANAK,
JERMAINE T. DAVIS,
WILBUR S. VEASY AND
WILL S. TWIGG,

)
)
)
)
)

Plaintiff(s),

)
)
)
)

FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,

)
)

vs.

Defendant(s).

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

)
)
)

- - - - - - - - - - - -I
FIRST AMENDED VERIFIED COMPLAINT FOR DAMAGES,
IN.JUNCTIVE RELIEF AND AN ACCOUNTING

Plaintiffs, by and through undersigned counsel, sue Defendant and allege:
1.

Plaintiffs are natural persons who reside in Palm Beach County, Florida, and are

former dues paying members of the Defendant.
2.

Defendant is a Florida not for profit corporation doing business in Palm Beach

County, Florida.
3.

Plaintiffs were unlavrfully removed and or expelled from the Defendant's

board and/or membership rolls after PlaintiffEDWARD J. MANAK objected to what he reasonably
believed to be misuse and/or misappropriation of funds by new treasurer Carlos Dorta.
4.

Manak was improperly removed as treasurer ofthe Defendant on or about August 26,

2014, after he refused to resign as treasurer and tum over all records to a new treasurer. Manak later
objected to the movement of the funds from five (5) PNC Bank accounts that the Defendant owned
1

APPENDIX 0007
000158

FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 08/18/2017 04:38:14 PM

to personal accounts of the new treasurer of the Defendant, Carlos Dorta, which took place on or
about September 16, 2014.
5.

After Manak was improperly ousted by the Board in retaliation for objecting to

improper removal and in violation of Defendant's bylaws, he appealed to the Fraternal Order of
Police Florida State Lodge which ordered him reinstated as Treasurer on or about October 1, 2014.
Despite this, Manak was then expelled by the Defendant as a member on or about January 13, 2015;
was denied a hearing on said expulsion by the Chairman of trustees of the Florida State Lodge, Rob
Robertson on or about June 11, 2015, and was prevented from seeking an appeal to the national
Grand Lodge by David Frazier.
6.

Plaintiffs JERMAINE T. DAVIS, WILBUR S. VEASY and WILL S. TWIGG

objected to Manak's planned removal as treasurer and the apparent planned misuse and/or
misappropriation of funds by the new treasurer and were expelled from the Defendant in retaliation
and in violation of Defendant's bylaws for same on or about July 8, 2014 (Davis and Twigg) and on
or about July 29, 2014 (Veasy).
7.

As a result of the unlawful expulsion, all Plaintiffs suffered the following damages,

losses and/ or injuries: loss of membership in the FOP; loss of benefit of Legal Aid provided as a
benefit for all members of the Defendant; loss of association with the membership at meetings in
the lodge of the Defendant; loss of standing and reputation in the law enforcement community.
8.

Manak also lost his Board position as treasurer, an elected Board member, when he

was removed without just cause and in retaliation for objecting to what he reasonably believed to
be improper demands for reimbursement of expenses by the Board and misuse or misappropriation
of funds by the new treasurer. Manak also was removed from the FOP State Memorial committee.
2

APPENDIX 0008
000159

WHEREFO~, Pl~intiffs respectfully request this Court to: ·
I.

Award Plaintiffs damages and injunctive relief to ).'estore their :tneniberships in the

FOP;
ii.

Rclnstate Msnak as Treas'\.1rer of the Defendant;

iii,

Otdel' 11n accounting of all exrienditutes made since Mana.k's :removal as treasurer,

and 0£ the accounts controlled by Dorta to whioh FOP funds were unlawfully
transfea:ed to, and any subseg:uent account(.s) said funds we:t~ transferred to;
iv.

Any other rellef deemed just and necessary,

Tru.'AL BY JORY ON Att ISSUES so TRIABLE I~ BEREBYDEMANDED.

UNDER·PENALTY OF PERJURY. VIE DECLAR:B THAT THE FAC'l'S SET FORTE'.
HBRElN ARE TRUE ANlJ CORRECT TO THE BEST OF OUR KNOWLEDGE~ BELlBF,

.

·

..

WILBUR S. VEASY

.t0,:,.£~
WILLS.1-~

3

APPENDIX 0009
000160

ISI
Florida Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFFS

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Busche! Gibbons, P.A.,
1~ S.E~ifci Avenue,.Suite 1300, Fort Lauderdale, FL 33 94 this
of

_g~

~

,2017.

,?}"'

--1+----'---------

ISI

O M. GARCIA

4

APPENDIX 0010
000161

Filing# 65195577 E-Filed 12/11/2017 09:22:03 AM

IN THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK, et. al.,
Plaintiff,
Case No. 14-CA-9494

V.

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.
- - - - - - - - - -I

DEFENDANT'S ANSWER AND AFFIRMATIVE DEFENSES
The Defendant, FRATERNAL ORDER OF POLICE, JIM FOGLEMAN LODGE #50,
INC, through counsel, files this answer and affirmative defenses to the "First Amended Verified
Complaint" filed on August 18, 2017.
1. Defendant is without knowledge as to where Plaintiffs reside. Admit Plaintiffs were dues
paying members.
2. Admit.
3. Denied.
4. Denied.
5. Denied.
6. Denied.
7. Denied.
8. Admit Manak is no longer Treasurer of the FOP. Denied as to all allegations.
AFFIRMATIVE DEFENSES
1. Circuit Court does not have jurisdiction or authority to restore Plaintiffs' membership in

APPENDIX 0011
000202
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 12/11/2017 09:22:03 AM

Manakv. FOP

the FOP.
2. Circuit Court does not have jurisdiction or authority to restore Plaintiff Manak as
Treasurer in the FOP.
3. Even if Circuit Court had jurisdiction and authority to restore Plaintiffs as members,
Plaintiff Davis, Veasy, and Twigg do not otherwise meet the requirements of membership.
4. Plaintiffs exhausted all administrative remedies within the Fraternal Order of Police and
their claims have been denied.
5. Plaintiffs' complaint is vague and does not specify the causes of actions it seeks.
6. Plaintiffs fail to state a claim upon which relief can be granted.
7. Plaintiffs have no right to an accounting.
8. Plaintiffs have no right to damages under§ 617.0607, Fla. Stat. (2017).
9. Plaintiffs do not have a First Amendment right to associate with a private organization
such as the FOP. First Amendment requires state action.
10. Court cannot award injunctive relief for behavior that has all ready occurred. When a
plaintiff seeks to enjoin an action that has already occurred, the cause of action for injunction is
moot. Boatman v. Florida Dept. of Corr., 924 So. 2d 906, 907 (Fla. 1st DCA 2006) (citation
omitted).
11. Plaintiffs do not have a right to injunctive relief for any future conduct as they do not
meet the elements of injunctive relief.
12. Plaintiff was properly removed as Treasurer of the FOP for violating the by-laws for
failing to turn over bank records of the FOP as requested and required by the Board.

WHEREFORE this Court should dismiss the lawsuit with prejudice.

2

000203

APPENDIX 0012

Manakv. FOP

Respectfully submitted,
Robert C. Busche!, Esq.
BUSCHEL GIBBONS, P.A.
One Financial Plaza
100 S.E. Third Avenue, Suite 1300
Fort Lauderdale, Florida 33394
Tele: (954) 530-5301
Email: Buschel@BGlaw-pa.com

Isl Robert C. Busche!

By:

ROBERT C. BUSCHEL
Florida Bar No. 0063436

CERTIFICATE OF SERVICE
I hereby certify that on December 11, 2017 a copy of this filing to opposing counsel via
the Florida efiling system.
BUSCHEL GIBBONS, P.A.
BY: Isl Robert Busche!
ROBERT C. BUSCHEL
Garcia Law Firm, P.A.
120 South Olive Ave. Suite 401
West Palm Beach, FL, 33401
Tel. (561) 832-7732
Fax (561) 832-7137
www.garcialaborlaw.com
Mark.J ohnson@garcialaborlaw.com

3

000204

APPENDIX 0013

Filing# 73942958 E-Filed 06/21/2018 06:48:33 PM

IN THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK,
JERMAINE T. DAVIS,
WILBUR S VEASY AND
WILL S. TWIGG,
Plaintiffs,
Case No. 14-CA-9494

V.

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.
- - - - - - - - - -I
MOTION FOR SUMMARY JUDGMENT
and MOTION FOR PROTECTIVE ORDER

The Defendant, FRATERNAL ORDER OF POLICE, JIM FOGLEMAN LODGE #50,
INC, through counsel, files this motion for summary judgment against the "first amended
verified complaint for damages injunctive relief and an accounting" filed on August 18, 2017. As
grounds for the motion state:
FACTUAL BACKGROUND

1.

The first amended verified complaint was filed on September 10, 2014. But the

Plaintiff added plaintiffs and filed another "first amended verified complaint" on August 18,
2017. All references to the Amended Complaint refer to the August 18, 2017 complaint.
2.

Plaintiffs' claims are for injunctive relief (it is now unclear whether it is for

temporary and permanent).
3.

The newest version of the complaint abandoned the request for a judgment for

attorney's fees and costs pursuant to Florida Statute Section 448.08. (Cf September 10, 2014,

,r

APPENDIX 0014
000217
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 06/21/2018 06:48:33 PM

1, Am. Compl. and "wherefore" clause with latest version of the complaint filed August 18,

2017).
4.

In short, the Plaintiff Manak complains that he was removed as Treasurer of a

fraternal organization without following its by-laws.
5.

The other Plaintiffs Jermain Davis, Wilbur Veasy, and Will Twigg have standing

to sue for any cause of action at all. They were not officers of the FOP and cannot be and never
could be members in good standing.
6.

Jurisdictional allegations are not alleged.

7.

Venue allegations are not alleged.

8.

There are no allegations why an accounting is allowed or required.

9.

Formal causes of action are not alleged.

10.

Plaintiffs did not file exhibits with the latest version of the complaint that were

filed in previous versions of the complaint. Article IX "Recall of Officer," Section 1, filed as
Exhibit A to the first amended complaint September 10, 2014.
11.

Plaintiff Manak was properly removed as Treasurer of the private organization.

(Deel. Hannigan).
12.

Merely attaching a "verification" page to the lawsuit is not sworn evidence and

does not circumvent summary judgment.
13.

Plaintiffs' lawsuit is defamatory. Without evidence and without a cause of action

alleged in paragraph 3 they allege a scandalous allegation that the current Treasurer was
misusing or misappropriating funds.
14.

The Plaintiffs have not alleged any cause of action outside of the entitlement of

their lawsuit. No causes of action are labeled.

2

000218

No elements of any causes of action are

APPENDIX 0015

enumerated.

This Amended Complaint barely accomplished anything except to meet the

deadline that the Court imposed which compelled Plaintiff Manak to file an amended complaint
or the Court would dismiss the claim for lack of prosecution. (Order, July 20, 2017).
15.

Plaintiff Manak is not paid or employed by the Defendant Fraternal Order of

Police ("FOP") for services as Treasurer. It is a voluntary position in a fraternal organization.
16.

Plaintiff Manak was removed as Treasurer on August 12, 2014. Plaintiff filed suit

after the FOP removed him as Treasurer.
17.

Plaintiffs seek injunctive relief after the action they seek to enjoin occurred. When

a plaintiff seeks to enjoin an action that has already occurred, the cause of action for injunction is
moot. Boatman v. Florida Dept. of Corr., 924 So. 2d 906, 907 (Fla. 1st DCA 2006) (citing Black
v. Rouse, 587 So.2d 1359 (Fla. 4th DCA 1991)); City ofApalachicola v. Bd. of County Com'rs of
Franklin County, 567 So. 2d 22, 23 (Fla. 1st DCA 1990) (even various statutory violations were
present in the process; mandamus was not an option since action sought occurred). Thus, any
claim to have Plaintiff Manak placed back as Treasurer during the pendency of this case is moot.
18.

Plaintiff Manak is no longer a member of the Fraternal Order of Police. His

membership has been revoked. (Aff. Yoes).
19.

PlaintiffManak cannot be Treasurer of an organization he is no longer a member.

20.

Plaintiffs are asking the court to intervene in a fraternal organization's private

meetings and procedures. In this FOP lodge, the FOP is merely fraternal and is not the collective
bargaining agent of the Palm Beach County Sheriff's Office.
21.

Plaintiff Manak was given notice and a hearing. Plaintiff complains that the subtle

niceties of the notice were not met, but it is not required even if such a distinction is parsed out.
See Boca W. Club, Inc. v. Levine, 578 So. 2d 14, 15 (Fla. 4th DCA 1991).

3

000219

APPENDIX 0016

22.

"Even if there were factual allegations, however, it is difficult to see how a

justiciable issue could be made. The governing body of a private, social club 'is the final arbiter
of the sufficiency of causes for expulsion.' Everglades Protective Syndicate, Inc. v. Makinney,
391 So. 2d 262,265 (Fla. 4th DCA 1980) (citation omitted)).
23.

Plaintiffs do not have an ownership right in an officer's position or membership in

the FOP. They did not pay for an ownership interest like some country club membership. There
is no justiciable issue because courts must not get involved in the internal workings of a fraternal
organization. The law does not provide for such remedy.
24.

Plaintiffs served interrogatories and request for production of documents. All of

the interrogatories and documents seek information Plaintiffs are not entitled to possess or
review. They are not and cannot be a member of the FOP. They are not members and could
never be a member of the organization again. They also seek information about deputy sheriffs
that are protected under
25.

Plaintiff Manak cannot be the Treasurer of an organization for which he was

expelled. Manak cannot be force placed as an officer in an organization because it's an elected
position. There have been several elections since Manak was expelled from the organization.
26.

Plaintiffs seek to disrupt a fraternal organization because they are disgruntled. The

relief Plaintiffs seek is impossible for the Court to award. The Court cannot force membership or
make someone an officer of the FOP. The Court does not have the authority to do so.
27.

Plaintiffs cannot be members of the FOP. They do not qualify as members.

28.

Plaintiff Manak was expelled from the FOP. Manak exhausted his administrative

remedies and cannot seek reentry as a member of the FOP. A court cannot order him to be

4

000220

APPENDIX 0017

Treasurer of an organization he is not a member. A court cannot order that he be admitted as a
member that expelled him for violations of its bylaws. (Deel. Hannigan).
29.

Plaintiff Davis cannot be a member of the FOP. He waived his administrative

hearing regarding his expulsion by failing to appear. (Deel. Hannigan). Davis was terminated
from PBSO. He cannot be a member of the FOP, a police union.
30.

Plaintiff Twigg is a convicted felon. He cannot be a member of the FOP, a police

umon. He is also not a member of the PBSO. Twigg did not retire in good standing from PBSO,
he was terminated.

He cannot be a member of the FOP. This Court cannot order his

membership. Twigg does not have standing to seek obtain a remedy for Manak.
31.

Plaintiff Veasy is not an employee of PBSO. He was terminated from PBSO.

Veasy cannot be a member of the FOP ifhe was terminated from PBSO. (Deel. Hannigan).
32.

Plaintiffs filed this lawsuit and has let it languish in the court system in order to

punish and drain the resources of the FOP. They are not entitled to the discovery they seek since
they are not members of the organization, can never be members of the organization, and have
no standing to remediate their rights and rights of each other.
33.

Plaintiffs rely upon Section 617.0607, Fla. Stat. to support their case. A procedure

that is fair and reasonable is administrative review outlined in the declaration of Hannigan and
the expulsion of the Plaintiffs after this private fraternal organization deemed them unworthy to
be members.
LAW ON SUMMARY JUDGMENT

"Summary judgment is proper if there is no genuine issue of material fact and if the
moving party is entitled to a judgment as a matter oflaw." Curci Vilt. Condo. Ass'n v. Maria, 14
So.3d 1175, 1177 (Fla. 4th DCA 2009) (citing Volusia Cnty. v. Aberdeen at Ormond Beach, L.P.,

5

000221

APPENDIX 0018

760 So.2d 126, 130 (Fla.2000)). "All doubts and inferences must be resolved against the moving
party, and if there is the slightest doubt or conflict in the evidence, then summary judgment is not
available." Reeves v. N Broward Hosp. Dist., 821 So.2d 319, 321 (Fla. 4th DCA 2002). "The
burden of proving the absence of a genuine issue of material fact is upon the moving party. This
burden is shifted to the nonmoving party once the movant has successfully met his burden."

Palm Beach Pain Mgmt., Inc. v. Carroll, 7 So. 3d 1144, 1145 (Fla. 4th DCA 2009) (citations and
internal quotation marks omitted).

SUMMARY JUDGMENT MUST BE GRANTED
Plaintiffs' purpose in bringing this lawsuit that has been pending since 2014 is to be an
albatross around the neck of a fraternal organization that expelled them. They do not qualify to
be members, nor can they maintain membership.
They are not seeking monetary damages.

They cannot seek injunctive relief. They

believe the Court can force seat them as members in a private organization. They cannot cite to
one case where this has ever happened.
In fact, this Court cannot interfere with a fraternal organization or private club. It is not
the place for the judiciary to intervene in private matters or manage the affairs of an
organization. "Even if there were factual allegations, however, it is difficult to see how a
justiciable issue could be made. The governing body of a private, social club 'is the final arbiter
of the sufficiency of causes for expulsion.' Everglades Protective Syndicate, Inc. v. Makinney,
391 So. 2d 262, 265 (Fla. 4th DCA 1980) (citation omitted)). Otherwise, the Court would be
adjudicating private matters of social clubs all the time. The southern reporters would be replete
with precedent on how to handle matters such as this case. There is no precedence in this District
other than to say not to interfere.

6

000222

APPENDIX 0019

Plaintiffs rely on Section 617.0607 of the Florida Statutes. There is not one case that
interprets this statute as a private right of action. Nor, does the statute suggest a remedy. Because
there is no precedent and the statute does not proscribe a remedy that plaintiffs could obtain, this
Court must conclude there is no cause of action in common law or by statute to support any of
Plaintiffs claims.
Lastly, every plaintiff besides Manak cannot be members of a law enforcement union
when they are not law enforcement officers, nor did they retire in good standing. The FOP has
presented an affidavit from Secretary Patrick Yoes of the National FOP that outlines that all
Plaintiffs were not members of the FOP and cannot be members of the FOP. Plaintiff Twigg is a
convicted felon from this Circuit. He cannot be a member of the FOP. The other Plaintiffs
misrepresented their status as corrections officers and were expelled for other reasons. This
Court cannot force their membership status upon this private union.
Manak was properly expelled. The Court cannot get into the nuances or details of
whether Manak's expulsion was unfair. He exhausted his administrative remedies within the
FOP on a state and national level. This "injustice" is not rectified in our court system. There
have been several elections over the years. Manak cannot subvert the election system of the FOP
by seeking to have a court order the FOP force seat him as an officer of the union. This Court
does not have the power to install an officer of a private organization.
PROTECTIVE ORDER

Plaintiffs served interrogatories and request for production. They seek the accounting
they are not entitled to and have requested discovery that can never lead to admissible evidence
because they are not members of the FOP. Nonmembers are not entitled to books and records.
There is no independent cause of action that would make them entitled to those records. Nothing

7

000223

APPENDIX 0020

about those records could prove any fact that Plaintiffs seek to prove or any conceivable cause of
action they have or have not alleged. A protective order is justified based upon the fact Plaintiffs
have no standing to sue the FOP and are not otherwise entitled to discovery.
CONCLUSION

This Court needs to rule. Plaintiffs have been given great discretion to allege a complaint
that would survive the lack of prosecution and poor pleading allegations. The Court cannot
compel membership nor can it compel seating an unelected officer. This Court does not have
subject matter jurisdiction to interfere in an organization's private matters.
This Court should grant summary judgment and dismiss this case with prejudice.
Summary judgment should be granted without any further discovery.
Respectfully submitted,
Robert C. Busche!, Esq.
BUSCHEL GIBBONS, P.A.
One Financial Plaza
100 S.E. Third Avenue, Suite 1300
Fort Lauderdale, Florida 33394
Tele: (954) 530-5301
Email: Buschel@BGlaw-pa.com
By:

8

000224

Isl Robert C. Busche!
ROBERT C. BUSCHEL
Florida Bar No. 0063436

APPENDIX 0021

CERTIFICATE OF SERVICE

I hereby certify that on June 21, 2018 a copy of this filing to opposing counsel via the
Florida efiling system.
BUSCHEL GIBBONS, P.A.
BY: Isl Robert Busche!
ROBERT C. BUSCHEL
Isidro M. Garcia
Garcia Law Firm, P.A.
120 S. Olive Avenue, Suite 401
West Palm Beach, FL 33401
isidrogarcia@garcialaborlaw.com
Counsel for Plaintiffs

9

000225

APPENDIX 0022

IN THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK,
JERMAIN T. DAVIS,
WILBUR S. VEASY, AND
WILLS. TWIGG,
Plaintiffs,

v.
FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.

- - - - - - - - - - - -I
AFFIDAVIT OF PATRICK YOES, NATIONAL SECRETARY
FOR THE NATIONAL FRATERNAL ORDER OF POLICE
STATE OF LOUISIANA
PARISH OF ST. CHARLES

)
)
)

ss:

I, Patrick Yoes, being first duly sworn, do hereby state under oath and under penalty of
perjury that the following facts are true:
1.

I am over 18 years of age. I have personal knowledge of the matters set forth herein,

and if called as a witness, I could and would testify competently as follows.
2.

My name is Patrick Yoes. I currently serve as National Secretary of the National

Fraternal Order of Police ("FOP").
3.

I have been an active member of the FOP for over 33 years, including over 14 years

as National Secretary.

1
534770

000226

APPENDIX 0023

4.

My duties and responsibilities as National Secretary include having custody of the

books, records, documents, Seal, office and equipment of the Grand Lodge under the general
authority and order of the National President and the National Board of Trustees. Additionally, I
am the official custodian of the FOP Constitution and By-Laws and amendments thereto and am
responsible for publication of the FOP Constitution and By-Laws.

5.

Pursuant to Article 4, Section 2 of the FOP Constitution and By-Laws, each state

and subordinate lodge shall be the judge of its membership. Each state and subordinate lodge shall
establish requirements for membership in good standing of its respective membership, which
requirements shall not be inconsistent herewith.
6.

Pursuant to Article 3, Section 1.E. of the FOP Constitution and By-Laws, any

memher belonging to a state or subordinate lodge that is delinquent or has been suspended shall
not be a member in good standing.
7.

Fraternal Order of Police, Jim Fogleman Lodge #50, Inc. ("Lodge 50") is a

subordinate lodge organized in the state of Florida, Palm Beach county.
8.

Pursuant to my duties and responsibilities I have reviewed and am familiar with the

files pertaining to Edward J. Manak, Jermaine T. Davis, Wilbur S. Veasy, and Will S. Twigg. The
files show Manak, Davis, Veasy, and Twigg are not considered members in good standing with
the FOP.
Edward J. Manak

9.

Edward J. Manak ("Manak") is the former Treasurer of Lodge #50. He was

removed as Treasurer on August 8, 2014 for violating Lodge #50 by-laws.
10.

On January 13, 2015, Manak was expelled by Lodge #50 and its members.

2
534770

000227

APPENDIX 0024

11.

Pursuant to Article 3, Section 1.E. of the FOP Constitution and By-Laws, Manak is

not a member in good standing with the FOP.

Jermaine T. Davis
12.

On August 23, 2012 Jermaine T. Davis ("Davis") was terminated as a Palm Beach

County Sheriff's Corrections Deputy. Davis has not been a member of the FOP since 2012.
13.

Pursuant to Article 3, Section l.E. of the FOP Constitution and By-Laws, Davis is

not a member in good standing with the FOP.

Wilbur S. Veasy
14.

On April 19, 2013 Wilbur S. Veasy ("Veasy") was tenninated as a Palm Beach

County Sheriff's Corrections Deputy. Veasy has not been a member of the FOP since 2013.

15.

Pursuant to Article 3, Section l.E. of the FOP Constitution and By-Laws, Veasy is

not a member in good standing with the FOP.

Will S. Twigg
16.

On July 8, 2014 Will S. Twigg (''Twigg") was expelled from membership with

Lodge#SO.
17.

Pursuant to Article 3, Section l.E. of the FOP Constitution and By-Laws, Twigg is

not a member in good standing with the FOP.
Further Affiant sayeth naught.

3
534770

000228

APPENDIX 0025

Sworn to before me and subscribed in my presence by Patrick Yoes, whom I know to be
that person, thitl/2._ day of June 2018.

4
534770

000229

APPENDIX 0026

Declaration of Thomas Hannigan

My name is Thomas Hannigan. I am over eighteen years of age and can swear to the
below facts from my own personal knowledge.
I am the Vice President and former Secretary of the Fraternal Order of Police Lodge #50.
Edward Manak

Each member who joins the Fraternal Order of Police takes an oath and obligation to" ... comply
with all the Laws and Rules of this Order" and that he would "recognize the authority of his
legally elected officers and obey all orders there from." Additionally, each member solemnly
swears they will "not cheat, wrong or defraud this Order or any member thereof... " If a member
violates their solemn oath and obligation he/she "hereby consent to be expelled from this Order."
This oath and obligation is administered annually as well to all elected officers at the start of the
calendar year.
Mr. Manak served as Treasurer of FOP Lodge 50 for nearly two decades. The treasurer as with
all officers of the board is an elected position. Officers of the board volunteer their time and
receive no compensation for their. service. Mr. Manak had also been the long time chairperson of
the Legal Aid Committee, fielding and facilitating all requests and funding for legal assistance
for sworn Sheriff's Office members who became targets of an internal investigation, involved in
an on-duty shooting or accused of a crime.
In January of 2013, a newly elected board of directors took office. The board was moving in a
new direction seeking to increase membership that had been dramatically lost due to poor
member-management in the past. The board was also tasked in seeking solutions to reduce costs
associated with the upkeep of three properties owned by the Lodge on its nearly 7 acres of land
as well as increase revenues from the annual Children's Christmas Show solicitation. The board
was also eager to learn how business was conducted in the past to see if there were any areas in
need of improvement.
One of the first issues the board encountered was discovering the tenants of one of the rental
properties were in arrears in excess of four-thousand dollars. The board learned that Mr. Manak
had assumed the responsibility of personally collecting and managing rent monies from the
tenants. The board learned that Mr. Manak was collecting whatever funds the tenants could pay
each month but he never properly informed the board they were in arrears. Mr. Manak was later
found to have reported misleading and inaccurate financial reports regarding a payment plan
adopted and agreed upon by the board and the tenants. Mr. Manak' s continued pattern of
withholding information subsequently led to further inquiries into his fiscal management. Mr.
Manak became resistant as the board continued to inquire and make suggestions for
improvement. This led to the board's decision to appoint a lodge member to act as the property
manager thus relieving Mr. Manak of his duty to collect rent.

APPENDIX 0027
000230

As the months followed, Mr. Manak's resistant and defiant behavior towards his fellow board
members was becoming increasingly alarming. Some of the issues that troubled the board
included:
Mr. Manak resisted in obtaining a lodge credit card

•

Mr. Manak's practice of using his personal credit card to pay for hotel reservations for
quarterly state board of trustees meetings and annual conferences was under scrutiny.
The board discovered Mr. Manak was receiving "honors points" from the hotel (s) in
which the rooms were reserved and suggested he discontinue this practice as it would
appear he was using his position as treasurer for personal gain. As a solution, the board
voted on and subsequently instructed Mr. Manak to obtain a credit card issued solely to
Lodge 50 but was met with resistance from him. He continually delayed in attaining one.

Mr. Manak was storing financial data reports on the Palm Beach County Sheriff's Office
computer system main network drive and divulging lodge information using the Sheriff's
Office email server

•

Mr. Manak had to be reminded several times to discontinue this practice of using the
Sheriff's Office computer hard drives as it was not only a Sheriff's Office policy
violation, but no one would be able to retrieve the information in the event he was fired
or died unexpectedly. A board officer even offered to assist Mr. Manak and show him
how to properly retrieve the data but he failed to accept the offer
• Mr. Manak sent an email to an addressee that contained privileged lodge information
from his Sheriff's Office email account

Mr. Manak refused to switch to online banking and use accounting software

•

Mr. Manakfailed to comply with the board's directive and became argumentative each
monthly meeting when asked for a follow-up report. The board questioned his
willingness and capabilities and subsequently was placed on notice to respond to the
lodge president by the next monthly board meeting if he wishes to continue his duties as
treasurer

Mr. Manak defied direct orders from the lodge president and trustees

•

•

On June 4, 2014 Manak refused a direct order from the lodge president to return all
checkbooks, ledgers, records, papers and receipts to the trustees in order to conduct an
audit
At the June 24, 2014 board of directors meeting, Manak had yet to return the financial
records and was ordered once more by the lodge president to return the items. His
outright refusal prompted the initiation of a petition to recall Mr. Manak from office

APPENDIX 0028
000231

On August 12, 2014, the members voted to recall Mr. Manak as treasurer for violating his oath of
office. He subsequently appealed the decision to the Florida State FOP Lodge Board of Trustees
who overturned the decision in October citing he was not afforded due process due to the fact
that he was not properly served with the charges; however, he was not immune from expulsion.
After the appeal, he returned to the position as lodge treasurer. He was nominated as an
incumbent but lost in the annual officer elections held in November of 2014 at the general
membership meeting. During that meeting, formal charges against Mr. Manak as a member
were presented to the board.
A hearing was held on January 15, 2015. In accordance to the bylaws, the members in
attendance voted to expel Mr. Manak from the order. He unsuccessfully appealed the members'
decision before the Florida State FOP Lodge Board of Trustees in June of 2015. He later failed
to file his final appeal before the Fraternal Order of Police Grand Lodge within the allotted time
frame.
Jermaine Davis, Will Twigg and Wilbur Veasy
Mr. Jermaine Davis and Mr. Will Twigg deliberately and knowingly disrupted an official closed
meeting of the legally elected board of directors on April 29th, 2014. They failed to obey all
orders to leave the room by the members of the board. Formal charges were brought against
both Mr. Davis and Mr. Twigg at a general membership meeting on May 13, 2014.

At a hearing held on July 8th, 2014, Mr. Davis and Mr. Twigg were found guilty of violating the
lodge's constitution and by-laws and were expelled. Mr. Davis failed to attend the hearing. Mr.
Davis later appealed his expulsion to the Florida State FOP Lodge Board of Trustees who
overturned· the decision however, when Mr. Davis re-applied for membership, he was found to
have been terminated as a Palm Beach County Sheriff's Corrections Deputy on August 23, 2012
and therefore did not meet the requirements to be a member of the Fraternal Order of Police as a
whole. Based on this fact, the general membership voted to deny his application in accordance to
the lodge by-laws.
Mr. Twigg exhausted all his appeals to the Fraternal Order of Police Grand Lodge which upheld
his expulsion. During his appeals to both the State and Grand Lodge, Mr. Twigg had been
arrested and convicted of the charge of Felony Battery on an Emergency Medical Care Provider
and Battery and was placed on probation. He was also terminated as a Palm Beach County
Sheriff's Correction Deputy and clearly does not meet the requirements to become a member of
the Fraternal Order of Police.
Mr. Wilbur Veasy applied for and obtained membership on April 9, 2013 at the recommendation
of Mr. Edward Manak who sponsored and personally accompanied him at that evening's
membership meeting. During my interview with Mr. Veasy he failed to disclose to me that he
was on administrative leave, pending termination as a Palm Beach County Sheriff's Office
· Corrections Deputy. He later failed to disclose the fact that he was terminated on April 19t\

APPENDIX 0029
000232

2013 thus making him ineligible to maintain his membership in the Fraternal Order of Police.
He subsequently had personally resigned from Lodge 50.
I, Thomas Hannigan, under the penalty of perjury sign the above declaration under oath, on
this 20th day of June, 2018.

APPENDIX 0030
000233

//

/

'

FOP JIM FOGLEMAN LODGE #SO
MEMBER CHARGING DOCUMENT

1

On June 24 h 2014 at the Jim Fogl~man FOP lodge 50 located at 885 62"d Drive North in the unincorporated area of
West Palm Beach, Palm Beach County, Florida during the Executive Board Meeting, I was present in the meeting in
my capacity as Vice President for FOP Jim Fogleman Lodge 50 when during the meeting I observed Lodge· President
Bill Williams order Brother Ed Manak, who was the Lodge Treasurer, t~ turn over all books and keys belonging to
FOP Jim Fogleman Lodge 50. I observed Brother Manak openly refuse to comply with the order that President
Williams had just given to him. President Willia~s told Brother Manak a second time that as President of the
Lodge, Preside~t Williams requested for Brother Manak to turn· over the Ledger, checkbooks, the keys to the lodge.
President Williams reminded Brother Manak that the property belonged to the lodge and that he was to turn in.
the lodge property to the board. Brother Manak stated that he was not going to turn anything over and that he
was not going to comply as he is the treasurer of the lodge. The meeting adjourned and Brother Manak left the
lodge without returning any lodge property.
Sworn witness statements were obtained by the board mem~ers, who were present for. the meeting.
I find probable cause exist to find Brother Ed Manak in violation of FOP Jim. Fogleman Lodge 50 bylaws Article 2
duties of Treasurer Section 1 subsection E whereas at any time, when ordered by the Board of Directors, he shall
deliver all monies, books and papers to the Board of Trustees. I also find that Brother M_anak also violated his Oath
to the Order and Office, which he reaffirmed and swore to on January 14, 2014, by, "failing to recognize the
authority of his legally elected officers.'; In taking his Solemn Oath or Obligation of Office and to the Order Brother
Manak bound himself "under no less penalty than to be impeached from office and expelled from the Order.."

a

This shall serve as a charging document to formally charge Brother Ed Manak with violation of the listed bylaws
and Oath of office.

d92?/l''

Palm Beach .

.

.

·

The Foregoing instrument was sworn to or affirmed and subscribed before me this ..1::_L· of November 2014 By Luis Blasco
Type of Identification produced

tL

Ot,Kt~.

L,c..~ .(

Nm~.L/
,•t~~'ti_Z,,,
RY~N LINDQUIST
/~~~;\ Notary Public • State of Florida
i•
• •! My Comm. Expires Aug 1, 2017
\~!i 'ii:.~:: Commission # FF 041772
~,,,,w.:,\,,••' Bonded lbrough National N<tary Assn.

APPENDIX 0031
000234

Wednesday, October 29, 2014

9:56 PM

FOP JIM FOGLEMAN LODGE #SO
MEMBER WITNESS STATEMENT

l
On June 24th 2014 at the Jim Fogleman FOP lodge 50 located at 885 62nd Drive North in the unincorporated area of
West Palm Beach, Palm Beach County, Florida during the Executive Board Meeting, I was present in the meeting in
my capacity as Vice President for FOP Jim Fogleman Lodge 50 when during the meeting I observed Lodge President
Bill Williams order Brother Ed Manak, who was the Lodge Treasurer, to turn over all books and keys belonging to
FOP Jim Fogleman Lodge 50. I observed Brother Manak openly refuse to comply with the order that President
Williams had just given to him. President Williams told Brother Manak a second time that as President of the
Lodge, President Williams requested for Brother Manak to turn over the Ledger, checkbooks, the keys to the lodge.
President Williams reminded Brother Manak that the property belonged to the lodge and that he was to turn in
the lodge property to the board. Brother Manak stated that he was not going to turn anything over and that he
was not going to comply as he is the treasurer of the lodge. The meeting adjourned and Brother Manak left the
lodge without returning any lodge property.
On August 12th 2014 a recall election was held at the FOP Jim Fogleman Lodge reference the recall of FOP Lodge 50
Treasurer Ed Manak. The members in a 2/3 vote for recall had voted to recall Brother Manak as Treasurer. Before
the meeting adjourned and after the vote, President Williams again asked Brother Manak to return all lodge
property and he refused to do so. FOP District 4 director Mike Kelly was present and also informed Brother Manak
that the lodge President was giving him an order and that the books and keys were property

of Lodge SO and that he needed to comply. Brother Manak refused to comply and stated that he was not going to
relinquish any property of the lodge.
Sworn witness statements were obtained by the board members, who were present for the meetings.
I find probable cause exist to find Brother Ed Manak in violation of FOP Jim Fogleman Lodge SO bylaws Article 2
duties of Treasurer Section 1 subsection E whereas at any time, when ordered by the Board of Directors, he shall
deliver all monies, books and papers to the Board of Trustees.
This shall serve as a charging document to formally charge Brother Ed Manak with violation of the listed bylaws.

Yh . Lrt.J.se. &,;,a./
VY>,~~
State of Florida County of Palm Beach

APPENDIX 0032
000235

Rendon-Olivo, Jose M
Rendon-Olivo, Jose M
Monday, October 27, 2014 10:39 AM
Rendon-Olivo, Jose M
FOP

From:
Sent:
To:
Subject:

I, Jose Rendon attended an FOP meeting on June 24th and August 12th. Ed Manich was asked
By Bill Williams to return all books, treasures property to Lodge property, Ed Manich refuse

B~t•::do~ ~
Ju~don/?7-"-

rL

DL

(Z 53S-L("3~L\1- LCi0-0
4f : 15(m( f6

~

"""y
"""·
•• •••._;<t-,

0

STEPHNEYTiiOMPSON

,.. . ~ * MY COMMISSION I FF 150031
"!:.~"" EXPIRES: September 26, 2018
'1~ 0, p.dl--p

Bonded Ton, Budget Notary Smm

1

000236

APPENDIX 0033

WITNESS STATEMENT FROM APPOINTED TREASURER CARLOS DORTA

To whom it may concern,
My name is Carlos Dorta, and I am currently the appointed treasurer for the FOP Jim Fogleman
Lodge 50 located at 885 62°d Drive North in West Palm Beach, FL 33413, in Palm Beach County,
FL.
On June 24th, 2014, I attended an executive board meeting for the lodge to report on an issue
from the Ways and Means Committ-ee. During the meeting, I observed Lodge President Bill
Williams order Brother Ed Manak, who was the Lodge Treasurer, to turn over all books and keys
belonging to FOP Jim Fogleman Lodge 50. I observed Brother Manak openly refuse to comply
with the order that President Williams had just given him. President Williams again requested
Brother Manak a second time and Brother Manak refused to comply with the order. President
Williams requested for Brother Manak to turn over the Ledger, checkbooks and the keys to the
lodge ..President Williams reminded Brother Manak that the property belonged to the lodge,
and that he was to turn in the lodge property to the board. Brother Manak stated that he was
not going to turn anything over, and that he was not going to comply as he is the treasurer of
the lodge. The meeting adjourned and Brother Manak left the lodge without returning any
lodge property.
This request by President Williams came after the discovery of misleading statements,
inappropriate actions on behalf of Brother Manak and thousands of dollars of unexplained and
misappropriated expenses.

I swear and affirm this statement is correct and true.

State of Florida County of Palm Beach

The Foregoing instrument was sworn to or affirmed and subscribed before me this
November, 2014, by carlos Dorta.
Type of Identification produced

fC: /) '- /) t 3 c - I b I - ) 7- ) J 7-

~=

f

I 1-

day of

D

Martin Rico·
State of Florida
My Commission Expires 02/12/2018
Commission No, Ff: 92429

APPENDIX 0034
000237

FRATERNAL ORDER OF POLICE JtPI FOGLEMAN LOUGE #50
3rd Yr.Trustee Rafad Padilla~Rodriguez

To whom it may concern,
I am a Third-year Board of Trustee member for the Jim Fogleman FOP lodge 50 located at 885 62nd
Drive North, West Palm Beach, Florida 33413.
While in attendance at an Executive Board Meeting on the evening of June 24, 2014, I observed
lodge President, William Williams, request and subsequently order Treasurer Edward Manak, turn
over all keys, documents, and properties belonging to the Lodge. This request came after months of
numerous unsuccessful attempts for .l\1r. Manak to abide by the Board's decision to cease costly
accounting practices. This, along with blatant and unauthorized decisions on Mr. Manak's behalf,
have resulted in thousands of dollars in unexplained expenses and lost revenue to our organization.
After the request by Williams, Mr. Manak became agitated and shouted he would not relinquish any
of the aforementioned items, stating no one had the right to question him because he was the
lodge's Treasurer. Mr. .l\fanak further advised, "He would continue storing lodge documents at his
residence because it was the safest place to keep them, and did not care what anyone had to say."
It should be noted prior to this incident I have observed this same explosive response on numerous
occasions by Mr. Manak, regarding similar inquiries. This Board has spent the better part of the
2014 fiscal year, making amends for Mr. Manak's unauthorized actions, which have resulted in
unwarranted expenses and mired the evolvement of this Board and its membership.

I swear and affirm this statement is correct and true.
State of Florida County of Palm Beach

Notary Public

NOTARY PU> i,. '. '.".. , ;,;f IT..ORIDA
~......,.,,u,,,,,,,_
K?.: f:'n Andrews

f ~ ~ ComrrLsi,;r; # EE044502

l<.ar-e11 PJ1d,tw S
Jl./d t.J ~//'J /)-er UI :.Jo i '/

-::.,,,........-' Expires:

NOV. 22, 2014

APPENDIX 0035
BO~'DED THRG ATLA.\'TIC .SOXDIXG CO., INC.

000238

Statement of Secretary Thomas J. Hannigan regarding the misconduct
of Treasurer Edward Manak
At the June 24th, 2014 meeting of the Elected Board of Directors of FOP Lodge #50, I
was present and serving in the capacity as the Lodge Secretary. During this meeting,
President Williams, at the request of the Board of Trustees, ordered Treasurer Manak to
relinquish all checkbooks, ledgers, papers, receipts and post office box key to the Board.
Manak emphatically stated he would not do it and refused again when ordered
to do so by President Williams a second time.

&~tary
Fraternal Orae"rof Police
Jim Fogleman Lodge #50, lnc

State of Florida
County of Monroe
Sworn to (or affirmed} and subscribed before me this __l_u_ _ day of ~L\J
2014, by Thomas J. Hannigan.
\\\\ii

.. ~ c'< an,,,,,
PLo ,,,

"'~.••~,QT.Ab••
········· u,.i\~
~,;....,:..
"-' ,
r •. \'(\'
.:...•,v,y Comm.,,,T,,__.••
,.
i=-,. \
:

r-

-J .••

(Notary Seal)

•

:

\'

May~ -,.,.. es.
"'~. 2015

:

~\ No. EE964os /
Personally Known
Type of Identification
Produced

•

OR Produced ldentification_Y,""'----

F\ =i:>r\\,. , '.) \

i I b:<Y'\,

•• ll

•••

:

~

_,,~···.. uauc ..·· ~~~

··- ··.~v~
,,,,~!,,,,

,.,

~.
APPENDIX 0036
000239

Witness Statement of Lodge President Vifii!iam F. Williams

On June 3, 2014, I, the Undersigned President of the Fraternal Order of Police, Jim Fogleman Lodge # SO
ordered Bother Edward Manak to bring in all checkbooks, ledgers, records, papers and receipts, to the FOP
lodge because the board of trustees wanted to conduct their annual audit which is required by our Lodge's
constitution and by-Laws. Brother Manak had been keeping all the check books, receipts and papers at his
house. My order to do so was sent to him electronically via email because l wanted to have a record of my
direct order. I did this because I had previously ordered Brother Manak to do so several times in the past
and he never complied. Brother Manak did receive my email on June 3, 2014 which was confirmed via a
read receipt.
On June 4, 2014, I met with Brother Manak in person at Lake Lytal Park in West Palm Beach and I asked him
if he received my email from yesterday. He said yes he did. I asked him if he had the books & papers with
him. He said no they are at his house. I asked him if he was going to bring them to the lodge and he told me
no, he wasn't going to. I then made it perfectly clear to Brother Manak that I was the President of Lodge SO
and I was not asking him to bring in the books & papers and the post office box key to the lodge but I was
giving him a direct order to do so. Brother Manak became red in the face and raised his voice and yelled "No
I won't do it." Brother Manak started accusing me and other board members of wanting to steal money
from the lodge. I asked Brother Manak why he was thinking that. He told me they are all part of a P.B.A. plan
to steal the FOP's money. I asked if he had any evidence of that and he said no.
On June 24, 2014 Brother Manak did attend the elected board meeting and was again ordered by the board
of trustees to bring in all checkbooks, ledgers, records, papers and receipts to the board oftrustees so that
our annual audit could be conducted by the board of trustees. I also directly ordered Manak to turn over the
books, papers and post office box key. Manak told me and the members of the elected board of directors
that were in attendance that he will not do it.
Brother Edward Manak was insubordinate by not recognizing the authority of his superior officers and he
deliberately refused to comply with lawful orders therefrom. Brother Manak violated his oath /obligation for
his office as the elected lodge treasurer and he violated his oath/ obligation for the order.

Sworn to by Affiant:

~ .
Fraternal Order of Police,
Jim Fogleman Lodge #SO

APPENDIX 0037
000240

INSTALLATION OF OFFICERS
(The newly elected Officers may be installed by any Past President or by the retiring President,
who will be called the Installing Officer.)"
INSTALLING OFFICER - My Brothers (and Sisters), you have been legally and duly elected
to the office you have chosen. A vast amount of confidence and trust has been placed in you,
and a great responsibility rests upon you. It is your duty to guard well the honor and dignity of
this Lodge and of your office.

It is your privilege to use the authority of your office, not for personal gain, but for the best
interest and welfare of this Lodge and all its members, and it is your duty to use any and all
honorable means toward that end; to all of which the obligation you are about to take will bind
you under no Jess penalty than that of being impeached and expelled from the Order for
violation of the same. With this knowledge, are you willing to proceed?
(Each one answers) - I AM.
INSTALLING OFFICER - Then hold up your right hand, pronounce your name in full and
repeat after me.
(Installing Officer gives three raps of the gavel which raises the entire Lodge.)

Obligation
I, ___
in the presence of the Creator of the Universe, and the members of the
Fraternal Order of Police here assembled, do-most solemnly and sincerely promise and swear,
that I will, to the best ofmy ability, comply with all the laws and rules of this Order; that I will
recognize the authority of my superior officers, obeying all the laws, rules and edicts of the
Grand Lodge; that I will abide by and support the Constitution and By-Laws of this Order; that
I will be fair in all my dealings with this Lodge during my term of office; that I will not use the
authority invested in me for personal gain, or for any other cause, except for the best interests
and welfare of this Lodge and its members.

\

(

Should I violate this, my solemn oath or obligation, I hereby bind myself under no less a
penalty than that of being impeached from office and expelled from the Order.
To all of which I solemnly and sincerely promise and swear, so help me God, and keep me
steadfast.
(The Installing Officer gives one rap of the gavel which seats the Lodge.)

9

f

APPENDIX 0038
000241

Article II
Duties of the Treasurer
Section 1.

It shall be the duty of the Treasurer to:
(A)

Receive from the Secretary all monies belonging to the lodge and issue
receipt for same.

(B)

Pay all orde_rs drawn on him, signed by the President and the Secretary.

(C)

Keep an accurate account of all monies received and expended and credit
each special account with such sums as_they occur.

(D)

Provide the audit committee with a correct account of all monies in his
possession, together with the books, papers and receipts belonging to his
office.

(E)

At any time, when ordered by the Board of Directors, he shall deliver all
monies, books and papers to the Board of Trustees.

(F)

Deposit all monies belonging to the lodge in a financial institution
chosen by the Board of Directors to the credit of the lodge.

(G)

Deliver to his successor in office, all books and property belonging to
the lodge, within ten (10) days of the expiration of his term.

(H)

Perform such other duties as are usual and incident to his office.

(I)

At each session of the Board of Directors, submit a full and complete
report of official business transacted by him subsequent to the last
meeting of the Board of Directors, together with recommendations as
he may deem advisable .

......

22

APPENDIX 0039
000242

f

Filing# 76917265 E-Filed 08/23/2018 05:03:03 PM

IN THE CIRCUIT COURT OF THE 15m JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARDMANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILL S. TWIGG,
Plaintiff(s),
vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

- - - - - - - - - - - -I
DECLARATION OF JERMAINE DAVIS

1.

My name is Jermaine Davis, I am one of the Plaintiffs in this action, and I have

personal knowledge of the facts herein.
2.

As a result of the unlawful expulsion, Plaintiff Manak, the other Plaintiffs, and

myself have suffered the following damages, losses and/ or injuries: loss of membership in the
FOP; loss of benefit of Legal Aid provided as a benefit for all members of the Defendant; loss of
association with the membership at meetings in the lodge of the Defendant; loss of standing and
reputation in the law enforcement community. Further, PlaintiffManak also lost his Board
position as treasurer, an elected Board member, when he was removed without just cause and in
retaliation for objecting to what he reasonably believed to be improper demands for
reimbursement of expenses by the Board and misuse or misappropriation of funds by the new
treasurer. Manak also was removed from the FOP State Memorial committee.

1

APPENDIX 0040
000246
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 08/23/2018 05:03:03 PM

3.

The other Plaintiffs and myself have standing to sue in accordance with Florida

Supreme Court case law and the facts of this case.
4.

Manak was the lawful treasurer and his removal was an act of bad faith

surrounded with criminal intent on the part of the Defendant.
5.

Plaintiff Manak was not properly removed as treasurer from FOP Lodge #50, but

was removed because the FOP Lodge #50 Board Members wanted unlawful access to lodge
funds. On or about September 1, 2014, at the PGA National Resort and Spa, Manak was
reinstated as treasurer by the Florida State Lodge after which Manak said aloud that he would
have a forensic audit done as was his right. The FOP Executive Board sought to expel Manak to
stop him from conducting such an audit.
6.

Manak was improperly removed as treasurer of the Defendant on or about August

26, 2014, after he refused to resign as treasurer and tum over all records to a new treasurer.
Manak later objected to the movement of the funds from five (5) PNC Bank accounts that the
Defendant owned to personal accounts of the new treasurer of the Defendant, Carlos Dorta,
which took place on or about September 16, 2014. After Manak was improperly ousted by the
Board in retaliation for objecting to improper removal and in violation of Defendant's bylaws, he
appealed to the Fraternal Order of Police Florida State Lodge which ordered him reinstated as
Treasurer on or about October 1, 2014. Despite this, Manak was then expelled by the Defendant
as a member on or about January 13, 2015; was denied a hearing on said expulsion by the
Chairman of trustees of the Florida State Lodge, Rob Robertson on or about June 11, 2015, and
was prevented from seeking an appeal to the national Grand Lodge by David Frazier. Manak
was unlawfully expelled from the FOP due to the Lodge's bad faith and unfair play.
2

APPENDIX 0041
000247

7.

My unlawful expulsion from FOP Lodge #50 was overturned by the FOP Florida

State Lodge Board of Trustees on February 13, 2015, at the Orlando, Florida conference/meeting.
During this meeting it was finally admitted by an FOP Lodge #50 Executive Board member and
the current FOP Lodge #50 secretary that the meeting halls doors were locked with the intention
oflocking out dues paying members who had a right to be present. On October 2, 2014, the FOP
Florida State Lodge Grievance Committee advised FOP Lodge #50's Executive Board President,
Vice President, and other FOP Lodge #50 Executive Board Members that FOP Lodge #50 is to
be run by its members and not the Executive Board, and the Executive Board is not permitted to
lock its members out of Executive Board Meetings. This is not the first time that FOP Lodge
#50's Executive Board Members have been warned about not locking its members out of
meetings, as the same thing happened during a meeting on April 29, 2014. The FOP Florida
State Lodge Constitution and Bylaws, Article 20 (Discipline) and the FOP Grand Lodge
Constitution and Bylaws, Article 23 (Discipline) state the non prevailing party may appeal the
decision to the FOP Grand Lodge or the Biannual Conference, which FOP Lodge #50 failed to do
when both Twigg's and my expulsions were overturned.
8.

In spite of the same issues that Manak faced, Twigg was reinstated as a member

by the Florida State Lodge. Subsequently FOP Lodge #50 charged him again with the same
charges which should never have been done because the constitutions and bylaws only permitted
FOP Lodge #50 to appeal the Grand Lodge when Twigg won his first appeal.
9.

V easy was expelled without notice and without a hearing as required. V easy

obtained valid membership in Lodge #50. He did nothing wrong. Veasy was unlawfully
expelled because he objected to violations of Twigg's rights under the FOP Constitution and

3

APPENDIX 0042
000248

Bylaws.
10.

Contrary to Defendant's false allegations, Twigg is not a convicted felon. See

August 1, 2018, decision from the Fourth District Court of Appeal in Will Twigg v. State of
Florida, 4Dl 7-1694, attached as Exhibit 1. Further, Defendant's attempted argument here would
be false either way because FOP Lodge 50 has had a member in the past who was a convicted
felon for years.

UNDER PENALTY OF PERJURY, I DECLARE THAT THE FACTS SET FORTH
HEREIN ARE TRUE AND CORRECT.

-j:4/0VllAW.JJ£:i.J
RMAINE T. DAVIS

ISIDRO M. GARCIA
Florida Bar No. 437883
GARCIA LA\V FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTlFF

4

APPENDIX 0043
000249

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA ·EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Buschel Gib~ns, P.A.,
100
Third Avenue, Suite 1300, Fort Laude ale, FL 33'4) this ~ day of

!·E.

:5"':f'1\:

, 201s.

.

. ~
\:tft1{/lv

C,L
,.~ · -

5

APPENDIX 0044
000250

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT
WILL TWIGG,

Appellant,

v.
STATE OF FLORIDA,

Appellee.
No. 4D17-1694
[August 1, 2018]
Appeal from the Circuit Court for the Fifteenth Judicial Circuit, Palm
Beach County; Glenn D. Kelley, Judge; L.T. Case No. 50-2014-CF-010319AXXX-MB.
David F. Pleasanton of David F. Pleasanton, P.A., West Palm Beach, for
appellant.
Pamela Jo Bondi, Attorney General, Tallahassee, and Matthew Steven
Ocksrider, Assistant Attorney General, West Palm Beach, for appellee.
DAMOORGIAN, J.

Appellant, Will Twigg, appeals his conviction and sentence for one
count of battery on an emergency medical care provider and one count of
battery following an altercation between Appellant and staff members at a
Veteran's Administration hospital ("VA"). On appeal, Appellant argues
that: 1) the State failed to prove that he committed the offense of battery
on an emergency medical care provider; and 2) Appellant's trial counsel
was ineffective on the face of the record for failing to request a self-defense
jury instruction and failing to move for a judgment of acquittal on the
battery on an emergency medical care provider charge. We agree with
Appellant's arguments pertaining to the battery on an emergency medical
care provider count and reverse that conviction. We affirm otherwise.
Background

PLAINTIFF'S
EXHIBIT

APPENDIX
I 0045
000251

Appellant was involuntarily brought to the emergency department of
the VA pursuant to Florida's Baker Act1 after his employer reported that
Appellant was exhibiting· erratic behavior. Appellant was subsequently
admitted to the VA's inpatient psychiatric unit where, after learning that
he was not being released, Appellant became combative and spit on a
nurse and a VA law enforcement officer. Based on the foregoing, the State
charged Appellant with one count of battery on an emergency medical care
provider for spitting on the nurse, one count of battery for spitting on the
VA officer, and one count of resisting an officer without violence. Appellant
pled not guilty and filed a notice of intent to rely upon insanity as a
defense.
The matter proceeded to a jury trial where the State presented evidence
that the nurse victim was a Licensed Practical Nurse ("LPN") who, on the
day in question, was working in the VA's inpatient psychiatric unit. The
State's evidence also established that the psychiatric unit was a secure
lockdown unit which was separate and distinct from the VA's other
departments, including the emergency department. At the conclusion of
the State's case, Appellant1s counsel declined to move for a judgment of
acquittal ("JOA") on any of the charges. Instead, counsel focused on an
insanity defense, presenting evidence from a psychiatrist who opined that
Appellant was not able to determine whether what he did was right or
wrong when he spit on the nurse and VA officer.
Considering the evidence, the jury rejected Appellant's insanity
affirmative defense and found him guilty .of battery on an emergency
medical care provider, guilty of battery, and not-guilty of resisting an
officer without violence. The court adjudicated Appellant per the jury's
verdict and sentenced Appellant to time served followed by eighteen
months of probation.

Analysis
a) Sufficiency of the Evidence Proving Battery on an Emergency
Medical Care Provider
Appellant contends that the State's evidence regarding the nurse victim
was insufficient to support a conviction for battery on an emergency
medical care provider. Appellant is correct.
Section 784.03 of the Florida Statutes provides that the offense of

battery is a third degree misdemeanor and "occurs when a person: 1.
1

§§ 394.451-.47892, Fla. Stat. (2015).
2

000252

APPENDIX 0046

[a]ctually and intentionally touches or strikes another person against the
will of the other; or 2. (i]ntentionally causes bodily harm to another
person." § 784.03(1)(a)-(bL Fla. Stat. (2015). When a battery is committed
on certain persons, including "an emergency medical care provider ...
while the ... emergency medical care provider ... is engaged in the lawful
performance of his or her duties/' section 784.07 of the Florida Statutes
reclassifies the offense "of battery, from a misdemeanor of the first degree
to a felony of the third degree." § 784.07(2), (2)(b) 1 Fla. Stat. (2015).
Based on the foregoing, the elements of the offense of battery on an
emergency medical care provider are: (l} the defendant intentionally
touched or struck the victim or intentionally caused bodily harm to the
victim; (2) the victim was an emergency medical care provider; (3) the
defendant knew that the victim was an emergency medical care provider;
and (4) the emergency medical care provider was engaged in the lawful
performance of his or her duties when the battery was committed. Fla.
Std. Jury Instr. (Crim.) 8.11; State v. Granner, 661 So. 2d 89, 90 (Fla. 5th
DCA 1995). Therefore, in order to prove that Appellant committed the
offense of battery on an emergency medical care provider with respect to
the alleged nurse victim, the State was required to prove that the nurse
was indeed "an emergency medical care provider."
The term "emergency medical care provider" is defined as:
1) [A]n ambulance driver, emergency medical technician,
paramedic, registered nurse, physician as defined in s.
401.23, medical director as defined ins. 401.23, or any person
authorized by an emergency medical service licensed under
chapter 401 who is engaged in the performance of his or her

duties.
2) The term "emergency medical care provider" also includes
physicians, employees, agents, or volunteers of hospitals as
defined in chapter 395, who are employed, under contract, or
otherwise authorized by a hospital to perform duties directly
associated with the care and treatment rendered by the
hospital's emergency department or the security thereof.
§ 784.07{l)(a), Fla. Stat. (2015) (spacing and numbering added).

In Spurgeon v. State, 114 So. 3d 1042, 1045 (Fla. 5th DCA 2013), the
Fifth District clarified that because section 784.07 is penal in nature, the
definition of "emergency medical care provider" must be strictly construed
in conjunction with its plain language. Accordingly, in order to meet the
3

000253

APPENDIX 0047

first classification of persons outlined in the definition of "emergency
medical care provider," the State needed to establish that the nurse victim
was a "registered nurse . . . or any person authorized by an emergency
medical service license under chapter 401 who is engaged in the
performance of his or her duties." § 784.07(1)(a), Fla. Stat. (2015).
The definition section of chapter 401 defines a "registered nurse" as "a
practitioner who is licensed to practice professional nursing pursuant to
part I of chapter 464." § 401.23(20), Fla. Stat. (2015) (emphasis added).
Chapter 464 governs the regulation of nursing in Florida. Part I of Chapter
464 provides that an LPN is any "person licensed in this state or holding
an active multistate license under s. 464.0095 to practice practical
nursing." § 464.003(16), Fla. Stat. (2015) (emphasis added). It further
delineates that "the practice of practical nursing" is distinct from "the
practice of professional nursing'' and that only a "registered nurse" is
licensed "to practice professional nursing." § 464.003(19)-(20), (22), Fla.
Stat. (2015} (emphasis added). As an LPN is only licensed to practice
practical, not professional, nursing, an LPN does not meet the definition
of a "registered nurse" under either chapter 401 or 464. Therefore, as an
LPN, the nurse victim did not qualify as a "registered nurse" as used in the
definition of "emergency medical care provider."
Likewise, the evidence also did not establish that the nurse victim was
"any person authorized by an emergency medical service license under
chapter 401." Chapter 401 provides for the licensure of emergency
.medical transportation services such as ambulances and air ambulances.
§§ 401.25, .251, Fla. Stat. (2015). The nurse victim was working for a
hospital, not a medical transportation service. Accordingly, based on both
her license classification and who she worked for, the State did not prove
that the nurse victim fell under the first class of persons defined as an
"emergency medical care provider."
To fall under the second classification of persons outlined in the
definition of "emergency medical care provider," the State was required to
prove that the nurse victim was an "employee[], agent(], or volunteer[] of
[a] hospital[] as defined in chapter 395, who [was] employed, under
contract, or otherwise authorized by (the] hospital to perform duties
directly associated with the care and treatment rendered by the hospital's
emergency department or the security thereof." § 784.07(1)(a), Fla. Stat.
(2015) (emphasis added). The evidence adduced at trial established that
when she was spit upon, the nurse victim was performing LPN services in
the VA's inpatient psychiatric unit. The evidence also established that the
VA's inpatient psychiatric unit was separate and distinct from its
emergency department. Accordingly, the evidence submitted at trial did
4

000254

APPENDIX 0048

not establish that the nurse victim's duties were "directly associated with
the care and treatment rendered by the hospital's emergency department."
Id. Thus, the State also did not prove that the nurse victim qualified as
an "emergency medical care provider" under either classification.
Despite the State's failure to prove that the nurse victim qualified as an
"emergency medical care provider," Appellant failed to move for a JOA
based on the insufficiency of the evidence and, therefore, failed to preserve
the issue for anything other than a fundamental error review. F.B. v. State,
852 So. 2d 226, 229 (Fla. 2003).
[I]n order to be of such fundamental nature as to justify a
reversal in the absence of timely objection the error must
reach down into the validity of the trial itself to the extent that
a verdict of guilty could not have been obtained without the
assistance of the alleged error.

Id. (quoting Brown v. State, 124 So. 2d 481, 484 (Fla. 1960)). Based on
this narrow application, the Florida Supreme Court has clearly delineated
that unpreserved challenges to the sufficiency of the evidence may only be
reviewed for fundamental error in two circumstances: "(1) the mandatory
review by [the supreme court] of the evidence by which a capital defendant
was convicted and sentenced to death; and (2) when there is insufficient
evidence that a defendant committed any crime." Monroe u. State, 191 So.
3d 395, 401 (Fla. 2016). Accordingly, the insufficiency of the evidence to
prove an element of a crime does not warrant fundamental error review.
Bagnara v. State, 189 So. 3d 167, 171 (Fla. 4th DCA 2016) (state's failure
to prove value element of grand theft was not fundamental error).
Therefore, Appellant's insufficiency of the evidence argument is not
cognizable on appeal. The issue is, however, cognizable as an ineffective
assistance of counsel claim.
b) Ineffective Assistance of Counsel on the Face of the Record
"[I]neffective assistance of counsel claims should rarely be raised on
direct appeal because they are generally fact-specific." Michel v. State, 989
So. 2d 679, 681 (Fla. 4th DCA 2008). As a result, "[a]ppellate courts do
not ordinarily address ineffective assistance of counsel concerns until a
defendant seeks postconviction relief because such courts are limited to
reviewing the record directly before them." Monroe, 191 So. 3d at 403.
"On rare occasions, the appellate courts make an exception to this rule
when the ineffectiveness is obvious on the face of the appellate record, the
prejudice caused by the conduct is indisputable, and a tactical explanation
5

000255

APPENDIX 0049

for the conduct is inconceivable." Bagnara, 189 So. 3d at 171 (quoting
Corzo v. State, 806 So. 2d 642, 645 (Fla. 2d DCA 2002)).

i)

Failure to Move for a JOA on the Battery on an Emergency
Medical Care Provider Count

[F]ailure to move for a judgment of acquittal when the State
has not proved an essential element of its case, when it is clear
that the State could not reopen its case to prove that essential
element, amounts to ineffective assistance of counsel that
may sometimes be adequately assessed from the record on
direct appeal.
Corzo, 806 So. 2d at 645.

As discussed above, the State did not prove, and from our review of the
record could not prove, that the nurse victim qµalified as an "emergency
medical care provider," an essential element of the offense of battery on an
emergency care provider. Therefore, had counsel made a proper motion,
Appellant would have been entitled to a JOA on the battery on an
emergency medical care provider count and a reduction of the charge to
the lesser included offense of battery. The distinction between the two
offenses is significant as battery is a misdemeanor while battery on an
emergency care provider is a felony. Thus, it is plain from the face of the
record that counsel's failure to seek a JOA on the battery on an emergency
care provider charge was prejudicial to Appellant and . constituted
ineffective assistance of counsel. See Bagnara, 189 So. 3d at 1 72
(counsel's failure to properly move for JOA when state did not prove value
element of grand theft constituted ineffective assistance of counsel on the
face of the record); Gordon v. State, 126 So. 3d 292, 295-96 (Fla. 3d DCA
2011) (counsel's failure to properly move for JOA when state did not prove
all of the elements of charged crime constituted ineffective assistance of
counsel on the face of the record).
Under these circumstances, "[i]t would be a waste of judicial resources
to postpone addressing this issue until [Appellant] seeks post-conviction
relief for ineffective assistance of counsel below." Lesovsky v. State, 198
So. 3d 988, 992 (Fla. 4th DCA 2016). Accordingly, we reverse Appellant's
conviction for battery on an emergency medical care provider.
ii)

Failure to Reguest a Self-Defense Instruction

Appellant also argues that his counsel was ineffective for failing to
request a self-defense jury instruction which, according to Appellant,
6

000256

APPENDIX 0050

would have been based on a theory that Appellant was protecting himself
from being illegally detained under Florida's Baker Act. Appellant is
correct that self-defense is a viable defense to the crimes of battery and
battery on an emergency medical care provider. See Spurgeon, 114 So. 3d
at 104 7. Further, even though Appellant also asserted insanity as a
defense, Appellant was entitled to assert self-defense as an alternate
theory of defense regardless of whether the defenses may have been
inconsistent. See Martin v. State, 110 So. 3d 936, 939 (Fla. 1st DCA 2013)
(defendant was entitled to have jury instructed on self-defense in
aggravated assault on a law enforcement officer case even though
defendant also asserted that he was insane). Thus, had Appellant's
counsel requested a self-defense instruction, it certainly would have been
error for the court to deny the request. Spurgeon, 114 So. 3d at 1047.
However, this does not mean that counsel was necessarily ineffective
on the face of the record for failing to make such a request. "[S]trategic
decisions do not constitute ineffective assistance of counsel if alternative
courses have been considered and rejected and counsel's decision was
reasonable under the norms of professional conduct." Occhicone v. State,
768 So. 2d 1037, 1048 (Fla. 2000).
Here, Appellant's counsel primarily argued that Appellant was not
guilty by way of insanity because Appellant did not lmow what he was
doing or that what he was doing was wrong due to his mental condition.
Arguing self-defense as proffered would have required Appellant's counsel
to assert that, in the alternative, Appellant knew what he was doing but
reasonably believed he needed to act to protect himself from being
unlawfully detained. It is entirely possible and reasonable that counsel
made a strategic decision not to pursue an alternate defense of self-defense
in order not to undermine the credibility of the proffered insanity defense.
Compare Cole v. State, 221 So. 3d 534, 543-44 (Fla. 2017) (counsel's
decision to abandon duress defense and instead argue that the defendant
did not knowingly participate in the crime was strategic and reasonable),
with Kruse v. State, 222 So. 3d 13, 17 (Fla. 4th DCA 2017) (counsel was
ineffective on the face of the record for failing to request a self-defense
instruction when the evidence supported the instruction and there could
be no strategic basis for not asking for the instruction as self-defense was
the defendant's only proffered defense). Under the facts of this case, this
issue of whether counsel was deficient for failing to request a self-defense
instruction requires explanation from counsel and is, therefore, better
suited for postconviction proceedings.
Conclusion

7

000257

APPENDIX 0051

In conclusion, we hold that the State did not and could not prove the
nurse victim was an "emergency medical care provider" and, therefore, did
not prove that Appellant committed the offense of battery on an emergency
medical care provider. Although Appellant's trial counsel did not preserve
this error for appeal by moving for a JOA and the error is not fundamental,
counsel's failure to move for a JOA constitutes ineffective assistance of
counsel on the face of the record. Counsel was not, however, ineffective
on the face of the record for failing to request a self-defense instruction
when counsel also proffered a potentially inconsistent insanity defense.
Based on the foregoing, we reverse Appellant's conviction and sentence for
battery on an emergency medical care provider and, on remand, direct the
trial court to enter a judgment of guilt for the lesser-included offense of
battery and proceed with a resentencing on that count. We otherwise
affirm without prejudice for Appellant to file a motion for postconviction
relief on the self-defense issue.

A/finned in part, reversed in part and remanded.
LEVINE, J., concurs.
KUNTZ, J., concurs specially
KUNTZ,

with opinion.

J., concurring specially.

As Judge Winokur explains in his concurring opinion in Latson u. State,
193 So. 3d 1070, 1071-75 (Fla. 1st DCA 2016), direct appellate review of
a criminal judgment should be limited to preserved arguments and
fundamental error. Section 924.051(2), Florida Statutes (2017), states
that "[t]he right to direct appeal . . . may only be implemented in strict
accordance with the terms and conditions of this section," and section
924.051(3) limits review on direct appeal to "prejudicial error'' that "is
properly preserved or, if not properly preserved, would constitute
fundamental error." So "[i]t seems clear that fundamental error is the 'sole
exception' to the general rule that a party must preserve errors to raise
them on appeal." Latson, 193 So. 3d at 1072 (Winokur, J., concurring).
Despite this statutory limit on our authority, a Florida Supreme Court
decision compels reversal. Thus, I fully concur in the Court's opinion.
In this case, the State failed to prove each element of the crime for
which the Defendant was convicted. At the close of the State's case, the
circuit court asked defense counsel whether he intended to assert any
motions. In response, defense counsel represented that the Defendant
was not seeking a judgment of acquittal.

8

000258

APPENDIX 0052

Similarly, in Monroe v. State, 191 So. 3d 395, 398 (Fla. 2016), "[a]fter
the State rested, the trial court asked defense counsel if they intended to
move for judgment of acquittal. Defense counsel declined." The defendant
argued on appeal that the state failed to introduce evidence to establish
an element of the crime. Id. at 399-400. Conceding the issue was not
preserved, the defendant argued it was fundamental error to convict him
when the State failed to prove each element of the crime. Id.
Our supreme court reaffirmed its prior decisions, holding that
unpreserved challenges to the sufficiency of the evidence cannot be
reviewed on direct appeal when there is sufficient evidence to establish the
defendant committed a crime. Id. at 401-02. Such unpreserved claims
are only cognizable as fundamental error on direct appeal when the State
fails to prove the defendant committed any crime at all. Id.
But the lack of preservation or fundamental error did not result in an
affirmance. Id. The court continued and held "that the failure of Monroe's
trial counsel to preserve the sufficiency of the evidence issue for appellate
review constitutes ineffective assistance of counsel that is apparent from
the face of this record." Id. at 402. Based upon the finding of ineffective
assistance of counsel on the face of the record, the court reversed. Id. at
404.
The question presented in this case is nearly identical to that answered
in Monroe. In both cases, ·1:he State failed to prove each element of the
crirn,e, but the defendant did not preserve the issue by moving .for a
judgment of acquittal. Further, in both, the State presented sufficient
evidence to establish a lesser included offense thereby precluding
fundamental error.
Based on Monroe, I agree that we must reverse the Defendant's
conviction for ineffective assistance of counsel on the face of the record.
The circumstances are too similar. But absent the controlling opinion
from the supreme court, I would question our authority to do so. The
legislature limited direct appeal of a criminal judgment to preserved issues
and fundamental error. Notwithstanding the statutory limits, claims of
ineffective assistance of counsel on direct appeal are now commonly
asserted. As Judge Winokur concluded, "the practice of permitting claims
of ineffective assistance of counsel on direct appeal stemmed from a
misreading of case law, and is directly contrary to controlling statutory
law." Latson, 193 So. 3d at 1074. Allowing a defendant to assert claims
of ineffective assistance of counsel on direct appeal, absent fundamental
error, allows the defendant to evade the strict requirements for
fundamental error and "deprives trial counsel of the opportunity to defend
9

000259

APPENDIX 0053

themselves against allegations of unprofessional conduct." Id. In the
future, we should be careful to limit our review to that authorized by
statute or1 as here, mandated by supreme court precedent.
*

*

*

Not final until disposition of timely filed motion for rehearing.

10

000260

APPENDIX 0054

Filing# 77074761 E-Filed 08/27/2018 05:23:49 PM

IN THE CIRCUIT COURT OF THE 15rn JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
EDWARDMANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILL S. TWIGG,
Plaintiff(s),
vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

- - - - - - - - - - - -I
DECLARATION OF MARK JOHNSON
UNDER PENALTY OF PERJURY, I declare as follows:
1.

My name is Mark Johnson. I am over the age of 18 and I am Plaintiff's counsel's
paralegal and have personal knowledge of the facts herein.

2.

On May 21, 2018, I e-filed Plaintiffs' First Request to Produce to Defendant, attached as

Exhibit 1.

3.

On May 22, 2018, I e-filed Plaintiffs' First Set oflnterrogatories to Defendant, attached
as Exhibit 2.

4.

On June 22, 2018, the day after Defendant's responses to Plaintiffs' First Request to
Produce were due and the day Defendant's answers to Plaintiffs' First Set of
Interrogatories were due, instead of providing said responses and answers, Defendant
filed a Motion for Summary Judgment and Protective Order, attached as Exhibit 3.

1

APPENDIX 0055
000261
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 08/27/2018 05:23:49 PM

Defendant claims Plaintiffs' requests can never lead to admissible evidence. Defendant
further states that Plaintiffs' are not entitled to discovery at all because they have no
standing to sue the FOP.
5.

To the date of my declaration Defendant has still refused to provide answers and
responses to Plaintiffs' discovery requests. I have not been able to attempt to coordinate
depositions for this case due to Defendant's stance that Plaintiffs' are not entitled to
discovery at all and Defendant's refusal to respond to Plaintiffs' discovery requests,
including providing documents it may have in its possession.

MARKJ

IS 1 0
Fl r· a ar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF

2

APPENDIX 0056
000262

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Buschel Gibbo~s, P.A.,
day of
100 ~ · Thirt Avenue, Suite 1300, Fort Lauderdale, ~ 33394 this
,\1\,-(
'2018.

I

3

APPENDIX 0057
000263

Filing# 72453893 E-Filed 05/21/2018 04:36:15 PM

IN THE CIRCUIT COURT OF THE 15m JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARD MANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILLS. TWIGG,

)

Plaintiff(s),

vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,

___________
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

__,/

:PLAINTIFFS' FIRST REQUEST TO PRODUCE

Pursuant to the Florida Rules of Civil Procedure, Plaintiffs, EDWARD MANA!(,
JERMAINE DAVIS, WILBUR VEASY, AND WILL S. TWIGG, by and through undersigned
counsel, hereby requests, Defendant, to produce the documents requested within thirty (30) days
'

'

of the service of this request at the offices of Plaintiffs' attorney, Isidro M. Garcia, 120 S. Olive
Ave., Suite 401, West Palm Beach, Florida 33401.
Definitions and Instructions
1.

The term 11 document11 shall mean any written or other tangible thing of every kind

and description, however produced or reproduced, whether draft or final, in the actual or
constructive possession of the Defendant or their custody 01· control, original or reproduction,
including but not limited to: letters, notes, correspondence, films, transcripts, telegrams, teletype
messages, contracts, agreements, including drafts, proposals and any and all modifications

1

PLAINTIFF'S
EXHIBIT

l
APPENDIX 0058
000264
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK,
CLERK, 05/21/2018 04:36:15 PM

thereof, licenses, memoranda, transcripts and recordings or summaries of telephone
conversations or personal conversations, microfilms, microfiche, books, newspapers, magazines,
advertisements, periodicals, circulars, pamphlets, statements, notices, recorded recollection and
any other form of written notation of events intentions, minutes, and/or resolutions, agendas,
expressions and/or statements of policy, reports, rules, regulations, directions, communications,
inter-office memoranda, graphs, charts, invoices, reports of consultants, photographs, and other
data computation from which information can be obtained.
2.

Defendant is requested to list all documents for which it claims any privilege in its

response to this Request for Production and to identify said documents and state the basis upon
which the claim for privilege is being made. The term "identify" shall mean to set-forth the
following: (1) name of origination, (2) name ofrecipient, (3) date, (4) brief description of subject
matter, (5) identify of any person or persons to whom the contents of the document have already
been communicated and (6) the identity of the person now in possession or control of the
document.
3.

If any document is not produced by the Defendant in their Response to this

Request for Production for any reason other than ground of privilege, please set forth the reason
and identity as defmed in No. 2, Supra, of any such document.
4.

The request is continuing in character to require the Defendant to file

supplemental responses.

2

APPENDIX 0059
000265

DOCUMENTS REQUESTED
1.

Any and all documents that constitute Plaintiffs' membership status(es) with the FOP for
all years in which Plaintiffs were members, and any other document which you have
pertaining to the Plaintiffs, including any records relating to their claims in this case.

2.

Any and all documents that constitute the policies, regulations, and bylaws of the
Defendant including but not limited to a personnel handbook, FOP Constitutions and
Bylaws, including national, state, and local.

3.

Any and all documents that you contend support any of the affirmative defenses that you
have or may raise in this matter.

4.

Any and all documents that you contend supports any of the denials in your Answer.

5.

Any and all documents that you will use for any purpose at the trial of this cause
including but not limited to: primary evidence; impeachment evidence; rebuttal evidence.

6.

Any and all documents that constitute a description for the position or positions held by
Plaintiffs with Defendant including but not limited to. "Elected Officer" positions.

7.

Any and all documents that constitute an insurance agreement and/or policy that may
provide coverage for the allegations set forth in Plaintiffs complaint.

8.

Any and all Treasurer's Reports for 2013-2016.

9.

Any and all documents that constitutes the Minutes of all lodge meetings for 2014,
including but not limited to sign-in sheets, notes, and recordings.

10.

Any and all documents that constitutes the Minutes of all executive meetings for 2014~
2016, including but not limited to sign-in sheets, notes, and recordings.

11.

Any and all documents constitutes Minutes of all special meetings for 2014, including but
3

APPENDIX 0060
000266

not limited to sign-in sheets, notes, and recordings.
12.

Any and all documents constitutes Minutes of all secret meetings for 2014, including but
not limited to sign-in sheets, notes, and recordings.

13.

Any and all documents relating and/or referencing Plaintiffs objecting to Manak's
removal as treasurer.

14.

Any and all documents identifying the structure of the Defendant at the local, state, and
national level including but not limited to: flow charts; position descriptions of
managerial personnel; any other such document.

15.

Any and all documents relating and/or referencing Plaintiffs objecting to the movement of
funds from five (5) PNC Bank accounts that the Defendant owned to personal accounts of
the new treasurer of the Defendant, Carlos Dorta, and all documents referencing accounts
such funds were moved into.

16.

Any and all statements you claim to have taken from the Plaintiffs or any person who may
be a witness to this case.

17.

Any and all e-mails for the time period of 2013-2015 to Plaintiffs from any
"@foplodgeSO.org" email address including, but not limited to
president@fop1odge50.org, vicepresident@foplodgeSO.org, secretai:y@foplodgeSO.org,
treasurer@foplodgeS O.org, conductor@foplodge5 0.com.

18.

Any and all e-mails for the time period of2013-2016 from Plaintiffs to any
"@foplodgeSO.org" email address including, but not limited to
president@foplodge50.org, vicepresident@foplodge50.org, secretary@foplodgeSO.org1
treasurer@foplodge5 0.org, conductor@foplodge5 0. com.

4

APPENDIX 0061
000267

Respect lly submittn

~·r-

'
ISIDRO M. GARCIA
Florida Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone: (561) 832-7732
Telecopier: (561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILINGPOR!AL(buschel@b~law-pa.com)to:RobertC.Buschel,Esq.,Busc~elGibfons,P.A.,
1~ S.E. Third Avenue, Suite 1300, Fort Lauderda e, FL 3339
his 1.\~ day of·

['!1o.1

' 2018.

.~

. . ...

IS

5

APPENDIX 0062
000268

Filing# 72488880 E-Filed 05/22/2018 12:08:51 PM

IN THE CIRCUIT COURT OF THE 1srn JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARDMANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILL S. TWIGG,
Plaintiff(s),
vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,

)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

)

)
)
)
)
)

)
)
)

Defendant(s).
--------------'/

PLAINTIFFS' FIRST SET OF INTERROGATORIES TO DEFENDANT

Plaintiffs, EDWARD MANAK, JERMAINE DAVIS, WILBUR VEASY, AND WILLS.
TWIGG, through counsel, and pursuant to Rule 1.3 80, Florida Rules of Civil Procedure, hereby
propounds the following interrogatories to Defendant, FRATEWAL ORDER OF POLICE JIM

.

'

'

FOGLEMAN LODGE #50, INC., to.be answered fully and und~r oath within thirty (30) days of
service hereof.

GENERAL INSTRUCTIONS
1.

These interrogatories are continuing in character to require the Defendant to file

supplemental answers.
2.

Each interrogatory is to be answered separately and as completely as possible.

The fact that investigation is continuing or that discovery is not complete shall not be used as an
excuse for failing to answer each interrogatory based on the knowledge you currently have.

1
}

i

PLAINTIFF'S
EXHIBIT

'L
---=---

APPENDIX 0063
000269
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK,
CLERK, 05/22/201812:08:51 PM

3.

In answering these interrogatories, furnish such information as is available to you,

not merely such information as is within your own knowledge. This means you are to furnish
infmmation which is known by or in the possession of your employees, representatives or agents,
including your attorneys.
4.

Do not incorporate by reference facts contained in documents or publications:

specify the precise facts, allegations, names, etc., called for by the interrogatories, regardless of
whether the same are set forth elsewhere.
5.

If you maintain that any document or record which refers to or relates to anything

about which these interrogatories ask has been lost or destroyed, set forth the contents of said
document, the location of any copies of said document, date of such destruction, and the name of
the person who ordered or authorized such destruction, if any.
6.

Whenever any objection is made to any numbered or lettered paragraph of any

interrogatory, an answer shall be furnished to any other numbered or lettered paragraph of such
interrogatory as to which there is no objection.
DEFINITIONS
Unless a contrary meaning appears in the text, the following definitions apply:
1.

The term 11you11 and 11your 11 means Defendant, its agents, and its predecessors and

successors, if any.
2.

11

Person 11 or "persons" mean all entities of whatever description, and includes all

individuals, associations, joint ventures, corporations, trusts and estates.
3.

The term 11Plaintiffs 11 means EDWARD MANAK, JERMAINE DAVIS,

WILBUR VEASY, AND WILLS. TWIGG.
2

APPENDIX 0064
000270

4.

The term "document" means (a) any written or graphic matter of any kind or

character, however produced or reproduced; (b) any electronically or magnetically recorded or
store matter of any kind or character, however produced or reproduced; and © any other matter of
any kind or character constituting the recording of any tangible thing, or storage in any
retrievable way, by any means of communication or representation or data retention.
5.

The terms "identify" or "identification" shall require, with respect to a document

or communication: (a) a brief statement of the general nature of communication or of the
documents' contents; (b) the identity of the person(s) who prepared the document or who was
(were) involved in the communication;© the place where the document was prepared or where
the communication took place; (d) the date of preparation of the document or of the
communication; (e) if the document or communication was directed or communicated to another
person, the identity of any person who was sent a copy of the document or communication; and
(f) the identity of the person or persons presently in possession of the original document and/or
copies.
6.

The term "identify" or "identification" shall require, with respect to a person: (a)

his, her or its full name; (b) the last known home and business address and telephone number of a
natural person, or the principal business address and telephone number of any other person; ©
with respect to a natural person, the identification of the person's employer(s) at all relevant times
and the person's job classification(s) or title.

3

APPENDIX 0065
000271

INTERROGATORIES

1.

Identify any person who has information relative to Plaintiffs' complaint or your defenses
to said claim and set forth each person's address, telephone number, and a succinct but
complete summary of the facts they have knowledge of.

4

APPENDIX 0066
000272

2.

Set forth the factual basis for each of your affirmative defenses and identify:
a) any person who has information about said affirmative defenses;
b) any documents that support said affirmative defenses.

5

APPENDIX 0067
000273

3.

Identify any documents that relate to the allegations of Plaintiffs' complaint.

6

APPENDIX 0068
000274

4.

Identify any and all documents that you intend to use for any purpose in this case
including as primary evidence, impeachment and/or rebuttal.

7

APPENDIX 0069
000275

5.

Identify any person with whom you have consulted that may be used as an expert witness

in this case for any purpose and provide a summary of what facts or opinions they will
offer in their testimony.

8

APPENDIX 0070
000276

6.

Identify any person(s) who replaced Edward Manak as Treasurer for Defendant and/or
any person(s) who became Treasurer for the Defendant since January 1, 2014, and set
forth each person's address and telephone number,

9

APPENDIX 0071
000277

7.

Identify all bank accounts owned or operated by Defendant, including but not limited to
PNC Bank accounts that Defendant owned for the years 2013-2016 and any successor
bank accounts.

10

APPENDIX 0072
000278

8.

Identify all personal bank accounts of Carlos Dorta that had funds transferred to them
from Defendant's PNC Bank accounts for the years 2014 to present.

11

APPENDIX 0073
000279

9.

Identify any and all person(s) who have been accused and/or disciplined and/or expelled
from the Defendant for the misuse and/or misappropriation of funds, including but not
limited to stealing, embezzlement, and wire fraud for the past ten years, and set forth each
person's address, telephone number.

12

APPENDIX 0074
000280

10.

Identify any and all documents that constitute records kept by Carlos Dorta for the years
he was or has been Defendant's Treasurer, as directed in Defendant's Constitution and
By-Laws, including but not limited to the books, papers, and receipts belonging to the
Treasurer's office, and all bank records wherein Defendant's funds were deposited.

13

APPENDIX 0075
000281

STATE OF FLORIDA

)

COUNTY OF PALM BEACH

)

BEFORE ME the undersigned authority personally a p p e a r e d - - - - - - - - who after being duly swom and cautioned, upon oath states that the foregoing answers to
interrogatories are true and complete.

For Defendant

[FRATERNAL ORDER OF POLICE JIM
FOGLEMAN LODGE #50, IN'C.J
NOTARY PUBLIC, STATE OF FLORIDA
My Commission Expires:

14

APPENDIX 0076
000282

IS

M.

CIA

Flor' a Bar No, 437883

GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone: (561) 832-7732
Telecopier: (561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA E-FILING
PORTAL (buschel@bglaw-pn.com) to: Robert C. Buschel, ES<:Ji( Buschel Gibbons, P.A., 100 S.E.
Third Avenue, Suite 1300, Fort Lauderdale, FL 33394 this "'2 ).aay of "fV2018.

4

,

15

APPENDIX 0077
000283

Filing# 73942958 E-Filed 06/21/2018 06:48:33 PM

IN THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK,
JERMAINE T. DAVIS,
WILBUR S VEASY AND
WILL S. TWIGG,
Plaintiffs,

v.

Case No. 14-CA-9494

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.

- - - - - - - - -I
MOTION FOR SUMMARY JUDGMENT
and MOTION FOR PROTECTIVE ORDER
The Defendant, FRATERNAL ORDER OF POLICE, JIM FOGLEMAN LODGE #50,
INC, through counsel, files this motion for summary judgment against the "first amended
verified complaint for damages injunctive relief and an accounting" filed on August 18, 2017. As
grounds for the motion state:

FACTUAL BACKGROUND
1.

The first amended verified complaint was filed on September 10, 2014. But the

Plaintiff added plaintiffs and filed another "first amended verified complaint" on August 18,
2017. All references to the Amended Complaint refer to the August 18, 2017 complaint.
2.

Plaintiffs' claims are for injunctive relief (it is now unclear whether it is for

temporary and permanent).
3.

The newest version of the complaint abandoned the request for a judgment for

attorney's fees and costs pursuant to Florida Statute Section 448.08. (Cf September 10, 2014,

,r

PLAINTIFF'S
EXHIBIT

APPENDIX
1 0078
000284

1, Am. Compl. and "wherefore" clause with latest version of the complaint filed August 18,
2017).
4.

In short, the Plaintiff Manak complains that he was removed as Treasurer of a

fraternal organization without following its by-laws.
5.

The other Plaintiffs Jermain Davis, Wilbur Veasy, and Will Twigg have standing

to sue for any cause of action at all. They were not officers of the FOP and cannot be and never
could be members in good standing.
6.

Jurisdictional allegations are not alleged.

7.

Venue allegations are not alleged.

8.

There are no allegations why an accounting is allowed or required.

9.

Formal causes of action are not alleged.

10.

Plaintiffs did not file exhibits with the latest version of the complaint that were

filed in previous versions of the complaint. Article IX "Recall of Officer," Section 1, filed as
Exhibit A to the first amended complaint September 10, 2014.
11.

Plaintiff Manak was properly removed as Treasurer of the private organization.

(Deel. Hannigan).
12.

Merely attaching a "verification" page to the lawsuit is not sworn evidence and

does not circumvent summary judgment.
13.

Plaintiffs' lawsuit is defamatory. Without evidence and without a cause of action

alleged in paragraph 3 they allege a scandalous allegation that the current Treasurer was
misusing or misappropriating funds.
14.

The Plaintiffs have not alleged any cause of action outside of the entitlement of

their lawsuit. No causes of action are labeled.

2

000285

No elements of any causes of action are

APPENDIX 0079

enumerated.

This Amended Complaint barely accomplished anything except to meet the

deadline that the Court imposed which compelled Plaintiff Manak to file an amended complaint
or the Court would dismiss the claim for lack of prosecution. (Order, July 20, 2017).
15.

Plaintiff Manak is not paid or employed by the Defendant Fraternal Order of

Police ("FOP") for services as Treasurer. It is a voluntary position in a fraternal organization.
16.

Plaintiff Manak was removed as Treasurer on August 12, 2014. Plaintiff filed suit

after the FOP removed him as Treasurer.
17.

Plaintiffs seek injunctive relief after the action they seek to enjoin occurred. When

a plaintiff seeks to enjoin an action that has already occurred, the cause of action for injunction is
moot. Boatman v. Florida Dept. of Corr., 924 So. 2d 906, 907 (Fla. I st DCA 2006) (citing Black
v. Rouse, 587 So.2d 1359 (Fla. 4th DCA 1991)); City ofApalachicola v. Bd. of County Com'rs of
Franklin County, 567 So. 2d 22, 23 (Fla. 1st DCA 1990) (even various statutory violations were

present in the process; mandamus was not an option since action sought occurred). Thus, any
claim to have Plaintiff Manak placed back as Treasurer during the pendency of this case is moot.
18.

Plaintiff Manak is no longer a member of the Fraternal Order of Police. His

membership has been revoked. (Aff. Yoes).
19.

Plaintiff Manak cannot be Treasurer of an organization he is no longer a member.

20.

Plaintiffs are asking the comi to intervene in a fraternal organization's private

meetings and procedures. In this FOP lodge, the FOP is merely fraternal and is not the collective
bargaining agent of the Palm Beach County Sheriff's Office.
21.

Plaintiff Manak was given notice and a hearing. Plaintiff complains that the subtle

niceties of the notice were not met, but it is not required even if such a distinction is parsed out.
See Boca W. Club, Inc. v. Levine, 578 So. 2d 14, 15 (Fla. 4th DCA 1991).

3

000286

APPENDIX 0080

22.

"Even if there were factual allegations, however, it is difficult to see how a

justiciable issue could be made. The governing body of a private, social club 'is the final arbiter
of the sufficiency of causes for expulsion.' Everglades Protective Syndicate, Inc. v. Makinney,
391 So. 2d 262,265 (Fla. 4th DCA 1980) (citation omitted)).
23.

Plaintiffs do not have an ownership right in an officer's position or membership in

the FOP. They did not pay for an ownership interest like some country club membership. There
is no justiciable issue because courts must not get involved in the internal workings of a fraternal
organization. The law does not provide for such remedy.
24.

Plaintiffs served interrogatories and request for production of documents. All of

the interrogatories and documents seek information Plaintiffs are not entitled to possess or
review. They are not and cannot be a member of the FOP. They are not members and could
never be a member of the organization again. They also seek information about deputy sheriffs
that are protected under
25.

Plaintiff Manak cannot be the Treasurer of an organization for which he was

expelled. Manak cannot be force placed as an officer in an organization because it's an elected
position. There have been several elections since Manak was expelled from the organization.
26.

Plaintiffs seek to disrupt a fraternal organization because they are disgruntled. The

relief Plaintiffs seek is impossible for the Court to award. The Court cannot force membership or
make someone an officer of the FOP. The Court does not have the authority to do so.
27.

Plaintiffs cannot be members of the FOP. They do not qualify as members.

28.

Plaintiff Manak was expelled from the FOP. Manak exhausted his administrative

remedies and cannot seek reentry as a member of the FOP. A court cannot order him to be

4

000287

APPENDIX 0081

Treasurer of an organization he is not a member. A court cannot order that he be admitted as a
member that expelled him for violations of its bylaws. (Deel. Hannigan).
29.

Plaintiff Davis cannot be a member of the FOP. He waived his administrative

hearing regarding his expulsion by failing to appear. (Deel. Hannigan). Davis was terminated
from PBSO. He cannot be a member of the FOP, a police union.
30.

Plaintiff Twigg is a convicted felon. He cannot be a member of the FOP, a police

umon. He is also not a member of the PBSO. Twigg did not retire in good standing from PBSO,
he was terminated.

He cannot be a member of the FOP. This Court cannot order his

membership. Twigg does not have standing to seek obtain a remedy for Manak.
31.

Plaintiff Veasy is not an employee of PBSO. He was terminated from PBSO.

Veasy cannot be a member of the FOP if he was terminated from PBSO. (Deel. Hannigan).
32.

Plaintiffs filed this lawsuit and has let it languish in the court system in order to

punish and drain the resources of the FOP. They are not entitled to the discovery they seek since
they are not members of the organization, can never be members of the organization, and have
no standing to remediate their rights and rights of each other.
33.

Plaintiffs rely upon Section 61 7. 0607, Fla. Stat. to support their case. A procedure

that is fair and reasonable is administrative review outlined in the declaration of Hannigan and
the expulsion of the Plaintiffs after this private fraternal organization deemed them unworthy to
be members.
LAW ON SUMMARY JUDGMENT

"Summary judgment is proper if there is no genuine issue of material fact and if the
moving party is entitled to a judgment as a matter of law." Curci Vil!. Condo. Ass'n v. Maria, 14
So.3d 1175, 1177 (Fla. 4th DCA 2009) (citing Volusia Cnty. v. Aberdeen at Ormond Beach, L.P.,

5

000288

APPENDIX 0082

760 So.2d 126, 130 (Fla.2000)). "All doubts and inferences must be resolved against the moving
party, and if there is the slightest doubt or conflict in the evidence, then summary judgment is not
available." Reeves v. N Broward Hosp. Dist., 821 So.2d 319, 321 (Fla. 4th DCA 2002). "The
burden of proving the absence of a genuine issue of material fact is upon the moving party. This
burden is shifted to the nonmoving party once the movant has successfully met his burden."
Palm Beach Pain Mgmt., Inc. v. Carroll, 7 So. 3d 1144, 1145 (Fla. 4th DCA 2009) (citations and
internal quotation marks omitted).
SUMMARY JUDGMENT MUST BE GRANTED

Plaintiffs' purpose in bringing this lawsuit that has been pending since 2014 is to be an
albatross around the neck of a fraternal organization that expelled them. They do not qualify to
be members, nor can they maintain membership.
They are not seeking monetary damages.

They cannot seek injunctive relief. They

believe the Court can force seat them as members in a private organization. They cannot cite to
one case where this has ever happened.
In fact, this Court cannot interfere with a fraternal organization or private club. It is not
the place for the judiciary to intervene in private matters or manage the affairs of an
organization. "Even if there were factual allegations, however, it is difficult to see how a
justiciable issue could be made. The governing body of a private, social club 'is the final arbiter
of the sufficiency of causes for expulsion.' Everglades Protective Syndicate, Inc. v. Makinney,
391 So. 2d 262, 265 (Fla. 4th DCA 1980) (citation omitted)). Otherwise, the Court would be
adjudicating private matters of social clubs all .the time. The southern reporters would be replete
with precedent on how to handle matters such as this case. There is no precedence in this District
other than to say not to interfere.

6

000289

APPENDIX 0083

Plaintiffs rely on Section 617.0607 of the Florida Statutes. There is not one case that
interprets this statute as a private right of action. Nor, does the statute suggest a remedy. Because
there is no precedent and the statute does not proscribe a remedy that plaintiffs could obtain, this
Court must conclude there is no cause of action in common law or by statute to support any of
Plaintiffs claims.
Lastly, every plaintiff besides Manak cannot be members of a law enforcement union
when they are not law enforcement officers, nor did they retire in good standing. The FOP has
presented an affidavit from Secretary Patrick Yoes of the National FOP that outlines that all
Plaintiffs were not members of the FOP and cannot be members of the FOP. Plaintiff Twigg is a
convicted felon from this Circuit. He cannot be a member of the FOP. The other Plaintiffs
misrepresented their status as corrections officers and were expelled for other reasons. This
Court cannot force their membership status upon this private union.
Manak was properly expelled. The Court cannot get into the nuances or details of
whether Manak's expulsion was unfair. He exhausted his administrative remedies within the
FOP on a state and national level. This "injustice" is not rectified in our court system. There
have been several elections over the years. Manak cannot subvert the election system of the FOP
by seeking to have a court order the FOP force seat him as an officer of the union. This Court
does not have the power to install an officer of a private organization.
PROTECTIVE ORDER

Plaintiffs served interrogatories and request for production. They seek the accounting
they are not entitled to and have requested discovery that can never lead to admissible evidence
because they are not members of the FOP. Nonmembers are not entitled to books and records.
There is no independent cause of action that would make them entitled to those records. Nothing

7

000290

APPENDIX 0084

about those records could prove any fact that Plaintiffs seek to prove or any conceivable cause of
action they have or have not alleged. A protective order is justified based upon the fact Plaintiffs
have no standing to sue the FOP and are not otherwise entitled to discovery.
CONCLUSION

This Court needs to rule. Plaintiffs have been given great discretion to allege a complaint
that would survive the lack of prosecution and poor pleading allegations. The Court cannot
compel membership nor can it compel seating an unelected officer. This Court does not have
subject matter jurisdiction to interfere in an organization's private matters.
This Court should grant summary judgment and dismiss this case with prejudice.
Summary judgment should be granted without any further discovery.
Respectfully submitted,
Robert C. Busche!, Esq.
BUSCHEL GIBBONS, P.A.
One Financial Plaza
100 S.E. Third Avenue, Suite 1300
Fort Lauderdale, Florida 33394
Tele: (954) 530-5301
Email: Buschel@BGlaw-pa.com
By:

Isl Robert C. Busche!
ROBERT C. BUSCHEL
Florida Bar No. 0063436

8

000291

APPENDIX 0085

CERTIFICATE OF SERVICE

I hereby certify that on June 21, 2018 a copy of this filing to opposing counsel via the
Florida efiling system.
BUSCHEL GIBBONS, P.A.
BY: Isl Robert Buschel
ROBERT C. BUSCHEL
Isidro M. Garcia
Garcia Law Firm, P.A.
120 S. Olive Avenue, Suite 401
West Palm Beach, FL 33401
isidrogarcia@garcialaborlaw.com
Counsel for Plaintiffs

9

000292

APPENDIX 0086

IN THE FIFTEENTH JUDICIAL CIRCU1T
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK,
JERMAIN T. DAVIS,
WILBURS.VEASY,AND
WILLS. TWIGG,
Plaintiffs,

v.

Case No. 14-CA-9494

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.
--------------'/

AFFIDAVIT OF PATRICK YOES, NATIONAL SECRETARY
FOR THE NATIONAL FRATERNAL ORDER OF POLICE
STATE OF LOUISIANA
PARISH OF ST. CHARLES

)
)
)

ss:

I, Patrick Yoes, being first duly sworn, do hereby state under oath and under penalty of
perjury that the following facts are true:
1.

I am over 18 years of age. I have personal knowledge of the matters set forth herein,

and if called as a witness, I could and would testify competently as follows.
2.

My name is Patrick Yoes. I currently serve as National Secretary of the National

Fraternal Order of Police ("FOP").
3. . I have been ru1 active member of the FOP for over 33 years, including over 14 years
as National Secretary.

1
534770

000293

APPENDIX 0087

4.

My duties and responsibilities as National Secretary include having custody of the

books, records, documents, Seal, office and equipment of the Grand Lodge under the general
authority and order of the National President and the National Board of Trustees. Additionally, I
am the official custodian of the FOP Constitution and By-Laws and amendments thereto and am
responsible for publication of the FOP Constitution and By-Laws.
5.

Pursuant to Article 4, Section 2 of the FOP Constitution and By-Laws, each state

and subordinate lodge shall be the judge ofits membership. Each state and subordinate lodge shall
establish requirements for membership in good standing of its respective membership, which
requirements shall not be inconsistent herewith.
6.

Pursuant to Article 3, Section LE. of the FOP Constitution and By-Laws, any

member belonging to a state or subordinate lodge that is delinquent or has been suspended shall
not be a member in good standing.
7.

Fraternal Order of Police, Jim Fogleman Lodge #50, Inc. ("Lodge 50") is a

subordinate lodge organized in the state ofFlolida, Palm Beach county.
8.

Pursuant to my duties and responsibilities I have reviewed and am familiar with the

files pertaining to Edward J. Manak, Jermaine T. Davis, Wilbur S. Veasy, and Will S. Twigg. The

files show Manalc, Davis, Veasy, and Twigg are not considered members in good standing with
the FOP.
Edward J, Manak
9.

Edward J. Manak ("Manak'') is the former Treasurer of Lodge #50. He was

removed as Treasurer on August 8, 2014 for violating Lodge #50 by-laws.
10.

On January 13, 2015, Manak was expelled by Lodge #50 and its members.

2
534770

000294

APPENDIX 0088

11.

Pursuant to Article 3, Section 1.E. of the FOP Constitution and By~Laws, Manak is

not a member in good standing with the FOP.
Jermaine T. Davis
12.

On August 23, 2012 Jermaine T. Davis ("Davis") was terminated as a Palm Beach

County Sheriff's Corrections Deputy. Davis has not been a member of the FOP since 2012.
13.

Pursuant to Article 3, Section I.E. of the FOP Constitution and By-Laws, Davis is

not a member in good standing with the FOP.
Wilbur S. Veasy
14.

On April 19, 2013 Wilbur S. Veasy ("Veasy") was tenninated as a Palm Beach

County Sheriff's Corrections Deputy. Veasyhas not been a member of the FOP since 2013.
15.

Pursuant to Article 3, Section 1.E. of the FOP Constitution and By-Laws, Veasyis

not a member in good standing with the FOP.
Will S. Twigg
16.

On July 8, 2014 Will S. Twigg (''Twigg") was expelled from membership with

Lodge#SO.
17.

Pursuant to Article 3, Section 1.E. of the FOP Constitution and By-Laws, Twigg is

not a member in good standing with the FOP,
Further Affiant sayeth naught.

3
534770

000295

APPENDIX 0089

Sworn to before me and subscribed in my presence by Patrick Yoes, whom I know to be
that person, thiJQ_ day of June 2018.

4
534770

000296

APPENDIX 0090

Declaration of Thomas Hannigan
My name is Thomas Hannigan. I am over eighteen years of age and can swear to the
below facts from my own personal knowledge.
I am the Vice President and fo1mer Secretary of the Fraternal Order of Police Lodge #50.
Edward Manak
Each member who joins the Fraternal Order of Police takes an oath and obligation to " ... comply
with all the Laws and Rules of this Order" and that he would "recognize the authority of his
legally elected officers and obey all orders there from." Additionally, each member solemnly
swears they will "not cheat, wrong or defraud this Order or any member thereof... " If a member
violates their solemn oath and obligation he/she ''hereby consent to be expelled from this Order."
This oath and obligation is administered annually as well to all elected officers at the start of the
calendar year.
Mr. Manak served as Treasurer of FOP Lodge 50 for nearly two decades. The treasurer as with
all officers of the board is an elected position. Officers of the board volunteer their time and
receive no compensation for their service. Mr. Manak had also been the long time chairperson of
the Legal Aid Committee, fielding and facilitating all requests and funding for legal assistance
for sworn Sheriffs Office members who became targets of an internal investigation, involved in
an on-duty shooting or accused of a crime.
In January of 2013, a newly elected board of directors took office. The board was moving in a
new direction seeking to increase membership that had been dramatically lost due to poor
member-management in the past. The board was also tasked in seeking solutions to reduce costs
associated with the upkeep of three properties owned by the Lodge on its nearly 7 acres of land
as well as increase revenues from the annual Children's Christmas Show solicitation. The board
was also eager to learn how business was conducted in the past to see if there were any areas in
need of improvement.
One of the first issues the board encountered was .discovering the tenants of one of the rental
properties were in arrears in excess of four-thousand dollars. The board learned that Mr. Manak
had assumed the responsibility of personally collecting and managing rent monies from the
tenants. The board learned that Mr. Manak was collecting whatever funds the tenants could pay
each month but he never properly infmmed the board they were in arrears. Mr. Manak was later
found to have reported misleading and inaccurate financial reports regarding a payment plan
adopted and agreed upon by the board and the tenants. Mr. Manak's continued pattern of
withholding information subsequently led to further inquiries into his fiscal management. Mr.
Manak became resistant as the board continued to inquire and make suggestions for
improvement. This led to the board's decision to appoint a lodge member to act as the property
manager thus relieving Mr. Manak of his duty to collect rent.

APPENDIX 0091
000297

As the months followed, Mr. Manak's resistant and defiant behavior towards his fellow board
members was becoming increasingly alarming. Some of the issues that troubled the board
included:

Mr. Manak resisted in obtaining a lodge credit card
•

Mr. Manak's practice of using his personal credit card to pay for hotel reservations for
quarterly state board of trustees meetings and annual conferences was under scrutiny.
The board discovered Mr. Manak was receiving "honors points" from the hotel (s) in
which the rooms were reserved and suggested he discontinue this practice as it would
appear he was using his position as treasurer for personal gain. As a solution, the board
voted on and subsequently instructed Mr. Manak to obtain a credit card issued solely to
Lodge 50 but was met with resistance from him. He continually delayed in attaining one.

Mr. Manak was storing financial data reports on the Palm Beach County Sheriff's Office
computer system main network drive and divulging lodge information using the Sheriff's
Office email server
•

•

Mr. Manak had to be reminded several times to discontinue this practice of using the
Sheriff's Office computer hard drives as it was not only a Sherif.f's Office policy
violation, but no one would be able to retrieve the information in the event he was fired
or died unexpectedly. A board officer even offered to assist Mr. Manak and show him
how to properly retrieve the data but he failed to accept the offer
Mr. Manak sent an email to an addressee that contained privileged lodge ieformation
from his Sheriff's Office email account

Mr. Manak refused to switch to online banking and use accounting software
•

Mr. Manak failed to comply with the board's directive and became argumentative each
monthly meeting when asked for a follow-up report. The board questioned his
willingness and capabilities and subsequently was placed on notice to respond to the
lodge president by the next monthly board meeting if he wishes to continue his duties as
treasurer

Mr. Manak defied direct orders from the lodge president and trustees
•

•

On June 4, 2014 Manak refused a direct order from the lodge president to return all
checkbooks, ledgers, records, papers and receipts to the trustees in order to conduct an
audit
At the June 24, 2014 board of directors meeting, Manak had yet to return the .financial
records and was ordered once more by the lodge president to return the items. His
outright refusal prompted the initiation of a petition to recall Mr. Manak from office

APPENDIX 0092
000298

On August 12, 2014, the members voted to recall Mr. Manak as treasurer for violating his oath of
office. He subsequently appealed the decision to the Florida State FOP Lodge Board of Trustees
who overturned the decision in October citing he was not afforded due process due to the fact
that he was not properly served with the charges; however, he was not immune from expulsion.
After the appeal, he returned to the position as lodge treasurer. He was nominated as an
incumbent but lost in the annual officer elections held in November of 2014 at the general
membership meeting. During that meeting, formal charges against Mr. Manak as a member
were presented to the board.
A hearing was held on January 15, 2015. In accordance to the bylaws, the members in
attendance voted to expel Mr. Manak from the order. He unsuccessfully appealed the members'
decision before the Florida State FOP Lodge Board of Trustees in June of 2015. He later failed
to file his final appeal before the Fraternal Order of Police Grand Lodge within the allotted time
frame.
Jermaine Davis, Will Twigg and Wilbur Veasy

Mr. Jermaine Davis and Mr. Will Twigg deliberately and knowingly disrupted an official closed
meeting of the legally elected board of dire·ctors on April 29111, 2014. They failed to obey all
orders to leave the room by the members of the board. Formal charges were brought against
both Mr. Davis and Mr. Twigg at a general membership meeting on May 13, 2014.
At a hearing held on July 8th, 2014, Mr. Davis and Mr. Twigg were found guilty of violating the
lodge's constitution and by-laws and were expelled. Mr. Davis failed to attend the hearing. Mr.
Davis later appealed his expulsion to the Florida State FOP Lodge Board of Trustees who
overturned the decision however, when Mr. Davis re-applied for membership, he was found to
have been terminated as a Palm Beach County Sheriff's Corrections Deputy on August 23, 2012
and therefore did not meet the requirements to be a member of the Fraternal Order of Police as a
whole. Based on this fact, the general membership voted to deny his application in accordance to
the lodge by-laws.

Mr. Twigg exhausted all his appeals to the Fraternal Order of Police Grand Lodge which upheld
his expulsion. During his appeals to both the State and Grand Lodge, Mr. Twigg had been
arrested and convicted of the charge of Felony Battery on an Emergency Medical Care Provider
and Battery and was placed on probation. He was also terminated as a Palm Beach County
Sheriff's Correction Deputy and clearly does not meet the requirements to become a member of
the Fraternal Order of Police.
Mr. Wilbur Veasy applied for and obtained membership on April 9, 2013 at the recommendation
of Mr. Edward Manak who sponsored and personally accompanied him at that evening's
membership meeting. During my interview with Mr. Veasy he failed to disclose to me that he
was on administrative leave, pending termination as a Palm Beach County Sheriff's Office
Corrections Deputy. He later failed to disclose the fact that he was terminated on April l 9t\

APPENDIX 0093
000299

2013 thus making him ineligible to maintain his membership in the Fraternal Order of Police.
He subsequently had personally resigned from Lodge 50.
I, Thomas Hannigan, under the penalty of perjury sign the above declaration under oath, on
this 20th day of June, 2018.

APPENDIX 0094
000300

FOP JIM FOGLEMAN LODGE #50

MEMBER CHARGING DOCUMENT

On June 24th 2014 at the Jim Fogleman FOP lodge 50 located at 885 62°d Drive North in the unincorporated area of
West Palm Beach, Palm Beach County, Florida during the Executive Board Meeting, I was present in the meeting in
my capacity as Vice President for FOP Jim Fogleman Lodge 50 when during the meeting I observed Lodge President
Bill Williams order Brother Ed Manak, who was the Lodge Treasurer, to turn over all books and keys belonging to
FOP Jim Fogleman Lodge 50, I observed Brother Manak openly refuse to comply with the order that President
Williams had Just given to him. President Williams told Brother Manak a seconi:l time that as President of the
Lodge, President Williams requested for Brother Manak to turn over the Ledger, checkbooks, the keys to the lodge.
President Williams reminded Brother Manak that the property belonged to the lodge and that he was to turn in
the lodge property to the board. Brother Manak stated that he was not going to turn anything over and that he
was not going to comply as he is the treasurer of the lodge. The meeting adjourned and Brother Manak left the
lodge without returning any lodge property.
Sworn witness statements were obtained by the board mem~ers, who were present for the meeting.
I find probable cause exist to find Brother Ed Manak in violation of FOP Jim Fogleman Lodge 50 bylaws Article 2
duties of Treasurer Section 1 subsection E whereas at any time, when ordered by the Board of Directors, he shall
deliver all monies, books a11d papers to the Board ofTrustees. I also find that Brother Manak also violated his Oath
to the Order and Office, which he reaffirmed and swore to on January 14, 2014, by, "failing to recognize the
authority of his legally elected officers/ In taking his Solemn Oath or Obligation of Office and to the Order Brother
Manak bound himself "under no less penalty than to be impeached from office and expelled from the Order."

a

This shall serve as a charging document to formally charge Brother Ed Manak with violation of the listed bylaws
and Oath of office.

t!Zlt)C''"h
The Foregoing instrument was sworn to or affirmed and subscribed before me this _bL of November 2014 By Luis Blasco
Type of Identification produced

tL

Ot,y,t.<'.:1,

..
L-/
Nob!;}

L~c_t...,v\,

.c

~

RV"N LINDQUIST
Notary Publlc • State of Florida
•g My Comm. Expires Aug 1. 2017
*

;:

Commission # FF 041772
SonrJld Thl'OUgll Natiooal Naa,y Assn.

APPENDIX 0095
000301

Wednesday, October 29, 2014

9:56 PM

FOP JIM FOGLEMAN LODGE #50
MEMBER WITNESS STATEMENT

On June 24th 2014 at the Jim Fogleman FOP lodge 50 located at 885 62°d Drive North in the unincorporated area of
West Palm Beach, Palm Beach County, Florida during the Executive Board Meeting, I was present in the meeting In
my capacity as Vice President for FOP Jim Fogleman Lodge 50 when during the meeting I observed Lodge President
Bill Williams order Brother Ed Manak, who was the Lodge Treasurer, to turn over all books and keys belonging to
FOP Jim Fogleman Lodge 50. I observed Brother Manak openly refuse to comply with the order that President
Williams had Just given to him. President Williams told Brother Manak a second time that as President of the
Lodge, President Williams requested for Brother Manak to turn over the Ledger, checkbooks, the keys to the lodge.
President WIiiiams reminded Brother Manak that the property belonged to the lodge and that he was to turn in
the lodge property to the board. Brother Manak stated that he was not going to turn anything over and that he
was not going to comply as he Is the treasurer of the lodge. The meeting adjourned and Brother Manak left the
lodge without returning any lodge property.
On August 121h 2014 a recall election was held at the FOP Jim Fogleman Lodge reference the recall of FOP Lodge 50
Treasurer Ed Manak. The members in a 2/3 vote for recall had voted to recall Brother Manak as Treasurer. Before
the meeting adjourned and after the vote, President Williams again asked Brother Manak to return all lodge
property and he refused to do so. FOP District 4 director Mike Kelly was present and also informed Brother Manak
that the lodge President was giving him an order and that the books and keys were property

of Lodge 50 and that he needed to comply. Brother Manak refused to comply and stated that he was not going to
relinquish any property of the lodge.
Sworn witness statements were obtained by the board members, who were present for the meetings.
I find probable cause exist to find Brother Ed Manak in violation of FOP Jim Fogleman Lodge 50 bylaws Article 2
duties of Treasurer Section 1 subsection E whereas at any time, when ordered by the Board of Directors, he shall
deliver all monies, books and papers to the Board of Trustees.
This shall serve as a charging document to formally charge Brother Ed Manak with violation of the listed bylaws.

Yh. ~.Se. ~ a . / "
YYi-~~
State of Florida County of Palm Beach

APPENDIX 0096
000302

Rendon-Olivo, Jose M
From:

Rendon-Olivo, Jose M
Monday, October 27, 2014 10:39 AM
Rendon-Olivo, Jose M
FOP

Sent:
To:

Subject:

I, Jose Rendon attended an FOP meeting on June 24th and August 121h. Ed Manich was asked
By Bill Williams to return all books, treasures property to Lodge property, Ed Manich refuse

~r

B.~timesto;;,vdo.so
"h_,.
'
;,:~ '-"'
....
Jos ~endon

'--

l

rL

DL

(Z 53.S---l-\~ ~ L\ 1- LCi0--0
4f ~ 15/m/ f6

1

000303

APPENDIX 0097

vVITNESS STATEMENT FROM APPOINTED TREASURER CARLOS DORTA

To whom it may concern,
My name is Carlos Dorta, and I am currently the appointed treasurer for the FOP Jim Fogleman
Lodge SO located at 885 62°d Drive North in West Palm Beach, Fl 33413, in Palm Beach County,
FL.
On June 24th, 2014, I attended an executive board meeting for the lodge to report on an issue
from the Ways and Means Committee. During the meeting, I observed Lodge President Bill
Williams order Brother Ed Manak, who was the Lodge Treasurer, to turn over all books and keys
belonging to FOP Jim Fogleman Lodge 50. I observed Brother Manak openly refuse to comply
with the order that President Williams had just given him. President Williams again requested
Brother Manak a second time and Brother Manak refused to comply with the order. President
Williams requested for Brother Manak to turn over the Ledger, checkbooks and the keys to the
lodge. President Williams reminded Brother Manak that the property belonged to the lodge,
and that he was to turn in the lodge property to the board. Brother Manak stated that he was
not going to turn anything over, and that he was not going to comply as he is the treasurer of
the lodge. The meeting adjourned and Brother Manak left the lodge without returning any
lodge property.
This request by President Williams came after the discovery of misleading statements,
inappropriate actions on behalf of Brother Manak and thousands of dollars of unexplained and
misappropriated expenses.

I swear and affirm this statement is correct and true.

State of Florida County of Palm Beach

The Foregoing instrument was sworn to or affirmed and subscribed before me this 1'"2November, 2014, by Carlos Dorta.
Type of Identification produced

Notary Public~
1

·

fl, b (.. .

/) l 3 ° - ! b I - ) 7~ ) J 7 -

day of

O

,,,,i~•y,,,'"
Martin Rico
.~~
"
'
~
:!
<~
State of Florida
;,;
f;My Commission Expire.s 02/12/2018

/
,/
~

1

.

, l , 11- \ 1t-\

'"

Commission Ne. FF 824iG

APPENDIX 0098
000304

FRATERNlll ORDER OF POUCE J111f FOGLEMAN LOUGE #50
3rd Yr. Trustee Rafae1 Padilla, Rodriguez

To whom it may concern,
I am a Third-year Board of Trustee member for the Jirn Fogleman FOP lodge 50 located at 885 62"J
Drive North, West Palm Beach, Florida 33413.
\Vhile in attendance at an Executive Board Meeting on the evening of June 24, 2014, I observed
lodge President, William Williams, request and subsequently or.der Treasurer Edward Manak, turn
over all keys, documents, and properties belonging to the Lodge. This request came after months of
numerous unsuccessful attempts for Mr. Manak to abide by the Board's decision to cease costly
accounting practices. This, along with blatant and tmauthotized decisions on .Mt. Manak's behalf,
have resulted in thousands of dollars in unexplained expenses and lost revenue to our organization.
Afte1· the request by Williams, Mr..Manak became agitated and shouted he would not relinquish any
of the aforementioned items, stating no one had the right to question him because he was the
lodge's Treasurer. Mr. Manak furtl1er advised, "He would continue stoi-ing lodge documents at his
residence because it was the safest place to keep them, and did not cat:e what anyone had to say."
It should be noted prior to this incident I have obsetved this same explosive response on numerous
occasions by Mr. Manak, regarding similar inquiries. This Board has spent the better part of the
. 2014 fiscal year, making amends for Mr. Manak's unauthorized actions, which have resulted in
unwarranted expenses and mired the evolvement of this Board and its membership.

I swea.1' and affirm this statement is correct and t1'Ue.
State of Florida County of Palm Beach

... -------··..-·-·--.,."·

.-.. ----··--·-···------,

,,.-----·

... ""'

·-( h

G,

The Foregoing instrument was sworn to orca:ffi~tned a:t:zd
s'ub-~ ibed b't_'
r~ me this )
of
))6 vem/t;-'v'
,
Gcto'ber 2014 By Rafael Padilla-Rodriguez
--~ L) .~- ____;,-;;::C. ,_· _.:·:;::;-wq",(,
Type of Identification produced

A,,

Notary Public

-~i7'-lt4~_f/~-_s~·t..:_;-'--'11t"'--'-l.._f_,7,_--'----k~';..,_1.___1~iY~'~ 1 2 ' - - - - - - - - - - - - - 1

l7t ,;

/!J,J_j,t 1,... C/iri t7t,Li/--;
!<.ca-er, Phdj cw .s

/lft1, 1 fr1;tftr

NOTARY
Pl i',• " · ·. •. · : :;F FLORIDA
00

~s~~<: :11; A.ndrews
[ ~ gCom,oi::si:jtJ # EE044502
..............'

'',,~

1

.._,'!!!!/' Expire~:

NOV: 22, 2014

APPENDIX 0099

u, 1 ;?o I'-/

.BmmED THRi.: ATL.\..\'T!C B0:-1)L'IG co., INC.

000305

Statement of Secretary Thomas J. Hannigan regarding the misconduct
of Treasurer Edward Manak
At the June 24th, 2014 meeting of the Elected Board of Directors of FOP Lodge #50, I
was present and serving in the capacity as the Lodge Secretary. During this meeting,
President Williams, at the request of the Board of Trustees, ordered Treasurer Manak to
relinquish all checkbooks, ledgers, papers, receipts and post office box key to the Board.
Manak emphatically stated he would not do it and refused again when ordered
to do so by President Williams a second time.

0~

c Fraternal Or&er"of Police

Jim Fogleman Lodge #50, Inc

State of Florida
County of Monroe
Sworn to (or affirmed) and subscribed before me this __IG-=-__ day of
2014, by Thomas J. Hannigan.
,,,,

t.\l\J 11

.·' c" PLo '~;.
"

,

111

u
C:,"~
~OT,4,;,··•.~1<)
r .. ,..~.,,.
.•M..••••···········
•
f: ~omm.
6cp1res\
:
ay 23, 2015 :
.L\ ;-..,_

A\"'

(Notary Seal)

:.;..•. No. EE 964os

<ft i:,

Personally Known
OR Produced ldentification_.·'t-"--Type of Identification
Produced
F\_ -:t:.?f\'\,1,, ::i \ 11 .,._f'.')'-

• A

.:

....::

•• "'"' ,::

"?~···•• llaL\C •••• "'-' ..:,.

7?FCQ~v,,
-,~,,,,,

. $"

APPENDIX 0100
000306

Vvitness Statement o-f Lodge President Willi.am F. \Nilliams
On June 3, 2014, I, the Undersigned President of the Fraternal Order of Police, Jim Fogleman Lodge # 50
ordered Bother Edward Manak to bring in all checkbooks, ledgers, records, papers and receipts, to the FOP
lodge because the board of trustees wanted to conduct their annual audit which is required by our Lodge 1 s
constitution and by-Laws. Brother Mana k had been keeping all the check books, receipts and papers at his
house. My order to do so was sent to him electronically via email because I wanted to have a record of my
direct order. I did this because I had previously ordered Brother Manak to do so several times in the past
and he never complied. Brother Manak did receive my email on June 3, 2014 which was confirmed via a
read receipt.
On June 4, 2014, I met with Brother Manak in person at Lake Lytal Park in West Palm Beach and I asked him

if he received my email from yesterday. He said yes he did. I asked him if he had the books & papers with
him. He said no they are at his house. I asked him if he was going to bring them to the lodge and he told me
no, he wasn't going to. I then made it perfectly clear to Brother Manak that I was the President of Lodge 50
and I was not asking him to bring in the books & papers arid the post office box key to the lodge but I was
giving him a direct order to do so. Brother Manak became red. in the face and raised his voice and yelled "No
I won't do it. 11 Brother Manak started accusing me and other board members of wanting to steal money
from the lodge. I asked Brother Manak why he was thinking that. He told me they are all part of a P.B.A. plan
to steal the FOP's money. I asked if he had any evidence of that and he said no.
On June 24, 2014 Brother Manak did attend the elected board meeting and was again ordered by the board
of trustees to bring in all checkbooks, ledgers, records, papers and receipts to the board of trustees so that
our annual audit could be conducted by the board of trustees. I also directly ordered Manak to turn over the
books, papers and post office box key. Manak told me and the members of the elected board of directors
that were in attendance that he will not do it.
Brother Edward Manak was insubordinate by not recognizing the authority of his superior officers and he
deliberately refused to comply with lawful orders therefrom. Brother Manak violated his oath /obligation for.
his office as the elected lodge treasurer and he violated his oath/ obligation for the order.

Sworn to by Affiant:

Fraternal Order of Police,
Jim Fogleman Lodge #SO

APPENDIX 0101
000307

INSTALLATION OF OFFICERS
(The newly elected Officers may be installed by any Past President or by the retiring President,
who will be called the Installing Officer.)
INSTALLING OFFICER· My Brothers (and Sisters), you have been legally and duly elected
to the office you have chosen. A vast amount of confidence and trust has been placed in you,
and a great responsibility rests upon you. It is your duty to guard well the honor and dignity of
this Lodge and of your office.
It is your privilege to use the authority of your office, not for personal gain, but for the best
interest and welfare of thls Lodge and all its members, and it is your duty to use any and all
honorable means toward that end; to all of which the obligation you are about to take will bind
you under no less penalty than that of being impeached and expelled from the Order for
violation of the same. With this knowledge, are you willing to proceed?
(Each one answers)· I AM.
INSTALLING OFFICER· Then hold up your right hand, pronounce your name in full and

repeat after me.
(Installing Officer gives three raps of the gavel which raises the entire Lodge.)

Obligation
1, ___
., in the presence of the Creator of the Universe, and the members of the
Fraternal Order of Police here assembled, do most solemnly and sincerely promise and swear,
that I will, to the best of my ability, comply with all the laws and rules of this Order; that I will
recognize the authority of my superior officers, obeying all the Jaws, rules and edicts of the
Grand Lodge; that I will abide by and support the Constitution and By-Laws of this Order; that
I will be fair in all my dealings with this Lodge during my term of office; that I will not use the
authority invested in me for personal gain, or for any other cause, except for the best interests
and welfare of this Lodge and its members.

\

I

Should I violate this, my solemn oath or obligation, I hereby bind myself under no less a
penalty than that of being impeached from office and expelled from the Order.
To all of which I solemnly and sincerely promise and swear, so help me God, and keep me
steadfast.
(The Installing Ofticer gives one rap of the gavel which seats the Lodge.)

9

\.

APPENDIX 0102
000308

I

Article II
Duties of the Treasurer
Section 1.

It shall be the duty of the Treasurer to:
(A)

Receive from the Secretary all monies belonging to the lodge and issue
receipt for same.

(B)

Pay all orders drawn on him, signed by the President and the Secretary.

(C)

Keep an accurate account of all monies received and expended and credit
each special account with such sums as they occur.

(D)

Provide the audit committee with a correct account of all monies in his
possession, together with the books, papers and receipts belonging to his
office.

(E)

At any time, when ordered by the Board of Directors, he shall deliver all
monies, books and papers to the Board of Trustees.

(F)

Deposit all monies belonging to the lodge in a financial institution
chosen by the Board of Directors to the cred.it of the lodge.

(G)

Deliver to his successor in office, all books and property belongit1g to
the lodge, within ten (10) days of the expiration of his term.

(H)

Perform such other duties as are usual and incident to his office.

(I)

At each session of the Board of Directors, submit a full and complete
repo1t of official business transacted by him subsequent to the last
meeting of the Board of Directors, together with recommendations as
he may deem adyisable .

.....

22

APPENDIX 0103
000309

l

Filing# 77134161 E-Filed 08/28/2018 04:03:49 PM

IN THE CIRCUIT COURT OF THE 15rn JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARDMANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILLS. TWIGG,
Plaintiff(s),
vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

-------------''
EMERGENCY MOTION TO NOT ENTER
SUMMARY ,JUDGMENT AGAINST VEASY, DAVIS, AND TWIGG

Plaintiffs', through counsel, hereby move for emergency relief for the Court not to enter
summary judgment against Veasy, Davis, and Twigg as announced in open court today by the
Court, and would show in support:
1.

Defense counsel represented to the Court that these three Plaintiffs' do not have

standing to challenge Defendant's actions because they are not lawfully employed by the PBSO
and were not lawfully employed at time of the adverse action. However, the Plaintiffs' were
expell~d for attempting to attend a board meeting from which the membership of the FOP was
I•

unlawfully excluded, see Affidavit of Edward J. Manak attached as Exhibit 1. This had nothing
to do with any of the Plaintiffs' employment with PBSO. See May 14, 2014 letter from Thomas
Hannigan to Davis, and July 9, 2014 Letter from Thomas Hannigan to Davis, attached as Exhibit
2 and 3, respectively. Also, see May 14, 2014 letter from Thomas Hannigan to Twigg, and July

1

APPENDIX 0104
000310

FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 08/28/2018 04:03:49 PM

9, 2014 letter from Thomas Hannigan to Twigg, attached as Exhibit 4 and 5, respectively.
Accordingly, defense counsel's argument that Davis lacks standing through his non employment
with PBSO is not consistent with the reasons for being expelled with the FOP. Davis continued
to be member from date of termination in 2012 until July 9, 2014.
2.

In addition, Defendant misrepresented the law on these types of organizations in

the case of McCune v. Wilson, 237 So. 2d 169 (Fla. 1970), attached as Exhibit 6, the Florida
Supreme Court held that a professional organization such as the Defendant in this case must
follow fair procedures when it takes disciplinary action against a member of said organization:
Professional organizations, although voluntary in nature, often attain a
quasi-public significance. In public view, membership in such organizations may
appear to be a tangible demonstration of professional competence and skill,
professional responsibility, and acceptance by one's professional peers. The fact
that an individual member expelled from membership may not be prohibited from
practicing his chosen occupation or profession is not a sufficient test to determine
whether he needs and is entitled to judicial protection from unfair proceedings or
arbitrary actions. When a voluntary association achieves this quasi-public status,
due process considerations come into play. Such is the policy of the judicial
decisions and statutes of this State.
Disciplinary action against a member of a professional organization, although
falling short of expulsion from occupation, may have an import which transcends
the organization itself because it conveys to the community that the disciplined
member was found lacking by his peers. For this reason, it is suitable and proper
that an organization, whether a domestic or foreign nonprofit corporation, or a
nonchartered nonprofit association, be held to reasonable standards of due process
and fairness, especially those inherent in its own by-laws, rules or customs.
While the courts should be loathe to intervene in purely private organizational
matters, nonintervention is not justified where a quasi-public organization takes
action and imposes penalties which carry the odor of public sanctions. It is clear
that not all private associations must observe due process standards. However,
such standards must be observed when a private association becomes
quasi-public, assumes a public purpose of its own, incorporates and seeks the tax
shelters and other protections of public law, or otherwise assumes a larger purpose
or statute than pleasant, friendly and congenial social relationships.
2

APPENDIX 0105
000311

The public policy underlying the Florida Statutes is in harmony with standards
herein affirmed. See§ 617.10(2), F.S.A., which provides that if a person is an
incorporator or member of a nonprofit corporation 'before his membership shall
cease against his consent he shall be given an opportunity to be heard, unless he is
absent from the county where the corporation is located. * * *' Also see §
617 .11 (3 ), which provides that a nonprofit corporation chartered out-of-state
operating without a Florida permit 'shall not be permitted to bring or maintain any
suit or other proceeding before any court or administrative body of this state; but
failure to obtain such permit shall not affect the validity of any contract with or
conveyance by such foreign corporation.' As this provision makes clear, the
American Institute of Real Estate Appraisers or any other foreign nonprofit
corporation in Florida, if it fails to obtain a permit in Florida, may not maintain
suit; however, the contract and property rights of persons with whom the
corporation has transactions will be protected by the law.
We hold that a private organization, particularly if tinged with public stature or
purpose, may not expel or discipline a member adversely affecting substantial
property, contract or other economic rights, except as a result of fair proceedings
which may be provided for in organization by-laws, carried forward in an
atmosphere of good faith and fair play.
The decision of the District Court Sub judice is quashed, and this case remanded
to the District Court with instructions to affirm the judgment of the Circuit Court
of Dade County.
WHEREFORE, Plaintiffs' respectfully request the Court not to enter summary judgment
against Veasy, Davis, and Twigg.

ISID O . ARCIA
Floriba Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF
3

000312

APPENDIX 0106

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Buschel Gibt.ons, P.A.,
day of
100 S.E. Third Avenue, Suite 1300, Fort Lauderdale, FH3394 this ':26
- - - - - - - ' 2018.

4
000313

APPENDIX 0107

IN THE CIRCUIT COURT OF THE 15rn JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
EDWARD MANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILL S. TWIGG,
Plaintiff(s),
vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

- - - - - - - - - - - -I
AFFIDAVIT OF EDWARD J, MANAK
UNDER PENALTY OF PERJURY, I declare as follows:
1.

My name is Edward J. Manak and I have personal knowledge of the facts herein.

2.

I am currently employed as a Deputy Sheriff for the PBSO and have been so employed
since 1982.

3.

On or about July 9, 2014, I was the treasurer duly elected of the Defendant.

4.

Without notice and an opportunity to be heard, the executive board unlawfully voted to
expel Wilbur Veasy from membership. He was not expelled from membership because
he had been terminated from PBSO on or about April 17, 2013. In fact, Mr. Veasy joined
FOP after he was terminated. He was expelled because Mr. Veasy came to my defense at
an earlier executive board meeting on or about May, 2014, when there was an attempt by
the executive board to force me to resign. I had objected to relinquishing the office of

1

000314

PLAINTIFF'S
EXHIBIT

APPENDIX
I 0108

treasurer as well as turning over PNC bank accounts to the executive board due to my
concerns that they would misspend the funds on personal goods and services. Moreover,
we have historically had many former employees of PBSO who have either retired or
been fired by the PBSO who have remained members in good standing with the
Defendant. For example, Keith Bums was fired, and then permitted to join the FOP and
all of his legal fees were paid by the FOP (in a criminal case where he was acquitted and
an arbitration case which was settled); Jermaine Davis, who was terminated by PBSO
August 23, 2012. Mr. Davis was not expelled by the Defendant because of his
termination by PBSO. I attended a meeting of the executive board on July 8, 2018, and
Davis's employment or lack thereof with PBSO was not the reason for his expulsion.

~,;~
-ED.;:;._W_A_RD_J._M_dli--+-,AK,,,__ _

IS.wu

J!'\.~S.Y .L

Florida Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF

2

APPENDIX 0109
000315

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Busche! Gibbons, P.A.,
..~Third Ayenue, Suite 1300, Fort Lauderdale, FL 33394 this
vday of
100 S
_ _ hA(l, 2018.
~

-~v~·

3

APPENDIX 0110
000316

FRA'• ~RNAL ORDER OF P0&.1iCE@
PALlU BEACH COUNTY SHERIFF•s OFFICE
JDI l'OGLElUAN I.ODGE 50
Mailing Address• P.O. Box 16372 • West Palm Beach, FL 33416·6372
Lodge Location • 885 62nd Drive North • West Pa!m Beach, FL 33413-1001
Phone (561) 687-7554. Fax (561) 687-4735
v,vv\v.foplodge50.org • e-mail: FOP50President@comcast.net

July 9' 11 , 2014

;\fr. Jermaine Davis
106 l Serenade Circle
Royal Palm Beach, FL 3341 'l
Dear L'lfr. Davis,

This letter will sen-e as official notification of the results of n Disciplinary Fl earing conducted on
July 8'\ 2014, by members p.rcsent at the General Meeting of the Fraternal Order of Police, Jim

Fogleman Lodge #50, Inc.

In accordance with the Constitution and Hy-Laws of the Fraternal Order of Police Lodge 50
(Constitutio11 Article IX, Section 4), a vole of 2/3 of the members present found you guilty of the
charges as well as expulsion from the Lodge. You have the right to appeal the decision to the
District Director.

Your i~ppeal cnn be made to District 4 Director, Mike Kelley, in w.t:iting or in person at the next
scheduled District 4 meeting. The next meeting will be held on t\ugust 21, 2014 at 6:30 l'lVI ·with
dinner being served at 6:00 PM. The location of this meeting is to be an11ou11ced. Director Kelley

can be reached at 561-441-5791.

PLAINTIFF'S
EXHIBIT

2.. 0111
APPENDIX
000317

FRATERNAL ORDER OF POLICE®
PAL~I BEACH COUNTY SHERIFF•§ OFFICE
JUI FOGLElUAN LODGE 50
Mailing Address• P.O. Box 16372 • West Palm Beach. FL 33416-6372
Lodge Location• 885 62nd Drive North. West Palm Beach, FL 33413-1001
Phone 561-687-7554 • Fax 561-687-4735
www.foplodge50.org • e-mail: FOP50President@comcast.net

May 14, 2014
Jermaine Davis
1061 Serenade Circle
RoyalPalmBeach,FL 33411
Dear Brother Davis:
In accordance to FOP Lodge #50 Constitution and By-Laws Article IX, Sections (1) and (2), you have been
formally charged before the body during the General Membership meeting of May 13, 2014 for abusing
your privileges as a member in good standing by committing the following offenses:
1. Failure to recognize the legal authority of their legally elected Lodge officers
2. Failure to obey all orders from those legally elected Lodge officers
3. Deliberately and knowingly disrupting an official closed meeting of the legally elected
Executive Board

As a courtesy to yo\.!, an explanation of your rights and appeal procedures is outlined in the attached
copy of FOP Lodge #50 Constitution .and By-Laws Article IX.
This letter shall serve as official written notice.

PLAINTIFF'S
EXHIBIT

6

APPENDIX 0112
000318

Article IX
Discipline
Section l.

If any member of the lodge should abuse the usage of the lodge or be accused of any
offense against the lodge or its membership, he may be reprimanded, suspended or
expelled,

Section :z.

The charges must be preferred in writing and sub111itted to the lodge at a regulanneeting.

Section 3.

The accused member shall be given the opportunity to answer the charges in person at the
next regular meeting.

Section 4.

A vote of 2/3 of the members present, to reprimand, suspend or expel the accused, shall
be required to discipline the accused member.

Section 5.

The accused member shall have the right to appeal to the District Director and the State
and National Lodges, any discipline imposed by the lodge.

Section 6.

The accused member shall retain all rights and privileges of membership pending the
appeals process.

Section 7.

Any member of this lodge who is in arrears for dies for a period of more than 90 days
shall automatically be suspended from the lodge.

Section 8.

The inembership committee chairman shall notify the member in writing that he is in
arrears and suspended.

Section 9.

The delinquent member may be reinstated upon payment of all delinque1~t dues and fees.

16

APPENDIX 0113
000319

FRATERNAL ORDER OF POLICE®
PALIU BEACH COUNTY SHERIFF'S OFFICE
.JIM FOGLEMAN LODGE 50
Mailing Address• P,O. Box 16372 • West Palm Beach, FL 33416-6372
Lodge Location• 885 62nd Drive North• West Palm Beach, FL 33413·1001
Phone 561-687-7554 • Fax 561-687-4735
www.fop!odge50,org .. e-mail: FOP50Presldent@comcast.net

May 14t 2014
Wl!ITwigg
1864 SW Jamesport Drive
Port St. Lucie, H ;'49S3

Dear Brother Twigg:
In accordcmce to FOPlodge #SO Constitution and By-Laws Article I.X, Sections (1) and (2), you have been
formally charged before the body during the General Membership meeting of May 13, 2014 for abusin{i
your privileges as a member In good standing by committing the following offe11ses;
1. Failure to recognize the legal authority of legally elected Lodge officers
2. Failure to obey all orders from the legally elected Lodge officers
3. Deliberately and knowingly disrupt an official closed meeting of the legally elected
Lodge officers

a courtesy to you, an explanation of your rights and appeal procedures is outlined i11 the attached
copy of FOP Lodge #50 Constitution and By-Laws Article IX.
As

This letter shall serve as official written notice.

PLAINTIFF'S
EXHIBIT·
Ll-3>-_
__
APPENDIX
0114
b

I __

000320

FRA'., ~RNAL ORDER OF PO-iCE®
PAL~I BEACH COUNTY SHERIFF'S OFFICE
,JIM FOGLEMAN l,ODGE 50
Mailing Address• P.O. Box 16372 • West Palm Beach, FL 33416-6372
Lodge Location• 885 62nd Drive North• West Palm Beach, FL 33413-1001
Phone (561) 687-7554 • Fax (561) 687-4735
www.foplodge50.org • e-mail; FOP50President@corncast.net

July 911\ 2014
Mr. Will Twigg
3228 Gun Club Road
West Palm Beach, FL 33406
Dear Mr. Twigg,
This letter will serve as official notification of the results of a Disciplinary Hearing conducted on
July 81\ 2014, by members present at the General Meeting of the Fraternal Order of Police, Jim
Fogleman Lodge #50, Inc.

In accordance with the Co11stitutio11 and By-Laws of the Fraternal Order of Police Lodge 50
(Constitution Article IX, Section 4), a vote of 2/3 of the members present found you guilty of the
charges as well as expulsion from the Lodge. You have the right to appeal the decision to the
District Director.
Your appeal can be made to District 4 Director, Mike Kelley, in wdting or in person at the next
scheduled District 4 meeting. The next meeting will be held 011 August 21, 2014 at 6:30 PM with
dinner being se1-ved at 6:00 PM. The location of this meeting is to be announced. Director Kelley
. can be reached at 561-441:-5791.

Secretary

PLAINTIFF'S
EXHIBIT

j
APPENDIX
0115
000321

s

Page 169

proceedings against petitioner McCune.
Petitioner sought an injunction in the Circuit
Court against continuation of the proceedings
against him.

237 So.2d 169
Marion C. McCUNE, Petitioner,
v.
J. I. WIISON, as Chairman, and Earl
Keefer, Frank J. Anderson, Gordon H
Moyer, Jr., Charles W, Foglesong,
William B. Smith, and Harry D.
Fleming, Jr., as Members of the
Professional Ethics Committee, South
Florida Chapter No. 24, American
Institute of Real Estate Appraisers,
Respondents.
No. 38709.
Supreme Court of Florida.
June 17, 1970.
Rehearing Denied July 17, 1970.

After pleadings, the Circuit Court
concluded that the Chapter is a professional
organization and not a purely private social
club, that as a professional organization it
must observe due process and fairness
required by Florida law in its disciplinary
proceedings, and that the Ethics Committee
failed to adhere to fair standards set out in its
own procedural regulations in acting against
petitioner in that the Committee failed to give
fair and adequate notice, failed to give notice
of charges with adequate particularity, and
otherwise failed to provide a fair and
impartial hearing. The Circuit Court held that
due to these procedural due process defects,
the Ethics Committee and the Chapter lacked
jurisdiction to proceed with the case against
petitioner on the charges made.

Page 170
E. F. P. Brigham, of Brigham & Brigham,
and Darrey A. Davis, of Scott, McCarthy,
Steel, Hector & Davis, Miami, for petitioner.

The District Court of Appeal reversed,
with one Judge dissenting, and held that the
Chapter is not a professional organization in
which due process requirements must be
observed. The dissenting judge concluded
that the . Institute is a professional
organization which must observe due process
standards of fairness and that the trial court's
decision should be affirmed. The majority of
the District Court stated:

G. David Parrish, Welsh & Carroll, and
Horton & Schwartz, Miami, for respondents.
ADKINS, Justice.
We issued writ of certiorari under F.A.R.
2.1, subd. a(5)(b), 32 F.S.A. to review the
decision of the District Court of Appeal, Third
District, 222 So.2d 230, which conflicts with
the other appellate decisions in this State
concerned with the nature of memberships
and interests in nonpublic organizations
which are entitled to protection by the comts.
The District Court decision reversed the
opinion of the Circuit Court of Dade County,
and approved disciplinary proceedings
undertaken against petitioner.

'(I)f the association or organization involved
in the instant proceeding were one of a quasijudicial or administrative agency of the State,
we would not hesitate to affirm the action of
the trial judge. Or, if the actions being taken
Page 171

This case arose when respondents,
members of the Professional Ethics
Committee of South Florida Chapter No. 24,
of the American Institute of Real Estate
Appraisers, a nonprofit foreign corporation
chartered in Illinois, initiated disciplinary

by an association or agency should result in
the disciplined member being prevented from
engaging in his chosen profession or
occupation in this State, we would not
hesitate to affirm the action of the trial judge.
However, this cause does not involve such an
-1-

PLAINTIFF'S

i ?IBIT0116
APPENDIX
000322

association or agency. The Institute involved
in the instant proceeding is a mere voluntary
organization, and the appellee will not be
prohibited from practicing his chosen
occupation or profession by vi1tue of any
disciplinary action that might ultimately be
taken by the Institute.' (page 232)

organizations, affecting a persons's right to
earn a living on one hand, and private social
clubs on the other. Certain conduct, which
might not justify expulsion from some other
type of association, Where membership is a
condition to earning a livelihood, or essential
to the enjoyment of a contract or property
right, may justify expulsion from a private
social club.' (Emphasis supplied) (p. 209)

As this language makes clear, it is the
view of the District Comt that before judicial
relief will lie, the breach of due process or the
unfairness must be one involving a state
agency, or if a private agency must be such as
to result in prohibiting the individual from
earning a living.

'We agree that the courts should leave to the
members of a private social club or to the
proper board to which the members have
lawfully delegated that power, the right to
determine whether the action of a member
has been such that, in the opinion of such
Board, it would interfere with the pleasant,
friendly and congenial social relationship
between the members. In the absence of a
clear allegation and convincing proof, in the
case reaches that stage, Of fraud or bad faith,
the action of the members or duly delegated
board Should not be reviewed by the courts.'
(Emphasis supplied) (p. 211)

This standard is in conflict with rules
announced in prior decisions by courts of this
State.
In Grand Lodge K. of P. of Florida v.
Taylor, 79 Fla. 441, 84 So. 609 (Fla.1920),
this Court said that although no cause of
action exists at law for expulsion from a
voluntary beneficial society, the courts will
offer redress if such expulsion deprives such
member of a property right. Accord, Taite v.
Bradley, 151 So.2d 474 (Fla.App.1st, 1963).

The standards enunciated by the First
District Court in this case, of impact on rights
of contract or property, or of fraud or bad
faith, were cited in Murray v. High School
Activities Association, Inc.,· 31 Fla.Supp. 66,
affirmed without opinion by the District
Court of Appeal, Third District, 213 So.2d 642
(Fla.App.3rd, 1968).

In Sult v. Gilbe1t, 3 So.2d 729 (Fla.1941),
this Comt recognized additional grounds. The
Comt held that courts would not intervene in
disciplinary actions of an organization against
a member 'unless some civil or contractual
right is involved.' (p. 731) The Court noted
that judicial review will not lie to protect
'natural' or political rights, within private
organizations.

See also Needelman v. Dade County
Medical Association, 205 So.2d 17
(Fla.App.3rd, 1968) in which the Third
District invalidated the expulsion from
membership of a doctor from a nonprofit,
private medical association, on grounds the
doctor was entitled to a fair hearing before
action was taken.

In State ex rel. Barfield v. Florida Yacht
Club, 106 So.2d 207 (Fla.App.1st, 1958), the
First District Court examined the nature of
private organization which would or would
not justify judicial intervention. Said that
Court:

Page 172
The posture of the law is, then, that this
Court in Grand Lodge, supra, concluded that
deprivation of property rights without due
process would justify judicial intervention in

'There is a valid distinction between those
institutions such as trade unions, professional
associations or trading exchanges and like
-2-

APPENDIX 0117
000323

the action of a private organization to expel a
member, and in Sult v. Gilbert, Supra, the
range of interests was expanded to include
contract as well as property rights. The First
District Court, following similar reasoning in
Taite, supra, then in Yacht Club, supra,
concluded that judicial intervention also
would be permitted in cases of fraud or bad
faith on the part of the organization. The
Third District Court adopted a view in
Needelman, supra, which appears to permit
judicial intervention without complete
prohibition of opp01tunity to earn a living;
adopted the views of the First District Court,
in affirming Murray, supra, and in fact went
· beyond to include mistake, collusion or
arbitrariness (stated in the Circuit Court's
opinion), then in the case at bar adopted the
much more restrictive view that judicial relief
can be granted only where a person is denied
opportunity to practice his occupation or
profession.
We disagree.
Professional organizations, although
voluntary in nature, often attain a quasipublic significance. In public view,
membership in such organizations may
appear to be a tangible demonstration of
professional
competence
and
skill,
professional responsibility, and acceptance by
one's professional peers. The fact that an
individual
member
expelled
from
membership may not be prohibited from
practicing his chosen occupation or
profession is not a sufficient test to determine
whether he needs and is entitled to judicial
protection from unfair proceedings or
arbitrary actions. When a voluntary
association achieves this quasi-public status,
due process considerations come into play.
Such is the policy of the judicial decisions and
statutes of this State.
Disciplinary action against a member of a
professional organization, although falling
short of expulsion from occupation, may have
an import .which transcends the organization

itself because it conveys to the community
that the disciplined member was found
lacking by his peers. For this reason, it is
suitable and proper that an organization,
whether a domestic or foreign nonprofit
corporation, or a nonchartered nonprofit
association, be held to reasonable standards
of due process and fairness, especially those
inherent in its own by-laws, rules or customs.
While the courts should be loathe to
intervene in purely private organizational
matters, nonintervention is not justified
where a quasi-public organization takes
action and imposes penalties which carry the
odor of public sanctions. It is clear that not all
private associations must observe due process
standards. However, such standards must be
observed when a private association becomes
quasi-public, assumes a public purpose of its
own, incorporates and seeks the tax shelters
and other protections of public law, or
otherwise assumes a larger purpose or statute
than pleasant, friendly and congenial social
relationships.
The public policy underlying the Florida
Statutes is in harmony witht standards herein
affirmed. See § 617.10(2), F.S.A., which
provides that if a person is an incorporator or
member of a nonprofit corporation 'before his
membership shall cease against his consent
he shall be given an opportunity to be heard,
unless he is absent from the county where the
corporation is located. * * *' Also see §
617.11(3), which provides that a nonprofit
corporation chartered out-of-state operating
without a Florida permit 'shall not be
permitted to bring or maintain any suit or
other proceeding before any court or
administrative body of this state; but failure
to obtain such permit shall not affect the
validity of any contract with or conveyance by
such foreign corporation.' As this provision
makes clear, the American Institute of Real
Estate Appraisers or any other
Page 173

APPENDIX 0118
000324

foreign nonprofit corporation in Florida, if it
fails to obtain a permit in Florida, may not
maintain suit; however, the contract and
property rights of persons with whom the
corporation has transactions will be protected
by the law.
We hold that a private organization,
particularly if tinged with public stature or
purpose, may not expel or discipline a
member adversely affecting substantial
property, contract or other economic rights,
except as a result of fair proceedings which
may be provided for in organization by-laws,
carried forward in an atmosphere of good
faith and fair play.
The decision of the District Court Sub
judice is quashed, and this case remanded to
the District Court with instructions to affirm
the judgment of the Circuit Court of Dade
County.
It is so ordered.

ERVIN, C.J., ROBERTS and BOYD, JJ.,
and MOODY, Circuit Judge, concur.

APPENDIX 0119
000325

Filing# 77152756 E-Filed 08/29/2018 08:56:10 AM
IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION AH
CASE NO. 50-2014-CA-009494-XXXX-MB
EDWARD J MANAK,
JERMAINE T DAVIS,
WILBUR S VEASY,
et al.,
Plaintiff/Petitioners
vs.
FRATERNAL ORDER OF POLICE JIM FOGLEMAN LODGE #50 INC,
Defendant/Respondent.
- - - - - - - - - - - - - - - -I

ORDER ON PLAINTIFFS' EMERGENCY MOTION TO NOT ENTER SUMMARY
JUDGMENT AGAINST VEASY, DAVIS, AND TWIGG FILED AUGUST 28, 2018
THIS CAUSE came before the Court upon receipt and review of Plaintiffs' Emergency
Motion to Not Enter Smnmary Judgment Against Veasy, Davis, and Twigg filed August 28,
2018. ltis,

ORDERED that Plaintiffs' Emergency Motion to Not Enter Smnmary Judgment Against
Veasy, Davis, and Twigg filed August 28, 2018 is DENIED as an emergency. The motion is a
motion for rehearing/reconsideration. The Court shall consider the motion in the ordinary course
and in accordance with Local Rule 6.
DONE AND ORDERED, in West Palm Beach, Palm Beach County, Florida this 29th
day of August, 2018.

/:

~

.h /~ C:, .

~

so~2014;cA~oo9494;xxx,c.r,1B=oBJ29(2D1B _

50-20i4~CA-009494~XX:XX-l\ffi

Lisa s. _Small

J?f

L~Smtt!f:_Judge

OB/29120iB:

Judg.e

COPIES TO:
EUGENE GIBBONS
ISIDRO M. GARCIA

No Address Available
224 DATURA STREET
SUITE 900
WEST PALM BEACH, FL
33401

Pagelof2

Gibbons@BGlaw-pa.com
ISIDROGARCIA@GARCIAL
ABORLAW.COM
eservice@garcialaborlaw.com
markJohnson@garcialaborlaw .c
om
hannah.bourget@garcialaborlaw

APPENDIX 0120

000326
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 08/29/2018 08:56: 10 AM

Case No.50-2014-CA-009494-XXXX-MB
.com
No E-mail Address Available
No Address Available
JERMAINE T. DAVIS
randy@rafesq.co m
RANDY ALAN FLEISCHER No Address Available
buschel@bglaw-pa.com
201 S.E 9TH STREET
ROBERT C. BUSCHEL,
ESQ
FT LAUDERDALE, FL 33316 indira@bglaw-pa.com
buschel@bglaw-pa.com
ROBET BUSCHEL
No Address Available
No E-mail Address Available
WILBUR S. VEASY
No Address Available
No E-mail Address Available
WILL S. TWIGG
No Address Available

Page 2 of 2
000327

APPENDIX 0121

Filing# 77754388 E-Filed 09/12/2018 09:17:19 AM

IN THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY,
FLORIDA
EDWARD J. MANAK,
JERMAINE T. DAVIS,
WILBUR S VEASY AND
WILL S. TWIGG,
Plaintiffs,
Case No. 14-CA-9494

V.

FRATERNAL ORDER OF POLICE,
JIM FOGLEMAN LODGE #50, INC.
Defendant.
- - - - - - - - - -I
SUPPLEMENT TO THE MOTION FOR SUMMARY JUDGMENT
and RESPONSE TO MOTION FOR REHEARING

The Defendant, FRATERNAL ORDER OF POLICE, JIM FOGLEMAN LODGE #50,
INC, through counsel, files this supplement to the motion for summary judgment against the
"first amended verified complaint for damages injunctive relief and an accounting" filed on
August 18, 2017. The Court treated Plaintiffs' "Emergency" Motion filed on August 18, 2018
not as an emergency but as a motion for reconsideration.
SUPPLEMENT AND RESPONSE

The Court should rely on Florida Research Inst. for Equine Nurturing, Dev. & Safety,

Inc. v. Dillon, 247 So. 3d 538, 542-43 (Fla. 4th DCA 2018) in deciding this case. The case is
binding and was published in May 2018. It reviews the statute Plaintiffs rely upon and its
holding compels the Court to grant summary judgment because Plaintiffs are not entitled to
judicial review of their membership status or reinstatement to as any officer within the Fraternal
Order of Police.

APPENDIX 0122
000330
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 09/12/2018 09: 17: 19 AM

To review, Florida Statute Section 617.0607 states:
(1) A member of a corporation may not be expelled or
suspended, and a membership in the corporation may not be
terminated or suspended, except pursuant to a procedure that is fair
and reasonable and is carried out in good faith.
Plaintiffs argue to the Court to interpret this statute to mean that they are entitled to a deep
judicial review by the Court which will result in compelling membership and installation of an
officer (Manak as Treasurer). It does not. Courts are not meant to be analyzers of bylaws and
corporate due process. Plaintiffs received "fair and reasonable" treatment when they were
expelled from the FOP. Plaintiffs cannot compel the Court to analyze the process any deeper
than whether they received "fair and reasonable" process "in good faith."
Good faith fair and reasonable process does not require notice and a hearing. "[T]he plain
language of section 617.0607(1), Florida Statutes (2013), does not require notice and a hearing
before a not for profit corporation terminates a member." Florida Research Inst., 247 So. 3d at
543. Simply, the FOP bylaws 1 set forth an expulsion and termination procedure that is fair and
reasonable, which was carried out in good faith. Id. Each Plaintiff was expelled because at the
time they applied for membership they were not in good standing as law enforcement officers.
Plaintiff Manak was expelled for failing to comply with the lawful orders of the President and
Board of the FOP to turn over FOP financial records to the President.
The record evidence indicates that the corporation complied with this fair and reasonable
procedure and did so in good faith. Manak admitted in his declaration of August 28, 2018, that
Veasy was not qualified to be a member of the FOP when he was "expelled." "He was not
expelled from membership because he had been terminated from PBSO on or about April 17,
2013. In fact, Mr. Veasy joined FOP after he was terminated. (Emergency Motion, Exh. 1, 4).

1

See Art.II & IX to remove Treasurer and discipline members.
2

000331

APPENDIX 0123

Jermaine Davis was terminated by PBSO in 2012. (Id.). A person, however, must be a law
enforcement officer or a retired law enforcement officer in order to be a member of the FOP.
Plaintiffs submitted testimony that Veasy never qualified to be a member; therefore, the FOP is
not even required to give him the process outlined in Chapter 617-but he received it anyway.
Plaintiffs' exhibits 2-5 support the undisputed fact each received process, including an appellate
process. Florida Research Institute supports the FOP's position and the Court has sufficient
undisputed evidence that Manak was given process consistent with Florida Chapter 617, as well
as the other Plaintiffs, even though they were never qualified to be members of the FOP.
Plaintiffs went to the State and then the National FOP for review. They received the
review pursuant to each entities' bylaws and that is Plaintiffs' fair and reasonable process.
Plaintiffs' declarations prove they requested and received these reviews. The State and National
FOP have not been accused of acting in bad faith.

They served as the good faith review

Plaintiffs now seek from this Court. But they are not entitled to judicial review, only fair and
reasonable good faith review within the organization itself. See id.
Plaintiffs cited to a few cases to support their position. These cases were published before
the 2009 amendment to the statute. The Fourth District Court of Appeal warned in Florida
Research Institute not to rely on cases that were pre-2009 amendment. The statute has changed;
the meaning of the statute has changed.
Lastly, Plaintiffs are not entitled to damages, injunction, or an accounting under the
statute -- only reinstatement if the FOP does not have a reasonable and fair procedure that was
not followed. The description of that procedure is short of notice and an opportunity to be heard
in a formal setting. But Plaintiff Manak was given notice and an opportunity to be heard at the
local lodge level, he took his case to the State FOP, and then to the National FOP. Manak was

3

000332

APPENDIX 0124

given his opportunity to be heard. This is all the statute requires. But, Manak wants more than
the statute requires. Manak wants the Court to micromanage and appeal that process in the
judicial system. It is this unusual and special request for relief that this Court must deny.
CONCLUSION

Since the facts are not in dispute as to the process Manak and the others received,
summary judgment must be granted and the what the Court deemed Plaintiffs' motion for
rehearing must be denied.

Respectfully submitted,
Robert C. Busche!, Esq.
BUSCHEL GIBBONS, P.A.
One Financial Plaza
100 S.E. Third Avenue, Suite 1300
Fort Lauderdale, Florida 33394
Tele: (954) 530-5301
Email: Buschel@BGlaw-pa.com
By:

4

000333

/s/ Robert C. Busche!
ROBERT C. BUSCHEL
Florida Bar No. 0063436

APPENDIX 0125

CERTIFICATE OF SERVICE

I hereby certify that on September 12, 2018 a copy of this filing to opposing counsel via
the Florida efiling system.
BUSCHEL GIBBONS, P.A.
BY: /s/ Robert Busche!
ROBERT C. BUSCHEL
Isidro M. Garcia
Garcia Law Firm, P.A.
120 S. Olive Avenue, Suite 401
West Palm Beach, FL 33401
isidrogarcia@garcialaborlaw.com
Counsel for Plaintiffs

5

000334

APPENDIX 0126

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105
~

Appellate court's review was de novo to the
extent the trial court's final judgment, after
bench trial, in favor of former member of not
for profit charitable corporation was based
upon its legal conclusion that corporation's
application of the bylaws to member violated
due process. U.S. Const. Amend. 14.

247 So.3d 538
District Court of Appeal of Florida, Fourth District.
FLORIDA RESEARCH INSTITUTE FOR EQUINE
NURTURING, DEVELOPMENT AND SAFETY,
INC., a Florida not for profit corporation, Appellant,
v.
Dana DILLON and Robert
Dillon, individually, Appellees.
No. 4D17-605

Corporations and other organizations

Cases that cite this headnote
[2]

Corporations and Business Organizations
~ Withdrawal, expulsion, suspension, or
exclusion

I
[May 16, 2018]

Statute, providing that member of a not
for profit corporation may not be expelled
or suspended and a membership in the
corporation may not be terminated or
suspended, except pursuant to a procedure
that is fair and reasonable and is carried out
in good faith, does not require notice and a
hearing before a not for profit corporation
terminates a member. Fla. Stat. Ann. §
617.0607(1).

Synopsis
Background: Former member of corporation, which

was formed as a not for profit charitable organization
and which was organized to provide horse rescue
services, brought a declaratory judgment action against
corporation, alleging that corporation's board of directors
did not legally terminate her membership because the
board did not provide her with notice and a hearing
before terminating her membership. After bench trial,
the Circuit Court for the Seventeenth Judicial Circuit,
Broward County, Carlos A. Rodriguez, J., L.T. Case No.
CACE13-024657, entered judgment in favor of former
member, and corporation appealed.

Cases that cite this headnote
[3]

Corporations and Business Organizations
~

Withdrawal, expulsion, suspension, or
exclusion
Holdings: The District Court of Appeal, Gerber, C.J., held

that:

[l] corporation was not statutorily required to provide
member of corporation with notice and a hearing before
terminating her membership in corporation, and
[2] member's conduct provided just cause for board
of directors for corporation to terminate member's
membership in corporation.

Affirmed in part, reversed in part, and remanded.

Corporation, which was formed as a not for
profit charitable organization and which was
organized to provide horse rescue services,
was not statutorily required to provide
member of corporation with notice and a
hearing before terminating her membership in
corporation; statute, providing that member
of a not for profit corporation may not be
expelled or suspended and a membership in
the corporation may not be terminated or
suspended, except pursuant to a procedure
that is fair and reasonable and is carried out in
good faith, did not require notice and hearing
before corporation terminated member. Fla.
Stat. Ann.§ 617.0607(1).

West Headnotes (5)
Cases that cite this headnote
[1]

Appeal and Error

APPENDIX 0127

WESTLAW © 2018 Thomson Reuters. No claim to 000335
original U.S. Government Works.

1

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105

[4]

Corporations and Business Organizations
I(>;> Withdrawal, expulsion, suspension, or
exclusion

Bylaws and rules of corporation, which
was formed as a not for profit charitable
organization and which was organized to
provide horse rescue services, set forth
an expulsion and termination procedure
that was fair and reasonable, and this
procedure was carried out in good faith
when corporation terminated member's
membership in corporation for cause; member
received multiple verbal and written warnings
for various rules violations, and despite these
warnings, member sent e-mail to someone
outside of the corporation, accusing the
corporation of a variety of misdeeds and
alleging that corporation was corrupt. Fla.
Stat. Ann.§ 617.0607(1).
Cases that cite this headnote
[5]

Corporations and Business Organizations
I(>;> Withdrawal, expulsion, suspension, or
exclusion

Pursuant to corporation's bylaws, member's
conduct provided just cause for board of
directors for corporation, which was formed
as a not for profit charitable organization and
which was organized to provide horse rescue
services, to terminate member's membership
in corporation; member received multiple
verbal and written warnings for various
rules violations, and despite these warnings,
member sent e-mail to someone outside of
the corporation, accusing the corporation
of a variety of misdeeds and alleging that
corporation was corrupt. Fla. Stat. Ann. §
617.0607(1).
Cases that cite this headnote

*540 Appeal from the Circuit Court for the Seventeenth
Judicial Circuit, Broward County; Carlos A. Rodriguez,
Judge; L.T. Case No. CACE13-024657.

Attorneys and Law Firms

Thomas H. Loffredo and Rebecca A. Rodriguez of Gray
Robinson, P.A., Fort Lauderdale, and Kristie L. HatcherBolin of Gray Robinson, Lakeland, for appellant.
Bruce H. Little of Bruce H. Little, P.A., Fort Lauderdale,
for appellees.
Opinion

Gerber, C.J.
A corporation, organized to provide horse rescue services,
appeals from the circuit court's final judgment, after
a non-jury trial, in favor of a wife and husband
arising from their alleged membership rights in the
corporation. The corporation primarily argues that the
trial court erred in two respects: (1) by concluding that
the corporation illegally terminated the wife's membership
in the corporation without affording her notice and a
hearing; and (2) by finding that the husband was a member
of the corporation at the time he demanded to inspect the
corporation's corporate records. On the first argument,
we agree with the corporation and reverse as to the
wife's action. On the second argument, we disagree with
the corporation and affirm without discussion as to the
husband's action.
We present the circuit court's findings of fact in the final
judgment as to the wife's action to the extent such findings
are supported by competent, substantial evidence. See
Acoustic Innovations, Inc. v. Schafer, 976 So.2d 1139, 1143
(Fla. 4th DCA 2008) ("When a decision in a non-jury trial
is based on findings of fact from disputed evidence, it is
reviewed on appeal for competent, substantial evidence.").
Other record facts are included below where necessary to
provide a complete picture of the material facts.

Procedural History

The corporation was formed as a not for profit charitable
organization under chapter 617, Florida Statutes
(governing not for profit corporations). Persons can
become member sponsors of the corporation essentially
by completing a membership application, paying a
membership fee, being approved for membership, and
paying recurring contributions towards the care of a horse
or horses which the member is sponsoring.

APPENDIX 0128

WESTLAW © 2018 Thomson Reuters. No claim to 000336
original U.S. Government Works.

2

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105

The corporation was governed by a board of directors,
sometimes referred to as the board of trustees. The
corporation was operated according to a set of bylaws
and a set of rules. The corporation's original bylaws
provided that the board could remove a member by
providing written notice to the member of a hearing, at
which the board could remove the member for cause.
The corporation later amended its bylaws to delete the
requirements of notice and a hearing before the board
could remove a member for cause. The amended bylaws
provide, in pertinent part:
The Board of Trustees may
suspend or expel a member
... for "just cause" after a
vote is held at any regular,
special or emergency meeting
*541 if deemed in the best
interest of the organization, the
horses or the general membership.
Management may enforce the
termination of membership if
the member has received a
prior verbal and written warning
as stated in the Rules and
Regulations. Should there be a
vote of the Board of Trustees
to terminate a member, and that
vote is unanimous, when they
terminate this member, then that
member becomes ineligible for
reinstatement.
The corporation's rules provide, in pertinent part:
Membership termination is at the discretion of
management and the Board of Directors.

Any member/sponsor, who we determine has
intentionally tried to undermine the organization, the
Board of Directors or Management will terminate
their membership immediately and without warning.
The bylaws amendment and rules existed before the wife
became a member of the corporation.
After the wife became a member of the corporation,
she received multiple verbal and written warnings for

various rules violations. Despite these warnings, the
wife ultimately sent an e-mail to someone outside of
the corporation, accusing the corporation of a variety
of misdeeds, and alleging, among other things, "[The
corporation] is as corrupt as you can imagine."
After the corporation's board became aware of the wife's
accusatory e-mail, the board set an emergency meeting
without providing notice to the wife. At the meeting,
the board unanimously voted to terminate the wife's
membership for cause. The corporation sent the wife a
letter notifying her of the termination.
The wife brought a declaratory judgment action against
the corporation. The wife alleged, among other things,
that the board did not legally terminate her membership
because the board did not provide her with notice and a
hearing before terminating her membership.
In its answer, the corporation alleged that it terminated
the wife's membership "pursuant to a fair and reasonable
procedure carried out in good faith." The corporation
alleged that the wife had violated the corporation's rules
and ignored the corporation's directions to comply with
the rules before the corporation terminated her after
multiple violations.
After a non-jury trial, the trial court entered a final
judgment in the wife's favor. The trial court reasoned, in
pertinent part:
The termination of any member of [the corporation]
is governed by Florida Statute § 617.0607, which
dictates that a member may not be expelled or
suspended and that a membership of a corporation
may not be terminated or suspended except pursuant
to a procedure that is fair and reasonable and carried
out in good faith. The statute was obviously designed
to comply with constitutional due process oflaw and
notice requirements.

The changes in the By-Laws affected the requirement
of a hearing, but both the [original] and [amended]
By-Laws required "just cause" for removal of any
member. Procedurally, the determination of whether
there is just cause must be "fair and reasonable" by
statute which legislates that some measure of due
process must occur. The [amended] By-Laws do not

APPENDIX 0129

WESTLAW © 2018 Thomson Reuters. No claim to 000337
original U.S. Government Works.

3

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105

establish a procedure for removal that is "fair and
reasonable."
Our Review

*542 No emergency existed for the termination of

[the wife's] membership without notice, a hearing
and the opportunity to be heard as required by a
reasonable interpretation of the By-Laws, and strict
interpretation of Florida law and due process.

Pursuant to Florida law, and [the corporation's] ByLaws, and constitutional due process of law, [the
corporation] was required to provide a fair and
reasonable procedure for the termination of [the
wife's] membership after they decided to terminate or
initiated the process.
[The wife's] membership was never effectively
terminated; and therefore, the Court determines her
to still be a member of[the corporation].

In reaching a decision in this case ... , the Court
considered and applied ... sec. 617 .0607[,] Florida
Statute[s]. A similar case considered and applied by
the Court was La Goree Country Club v. Cerami,
74 So.2d 95 (Fla. 1954). In Cerami, a member of
a private club was terminated under a similar ByLaw provision without a hearing and at the sole
discretion of the Board. The Supreme Court affirmed
the trial court in compelling his reinstatement based
on the due process requirement that he be afforded a
hearing.

The Court finds in favor of [the wife] as to
her declaratory action and determines that her
membership was not reasonably, fairly or legally
terminated and therefore, she continues to be a
member of [the corporation].
The [corporation], ... the Board or individual
members are hereby ordered to provide all the
benefits and obligations of membership in [the
corporation] to [the wife] and to refrain from
involuntarily terminating the membership of [the
wife] without first according her notice and a hearing
which comports with Fla. Stat. § 617 .0607 and the
minimum standards of due process oflaw ....

This appeal followed. The corporation argues that the
trial court misapplied the applicable law and relied
upon an inapplicable legal standard in ruling that the
wife's membership was unreasonably and unlawfully
terminated. More specifically, the corporation argues
the trial court erred by ruling that the corporation's
membership termination procedures were invalid based
upon a purported due process violation.
[1] To the extent the trial court's final judgment was
based upon its legal conclusion that the corporation's
application of the bylaws violate due process, our review
is de novo. See Acoustic Innovations, 976 So.2d at 1143
("[W]here a trial court's conclusions following a non-jury
trial are based upon legal error, the standard of review is de
novo."); Natiello v. Winn-Dixie Stores, Inc., 203 So.3d 209,
210 (Fla. 4th DCA 2016) ("[T]he issue of whether a party
has been denied procedural due process is reviewed de
novo."); Retreat at Port of Islands, LLC v. Port of Islands
Resort Hotel Condo. Ass'n, Inc., 181 So.3d 531, 532 (Fla.
2d DCA 2015) ("[O]rganizational bylaws are treated as
contracts, and we review construction of those bylaws de
novo.").
We agree with the corporation's arguments regarding its
termination of the wife's membership for three reasons:

1. the plain language of section 617.0607(1), Florida
Statutes (2013), *543 does not require notice and a
hearing before a not for profit corporation terminates
a member;
2. the corporation's bylaws and rules set forth an
expulsion and termination procedure "that is fair and
reasonable and [was] carried out in good faith" under
section 617.0607(1); and
3. the case upon which the trial court primarily relied,
La Goree Country Club v. Cerami, 74 So.2d 95 (Fla.
1954), is inapplicable.
We address each reason in tum.

1. Plain Language

APPENDIX 0130

WESTLAW © 2018 Thomson Reuters. No claim to 000338
original U.S. Government Works.

4

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105

[2] [3] First, the plain language of section 617.0607(1),
Florida Statutes (2013), does not require notice and a
hearing before a not for profit corporation terminates
a member. Section 617.0607(1) states: "A member of
a [not for profit] corporation may not be expelled or
suspended, and a membership in the corporation may
not be terminated or suspended, except pursuant to a
procedure that is fair and reasonable and is carried out
in good faith." (emphasis added). If the legislature had
intended that a member of a not for profit corporation
may not be expelled or suspended, or that a membership
in a corporation may not be terminated or suspended,
except pursuant to "notice and a hearing," then the
legislature could have said so. Because the legislature
has not said so, both we and the trial court are without
power to modify the statute to include the requirement of
notice and a hearing before a not for profit corporation
terminates a member. See Hill v. Davis, 70 So.3d 572, 57576 (Fla. 2011) ("Courts are without power to construe
an unambiguous statute in a way which would extend,
modify, or limit, its express terms or its reasonable and
obvious implications. To do so would be an abrogation
of legislative power. Thus, if the meaning of the statute is
clear then this Court's task goes no further than applying
the plain language of the statute.") (internal citations and
quotation marks omitted).

2. Fair, Reasonable, and Good Faith
[4] Second, the corporation's bylaws and rules set forth
an expulsion and termination procedure "that is fair and
reasonable and [was] carried out in good faith" under
section 617.0607(1). The bylaws provided, in pertinent
part:

The Board of Trustees may
suspend or expel a member ... for
"just cause" after a vote is held at
any regular, special or emergency
meeting if deemed in the best
interest of the organization, the
horses or the general membership.
Management may enforce the
termination of membership if
the member has received a
prior verbal and written warning
as stated in the Rules and
Regulations. Should there be a
vote of the Board of Trustees
to terminate a member, and that

vote is unanimous, when they
terminate this member, then that
member becomes ineligible for
reinstatement.
Further, the corporation's rules provided, in pertinent
part:
Membership termination is at the discretion of
management and the Board of Directors.

Any member/sponsor, who we determine has
intentionally tried to undermine the organization, the
Board of Directors or Management will terminate
their membership immediately and without warning.

[5] The record evidence indicates that the corporation
complied with this fair and reasonable procedure and
did so in good faith. The wife received multiple verbal
and written warnings for various rules violations. Despite
these warnings, the wife ultimately sent an e-mail to
someone *544 outside of the corporation, accusing the
corporation of a variety of misdeeds, and alleging, among
other things, "[The corporation] is as corrupt as you can
imagine." This ultimate action, along with the wife's prior
conduct, provided the board with "just cause" to find
that the wife was intentionally trying to undermine the
organization, and justified the board's unanimous vote to
terminate the wife's membership.

3. La Gorce's Inapplicability
Third, the case upon which the trial court primarily relied,
La Goree Country Club v. Cerami, 74 So.2d 95 (Fla.
1954), is inapplicable. In La Goree, our supreme court
indeed concluded that a social club member was entitled
to notice and a hearing before being expelled from the
club. However, our supreme court reached that conclusion
after finding that "the present case is controlled by statute
under which the club was incorporated, namely F.S. §
617.10." Id. at 97. Section 617.10 was repealed in 1990
(effective in 1991), and was very different than the current
section 617.0607. Section 617.10 provided, in pertinent
part:
Social clubs or societies not for profit may be
incorporated under this chapter; provided, however,
that any such club or society may, in its by-laws:

APPENDIX 0131

WESTLAW © 2018 Thomson Reuters. No claim to 000339
original U.S. Government Works.

5

Florida Research Institute for Equine Nurturing, Development. .. , 247 So.3d 538 (2018)
43 Fla. L. Weekly D1105

(2) Prescribe that an incorporator or member shall
not have any vested right, interest or privilege of,
in or to the assets, functions, affairs, or franchises
of the corporation, or any right, interest or privilege
which may be transferable or inheritable, or which
shall continue after his membership ceases, or while
he is not in good standing; provided, that before his
membership shall cease against his consent he shall be
given an opportunity to be heard ....
(emphasis added).
The current section 617.0607, which the trial court cited
in its final judgment, contains no such requirement that
before a person's membership shall cease against that
person's consent, the person shall be given notice and
an opportunity to be heard. Instead, the current section
617.0607(1) states: "A member of a [not for profit]
corporation may not be expelled or suspended, and a
membership in the corporation may not be terminated
or suspended, except pursuant to a procedure that is fair
and reasonable and is carried out in good faith." (emphasis
added). The trial court's conclusion, that this procedure
requires notice and an opportunity to be heard, finds no
support in section 617.0607's plain language or case law.

Based on the foregoing, we reverse the trial court's final
judgment to the extent the trial court concluded that the
corporation illegally terminated the wife's membership
in the corporation without affording her notice and
a hearing. We remand for the trial court to enter a
new final judgment finding in the corporation's favor
on the wife's declaratory action, determining that the
wife's membership was reasonably, fairly, and legally
terminated, and that the wife ceased being a member
of the corporation when the corporation terminated her
membership. The new final judgment shall not disturb the
trial court's findings of fact and conclusions of law as to
the husband's action, which, in sum, were that although
the husband was a member of the corporation whose
membership was never terminated, the husband's request
to inspect the corporation's records was impermissibly
vague and overbroad and, therefore, the corporation did
not improperly fail to respond to the request.
*545 Affirmed in part, reversed in part, and remanded for
entry of new final judgment consistent with this opinion.

Damoorgian and Klingensmith, JJ., concur.
All Citations
247 So.3d 538, 43 Fla. L. Weekly D1105

Conclusion

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX 0132
WESTLAW © 2018 Thomson Reuters. No claim to 000340
original U.S. Government Works.

6

lFraterimaR Ordler off JP>olllice
FLORIDA STATE LODGE
February 16, 2015

Edward J. Manak
2599 Nassau Rd.
West Palm Beach, Florida 33406

RE: Written Notice of Appeal
Ed,
I am in receipt of your written Notice of Appeal of the action taken by Fraternal Order of Police Jim Fogleman
Lodge 50.
In accordance with Florida State Lodge, Fraternal Order of Police Constitution, Article 20 - Discipline, Section
3. (8)(1): "An appeal to the State Lodge may be brought by the filing of a written notice of appeal with the
State President no more than thirty (30) days after the member's receipt of official notification of his suspension,
expulsion or removal from office. Unless continued or delayed for good cause, such appeal shall be heard
by the State Lodge Board of Trustees at the next board meeting following the State Lodge President's
receipt of such notice of appeal and, unless waived in writing by both the appealing member and the
responding lodge, a written decision shall be rendered by the Board of Trustees within ten (10) days after
such meeting. Both the appealing member and the lodge from whose action the appeal is brought shall have
the right to a hearing at which both parties may be heard and may present witnesses and documents.
Such hearing shall be conducted in conformity with Article 22 of the By-Laws and open to active members in
good standing only. The parties to the appeal shall receive notice of the date of the hearing by registered
mail not less than ten (10) days before such hearing. The Chairman of the Board of Trustees shall be the
Presiding Officer, provided the Chairman is not the accused member or an involved party, in which case
the Board of Trustees shall nominate and elect a Presiding Officer for the purpose of the hearing."
3. (8)(2): The Florida State Lodge Board ofTrustees may sustain, modify or reverse the disciplinary action against
the member or subordinate lodge or state officer.
Article 20 - Discipline, Section D: Except in the case of discipline initiated thereby, the State Lodge Board
of Trustees shall review appeals of disciplinary matters solely to ensure that the parties were afforded
due process and that the decision was consistent with the Constitution, the By-Laws, and Ritual of the Order.
In accordance with Article 20, you are hereby notified that such Appeal shall be heard by the Florida State
Lodge, Fraternal Order of Police Board of Trustees at their next regularly scheduled meeting to be held
in June 2015 in St. Pete Beach. The exact date, time and place shall be transmitted to you not less than ten (10)
days before such hearing.
Sincerely,

~1(/.~
James W. Preston, President
Florida State Lodge
Fraternal Order of Police

APPENDIX 0133

242 Office Plaza, Tallahassee, Florida 32301 I• Post Office Box 1349, Tallahassee, Florida 32302- 1349
Telephone: 850-656-9881 • Toll Free: 800-873-FOPI• Fax: 800-873-3670 • Web: www.floridastatefop.org

000341

Fratt;ffial Order of:.,olice
FLORIDA STATE LODGE
June 14, 2015

Edward Manak
2599 Nassau Rd.
West Palm Beach, Florida 33406-776.~ .•
Mr. Edward Manak,

~tr:f~t;~I

Please read below the results of your head!~·at~
Ord~rof Polic~'66th Annual State
·
Conference of the Florida State Lodge, d.~t;~(fhiifs d~y'J""u:b:E\11, 2015.
0

On Thursday Junf l~tl()l?;/he FJoffda State Lodge Frater.nal O~des§f Po\i~,¥. 0~§:a.:r~:·9f Ttust1:te~~met to
determine if Mr.;Mana\n={.eix~9)Due Process" inhisdisdplinary prQ.t~s$:by'ffaferq.?1 OrcJerof Police
Lodge 50. u[)ue.pf~cess'; a~,;1:av~d in The Flcirida·s~ate'Lodge Constituri~~pntiBh{~~~·Article-20
section 3D. ,. E]!Cept ii/'.tht?;~se of discipline initiate~ th1:reby, the Stcitfi~~ge;Ji;,afd 6f Trustees shall
review appeals of di;cipli~~rymatters s~l~lyibensure'ihat the partiesJ/erei:lfforded due process and
that the r1/c:islon w~s con"sistent with this Co~1iitutio~:·the
ay:./aws, Cltfr/Rituaiof the, Order. After
:;::_0--testimonyby members of Lodge 50, Mr .. l\/la11ak·ancrtbe}::nairman ofJhe Trustees it was motioned,
seconded'';;d ~assed un'animo~slythau:·~:;·rd'M;n::k ~fcf;eteive pte Proceslfrom,loai; 50 and the
Florida Stat; fodge Fraternal Oi~·erof Police: :> ~· . .
. ·~:, '
.
.
.
-~---

-

-••

-

:q,c.•_

~

~

CC"

--

-

--

'C'"

•

;

-"'-

0

0

AppeaTproc:ss. Ap~~a 1.byrn~'~6~rs,rn.~v.be,.rnJ3,~{t~r6Ugh~T~;'~1:()rida Stbti/1-oage Constitution
and By-laws Artic,;.:2r s~~fion\I~}ln
a~';individual member
involving suspension; expulsion orremoval from office"by:a/subordinateilodge, an appeal may be
;''l('.~~t~·r? _:":". ' ,·'>'}t?r:~-.
-'··""":~;~\;ft:~:·.·}~tt~~;~:::.:}~~:~r:r,, \\I< I
taken by the member to· the Florida'State·Lodge.and an appealmay
oe -taken from the decision of the
>·~~::
State Lodge by the non-prevailing party to the Grand Lodgii''Nationcil0 Board of Trustees and,
ultimately, to the Biennia/Conference of}he Grand Lodge::
t
f/,
f ., jf}
,,,,,"'el

't!~lf~;~ ;;j~'dl~lfetff1~;1rn1~it~~'UP,fJ,f

i~ ~

-..,

"

•.,,;+~i:;o:,"·

·,,/'

_ ___

l ?.'

-

_

~

,'" '

I~

0 -

... :.·--""£:'.'"'

":,;'".];«.___

,,-'"

~' '\~
'L

Fraternally;

~,(!/~

Rob Robertson, Chairman of Trustees

nette Clinch Secretary
Fraternal Order of Police
Florida State Lodge

242 Office Plaza, Tallahassee, Florida 32301 • Post Office Box 1349, Tallahassee, Florida 32302-1349
Telephone: 850-656-9881 • Toll Free: 800-873-FOPl • Fax: 800-873-3670 • Web: www.floridastatefop.org
Labor Council Committee: 888-485-0351

APPENDIX 0134

000342

The Fraternal Order of Police, Jim Fogleman Lodge #50, Inc.
Mailing Address: P.O. Box 16372
West Palm Beach. FL 33416-6372
Physical address: 885 62"d Drive N. West Palm Beach, FL 33413

·

Tele: (561) 687-7554 www.foph"'dge.'i0.org e1m1il: !'>ecret~ry@foplodge.'i0.org.

January 28, 2015

Edward Manak
2599 Nassau Road
West Palm Beach, Fl 33406

Dear Edward Manak:
As you were present, a disciplinary hearing was held af our January 13th, 2015 general members
meeting in which the members present, voted 19-1 that you were guilty of violating Fop Jim
Fogleman Lodge 50 bylaws; Artic~e 2 Duties of Tnt~rer Section 1 Subsection E and
including your violation of oath of office, whicQm swore to on January 14, 2014 by, _
"failing to recognize the authority ofyou~Jl~elected officers." by refusing to relinquish
all monies, checkbooks, keys and oth«rr'LiugJproperty when asked numerous times by the
President and the Trustees of the Lodg~the penalty of which is no less than to be expelled
from the order.
This is your official notification of the results of the vote along with your notification of
expulsion from FOP Jim Fogleman Lodge 50.

Iii accordance with Florida State Lodge, Fraternal Order of Police Constitution, Article 20Discipline, Section 3 .(B)( 1): "An appeal to the State Lodge may be brought by the filing of a
written notice of appeal with the State President no more than thirty (30) days after the member's
receipt of official notification of his suspension, expulsion or removal from office.
Good Luck in your endeavors.
Sincerely,

Luis Blasco, President, FOP Jim Fogleman Lodge 50

APPENDIX 0135
000343

Constitution and By-Laws
Of

Fraternal Order of Police
Jim Fogleman Lodge #50

Revised 1994
Seal of Jim Fogleman Lodge #50
Revised 2011 (October Board Meeting
Fort Lauderdale, FL)
Seal of Jim Fogleman Lodge #50

1

APPENDIX 0136
000344

Index

I. Constitution
Preamble
Article I - Name
Article II - Object and Purpose
Article III - Membership
Article IV - Officers
Article V - Board of Directors
Article VI - President
Article VII - Vice President
Article VIII - Other Lodge Officers
Article IX - Discipline
Article X - Parliamentary Procedure
Article XI - Official Publications
Article XII - Official Ritual

5
6
7
8
11

12
13

14
15
16
17
18
19

II. By-Laws
Article I - Duties of the Secretary
Article II- Duties of the Treasurer
Article III - Duties of the Conductor
Article IV -Duties of the Guard
Article V -Duties of the Chaplain
Article VI - Board of Trustees
Article VII - Duties of the State Trustee
Article VIII - Election of Delegates
Article IX - Recall of Officers
Article X-Fees and Dues
Article XI - Meetings
Article XII - Amendments
Article XIII - Expenses of Lodge Officers/Delegates
Article XIV - Committees
Article XV - Audit and Budget
Article XVI - Legal Aid

20
22
23
24

25
26
27
28
29
30
31
32
33
34
35
37
2

APPENDIX 0137
000345

Index by Subject

Abuse of Lodge or Membership
Active Membership
Appointment of Committees
Approval of Budget
Associate Membership
Attendance by Elected Officers
Audit by C.P.A.
Balloting on Petitions for Membership
Board of Director's Meetings
By-Laws of State and Grand Lodge to Prevail
Compliance with Fiscal Accountability
Contingency Fund
Delegates to District Four
Duties of the President
Duties of the Vice President
Duties of the Recording Secretary
Duties of the Treasurer
Duties of the Conductor
Duties of the Guard
Duties of the Chaplain
Duties of the Board of Directors
Duties of the State Trustees
Elected Officers
Election of Delegate to National Conference
Election of Delegates to State Conference
Election of Delegates to District Four
Election of Officers
Election of State Trustee
Eligibility to Hold Office
Emergency Appropriations
Expense of Lodge Officers
Failure of Committees to Act
Fiscal Year
Honorary Membership
Installation of Officers
Journal

16
8
34
35
11

12
26
12
12
17
36
35
28
13

14
20
22
23
24
25
12
27
11

28
28
28
11

27
11

35
33
34
35
9

11
18
3

APPENDIX 0138
000346

37
35
31

Legal Aid
Line Item Budget
Location of Meetings
Membership Eligibility
Methods for Payment of Dues
Methods of Voting
Name of the Organization
Newsletter
Nominations Committee
Nominations of Officers
Notice of Suspension
Notification of Proposal to Amend By-Laws
Notification of Special Meeting
Parliamentary Procedure
Petition for Membership
Petition for Recall of Officers
Power to Act in an Emergency
Preamble
Procedure to Amend By-Laws
Purpose of the Organization
Quorum Necessary to Hold Meetings
Recall Election
Regular Meetings
Retired Members
Right to Appeal Disciplinary Rulings
Right to Appeal Recall Election
Special Committees
Special Meetings
Standing Committees
Term of Committees
Term of Delegates
Term of Officers
Transfers
Vacancy in Office
Voting on By-Law Change

11

30
31
6
18
34
11

16
32
31
17
9
29
12
5
32
7
31
29
31
9
16
29
34
31
34
34
28
11

9
12
32

4

APPENDIX 0139
000347

Constitution
Preamble

We, the Law Enforcement and Correctional Officers in the geographical area designated by the Florida
State Lodge, Fraternal Order of Police, and District Four, and the Political Subdivisions thereof, and in
Particular as Representatives of Jim Fogleman Lodge #50 of West Palm Beach, Florida and Vicinity,
being a Subordinate Lodge of the State and National Lodge of the Fraternal Order of Police do hereby
associate for the following purposes:
To support and defend the constitution of the United States and the State of Florida; to inculcate loyalty
and allegiance to enforcement of law and order, to improve the individual proficiency of our members in
the perfonnance of their duties; to enforcement and correctional officers, to create a tradition of esprit de
corps, insuring fidelity to duty under all conditions and circumstances; to cultivate a spirit of fraternalism
and mutual helpfulness among our membership and the people we serve; to increase the efficiency of the
law enforcement and correctional professions and thus more finnly establish the confidence of the public
in the service that is dedicated to the protection of life and property.
The Fraternal Order of Police, Jim Fogleman Lodge #50 is an organization of Law Enforcement and
Correctional Officers actively engaged in the Law Enforcement and Corrections discipline or retired
therefrom.

5

APPENDIX 0140
000348

Article I
This organization shall be known as the Fraternal Order of Police, Jim Fogleman Lodge #50 a
Subordinate Lodge of the Fraternal Order of Police Grand Lodge and the Fraternal Order of Police
Florida State Lodge, and the Fraternal Order of Police District Four.
On October 20, 1966 a charter was granted by the Grand Lodge Fraternal Order of Police, Incorporated at
Pittsburg Pennsylvania, May 24, 1915.

6

APPENDIX 0141
000349

Article II
Object and Purpose
Section 1.

This organization is formed for the mutual welfare of Law Enforcement and
Correctional Officers and the promotion of fraternal, charitable and social
relations among its harmony between this lodge and the general public and all
public officials.

Section 2.

It shall be the duty of this lodge to further professionalize Law Enforcement
and Corrections and to encourage greater public support for Law Enforcement
and Corrections Officers in the perfonnance of their duties.

7

APPENDIX 0142
000350

Article III
Membership
Section 1.

Any regular appointed and full time employed Law Enforcement or Correctional
Officer shall be eligible for membership in the Fraternal Order of Police, Jim
Fogleman Lodge #50, Inc, subject to the provisions of this constitution and
bylaws of the order. No person shall be denied membership because of race,
religion, color, creed, gender, age or national origin.
The Fraternal Order of Police shall deny membership to anyone who is, or has
been a member of the communist party, or of any organization known (regardless
of what name) to advocate the abolition or destruction of our government by
force or subversion.

Section 2.

Section 3.

(A)

The term, "regularly appointed Law Enforcement and Correctional
Officer", shall mean, for the purposes hereof, any Law Enforcement or
Correctional Officer who meets the minimum standards, has received the
training and the education required by the United States, the State of
Florida and the agency by which they are appointed, and is granted arrest
powers.

(B)

The tenn "Full Time Employed" shall mean Law Enforcement and
Correctional Officers that are engaged in such employment as their full
time occupation.

There shall be three classes of membership; active, retired, and honorary.
(A)

Active Membership:
1. Shall include regular, appointed or elected full time Law
Enforcement and Correctional Officers.
2. May include retired, regular appointed or elected Law Enforcement
and Correctional Officers.
3. May include, subject to the approval of the State Lodge Board of
Trustees and Jim Fogleman Lodge #50 Inc., regular appointed or
elected Law Enforcement or Correctional Officers who have left the
employ of their respective agency and who have remained in good
standing with the lodge.
4. Only active members herein described shall have voice and vote.

8

APPENDIX 0143
000351

(B)

Retired Membership:

Shall be comprised of regular, appointed or elected Law Enforcement or
Correctional Officer who withdraw from active membership upon or
after retirement from their respective agency.
(1) Retired members pay no per capita tax and have no voice or vote.
(2) The only benefit a retired member has is a membership card issued
by this lodge.
(C)

Honorary Membership:
Shall be comprised of individuals recognized by this Lodge for
exceptional service or contribution to law enforcement, community or
the Fraternal Order of Police.

Section 4.

No person shall be a member of Jim Fogleman Lodge #50 Inc. while still a
member of another F.O.P. Lodge, nor shall any member who is delinquent or has
been suspended for any reason, be eligible for membership in Jim Fogleman
Lodge #50 Inc.

Section 5.

The Fraternal Order of Police Jim Fogleman Lodge #50 Inc. may deny
membership to anyone who is, or has been, a member of any organization
regardless of what name, which advocates the abolition, destruction, or violent
overthrow of the Government of the United States, or any State or Political
subdivision thereof.

Section 6.

Any active member may be granted a transfer from Jim Fogleman Lodge #50 to
another lodge, or from another lodge to Jim Fogleman #50 provided that he or
she is a member in good standing, both lodges agree to the transfer, and the
member cannot be active in his or her fonner lodge because of collective
bargaining law restrictions or geographical location.

Section 7.

All persons seeking membership in this lodge shall submit in writing a petition
for membership, authorized by the lodge and conforming to the regulations of the
Grand Lodge. All questions on all petitions must be answered and warranted by
the applicant to be true. All petitions for membership must be recommended by
an active member in good standing.

Section 8.

All petitions for membership shall be referred to the membership committee of
three (3) members who shall investigate the applicant and report their findings to
the next general business session of the lodge. The President shall have the
authority to grant further time for investigation if deemed necessary.
9

APPENDIX 0144
000352

Section 9.

Any petition for affiliation shall be through transfer or demit issued in regular
form, and said demit must be presented within one year from the date of issue.

Section 10.

All petitions for membership in this lodge shall be voted upon, and if the
petitioner shall receive a two thirds vote of the members present, and voting, the
petitioner shall be declared accepted, and the secretary of the lodge shall notify
the applicant.

Section 11.

In consideration of the benefits to which such member is entitled while a member
in this lodge, the member shall, upon severing his connection with the lodge for
any reason whatsoever, forfeit all rights and claims to funds and property of this
lodge.

Section 12.

Specifically excluded from membership are Private Security Guards, Special
Police, members of profit making security and correctional organizations,
auxiliary or Reserve Police.

Section 13.

No person at any time shall be a member of the auxiliary or associate lodge when
they quality for membership in the Fraternal Order of Police active lodge.

10

APPENDIX 0145
000353

Article IV
Officers
Section 1.

The officers of Jim Fogleman Lodge #50 shall consist of President, Vice
President, Secretary, Treasurer, Guard, Chaplain, Conductor and three
Lodge Trustees.

Section 2.

Nominations of Officers will be held at the regular meeting in the month of
November of each year.

Section 3.

No member can be eligible as a candidate for office in this lodge unless he or she
is in good standing and has attended at least six (6) regular meetings in the
previous (December through November) twelve month period.

Section 4.

All Officers of this lodge shall be annually. The election shall be by secret ballot
and shall be held at the December regular meeting. The candidate receiving the
largest number of votes cast for that office shall be declared elected.

Section 5.

The newly elected officers of this lodge shall be installed at the dinner meeting in
the month of January and shall serve until their successors are duly elected and
installed.

11

APPENDIX 0146
000354

Article V
Board of Directors
Section 1.

The Board of Directors shall consist of the President, Vice President, Secretary,
Treasurer, Chaplain, Guard, the three Lodge Trustees, Conductor, the State
Trustee, the immediate past President and any State Officer from this lodge.

Section 2.

It shall be the duty of the Board of Directors to;
(A)

Hold a regular meeting once a month.

(B)

Cause a special meeting of the board to be called upon the request of four
members of the board.

(C)

Have a quorum of four members present.

(D)

Render recommendations concerning the welfare of the lodge to the
assembly for action. The board shall have the power to act in all
emergencies pertaining to the welfare of the lodge and its members, and
report the action taken to the assembly.

Section 3.

When any elected officer misses five (5) consecutive meetings (board meetings
included), the office shall be declared vacant. The only exception acceptable to
the lodge for a violation of this section shall be a long term illness or due to his or
her regular duty assignment.

Section 4.

Should the office of President become vacant for any reason, the Vice
President shall assume the office of President. The office of Vice President will
then be declared vacant and filled as prescribed in section 5 of this article of the
constitution.

Section 5.

In the event of a vacancy occurring in any office except the President, the
vacancy shall be filled by Presidential appointment at the same meeting at which
the vacancy occurred, and ratified by a 2/3 vote of the Board of Directors present.
The appointment shall be for the unexpired term of office.

12

APPENDIX 0147
000355

Article VI
President
Section 1.

The President of this lodge shall be the Chief Executive Officer of the lodge.

Section 2.

It shall be the duty of the President to;
(A)

Preside at all meetings.

(B)

Ensure that the constitution and by-laws of this lodge are enforced.

(C)

Sign all papers requiring his signature.

(D)

Appoint the majority of all committees with the exception of the
nominations committee.

(E)

Appoint all officers protem.

(F)

Preside as Chairperson of the Board of Directors.

(G)

Preside as Ex-Officio Chairperson of the Board of Trustees.

(H)

Communicate the password to all members entitled to receive the same.

(I)

Notify the State Lodge and the Grand Lodge of any change of Secretary
either at the time of election or between elections, giving the name,
address, and signature of the new Secretary.

(J)

Call all special meetings.

13

APPENDIX 0148
000356

Article VII
Vice President
Section 1.

It shall be the duty of the Vice President to;
(A)

Assist the President in the discharge of his duties.

(B)

In the absence of the President, exercise the powers and duties of that
office.

(C)

Appoint the minority of all committees with the exception of the
nominations committee.

(D)

Maintain the official membership rolls.

(E)

Perfonn the duties of the treasurer in the event of the treasurer's absence,
until such time as the treasurer can assume his duties, or appointment is
made as provided for in this constitution.

(F)

Receive all petitions for membership and refer the same to the
membership committee.

14

APPENDIX 0149
000357

Article VIII
Other Lodge Officers
The Secretary, Treasurer, Conductor, Guard, Chaplin, State Trustee and the Lodge Trustees shall perform
the prescribed duties of their respective offices by the By-laws hereof.

15

APPENDIX 0150
000358

Article IX
Discipline
Section 1.

If any member of the lodge should abuse the usage of the lodge or be accused of any
offense against the lodge or its membership, he may be reprimanded, suspended or
expelled.

Section 2.

The charges must be preferred in writing and submitted to the lodge at a regular meeting.

Section 3.

The accused member shall be given the opportunity to answer the charges in person at the
next regular meeting.

Section 4.

A vote of 2/3 of the members present, to reprimand, suspend or expel the accused, shall
be required to discipline the accused member.

Section 5.

The accused member shall have the right to appeal to the District Director and the State
and National Lodges, any discipline imposed by the lodge.

Section 6.

The accused member shall retain all rights and privileges of membership pending the
appeals process.

Section 7.

Any member of this lodge who is in arrears for dies for a period of more than 90 days
shall automatically be suspended from the lodge.

Section 8.

The membership committee chainnan shall notify the member in writing that he is in
arrears and suspended.

Section 9.

The delinquent member may be reinstated upon payment of all delinquent dues and fees.

16

APPENDIX 0151
000359

Article X
Parliamentary Procedure
Section 1.

All business transactions of this lodge shall in no manner conflict with the constitution
and by-laws of the State and Grand Lodges of the Fraternal Order of Police. In such cases
not provided for in the constitution and by-laws, the latest edition available of "Robert's
Rules of Order" shall prevail.

17

APPENDIX 0152
000360

Article XI
Official Publications
Section 1.

There shall be an official publication of the lodge titled "Jim Fogleman Lodge
#50 Fraternal Order of Police Inc. Journal". Said Publication to be under the
management, control and supervision of the Board of Directors and operated by
the Ways and Means Committee.

Section 2.

There shall be a newsletter published by the lodge and sent to each lodge member
via the most cost effective means, such as email and/or other electronic/digital
communication methods titled, "Jim Fogleman Lodge #50 Fraternal Order of
Police Inc. Newsletter". Said newsletter to be under the management, control and
supervision of the Board of Directors and operated by the public relations
committee.

18

APPENDIX 0153
000361

Article XII
Official Ritual
Section 1.

There shall be an official ritual of the order which shall be known as the Fraternal
Order of Police Ritual.

Section 2.

The Ritual of the Fraternal Order of Police as revised at the 4ih Biennial
Conference in Baltimore, Maryland August 6-9, 1985, shall be the official ritual
of this lodge.

19

APPENDIX 0154
000362

By-Laws
Article I
Duties of the Secretary
Section 1.

It shall be the duty of the Lodge Secretary to:

(A)

Have custody of the books, records, documents, the seal of the lodge
and office paraphernalia and equipment under the general authority
and orders of the President and the Board of Directors.

(B)

Take a record and transcribe minutes of the meetings and the Board
of Directors' meetings, and submit the same for approval or rejection
at the next meeting.

(C)

Attest under the Seal of the Order, all duly authorized contracts of the
Order.

(D)

Conduct the general correspondence of the lodge.

(E)

Be the Official Custodian of the Constitution of the Order, which shall be
authenticated by the Seal of the Order and the signature of the President
and the Secretary. Keep a record of the Official Amendments adopted at
meetings amending the constitution, duly authenticated by the Seal of the
Order and the signatures of the President and the Secretary, in a book
known as "The Book of Amendments to the Constitution and By-Laws".

(F)

At the expiration or tennination of his or her tenn of office for any
reason, within ten (ten) days thereafter, the Secretary shall deliver to his
or her successor the Official Seal of the Order, and all books, documents,
records, paraphernalia, equipment, and all other lodge property in his
or her possession and require and receive a receipt for same.

(G)

At each session of the Board of Directors, submit a full and complete
report in writing of official business transacted by him or her
subsequent to the last meeting of the Board of Directors, together with
such recommendations as he or she may deem advisable.
20

APPENDIX 0155
000363

(H)

Prepare per capita taxes and publish a list of delinquent members and
advise those delinquent members in writing.

(I)

Collect all incoming monies for the lodge and record same and forward
same to the Treasurer for deposit in the proper accounts.

21

APPENDIX 0156
000364

Article II
Duties of the Treasurer
Section 1.

It shall be the duty of the Treasurer to:
(A)

Receive from the Secretary all monies belonging to the lodge and issue
receipt for same.

(B)

Pay all orders drawn on him, signed by the President and the Secretary.

(C)

Keep an accurate account of all monies received and expended and credit
each special account with such sums as they occur.

(D)

Provide the audit committee with a correct account of all monies in his
possession, together with the books, papers and receipts belonging to his
office.

(E)

At any time, when ordered by the Board of Directors, he shall deliver all
monies, books and papers to the Board of Trustees.

(F)

Deposit all monies belonging to the lodge in a financial institution
chosen by the Board of Directors to the credit of the lodge.

(G)

Deliver to his successor in office, all books and property belonging to
the lodge, within ten (10) days of the expiration of his term.

(H)

Perform such other duties as are usual and incident to his office.

(I)

At each session of the Board of Directors, submit a full and complete
report of official business transacted by him subsequent to the last
meeting of the Board of Directors, together with recommendations as
he may deem advisable.

22

APPENDIX 0157
000365

Article III
Duties of the Conductor
Section 1.

It shall be the duty of the Conductor to:
(A)

Perfonn such duties as prescribed by the ritualistic work of the lodge.

(B)

In the absence of the Vice President, assume the duties of that office.

(C)

In the absence of both the President and the Vice President, assume the
duties of the President and all powers of that office.

(D)

Act as the liaison between the parent lodge and the associate and
auxiliary lodges.

23

APPENDIX 0158
000366

Article IV
Duties of the Guard
Section 1.

It shall be the duty of the Guard to:
(A)

Attend the door and sign in all attending members.

(B)

Assist the Chaplain with greeting new members and guests and visitors.

(C)

Perfonn such duties as the President requires.

24

APPENDIX 0159
000367

Article V
Duties of the Chaplain
Section 1.

It shall be the duty of the Chaplain to:
(A)

Lead the lodge in opening prayer.

(B)

Lead the lodge in closing prayer.

(C)

Serve as liaison between families of this lodge, members and/or families ill,
injured or in distress, and report to the lodge any members and/or families ill
and/or in distress, and take appropriate action as necessary for the occasion.

(D)

Assist and advise the President on lodge matters.

(E)

Greet visitors, guests and new members of the lodge.

(F)

Introduce new members, visitors and guests to other members.

(G)

Advise the President and/or the Vice President of the presence of new
members, visitors and guests.

25

APPENDIX 0160
000368

Article VI
Board of Trustees
Section 1.

The Board of Trustees shall consist of the three lodge Trustees. The term of
office of a Trustee shall be three years with one Trustee elected every year. The
Board of Trustees shall:
(A)

Manage and inspect all properties of the lodge.

(B)

Advise proper distribution of pennanent funds and make
investigations necessary prior to the investment of such funds.

(C)

Advise and present to the lodge such transactions for approval.

(D)

Conduct an ammal inventory of all lodge property and submit the same
in writing to the Board of Directors.

(E)

Make an annual audit of the lodge accounts, books and records petty
cash funds, and bank accounts which shall be turned over to them by the
lodge Secretary and Treasurer.

(F)

Reconcile the bank statements monthly.

(G)

Sanction the payment of all bills and expenses contracted by the lodge.

(H)

Require a C.P .A. audit of all books and papers of the lodge which shall
be completed no later than the regular meeting in December of each year.

all

26

APPENDIX 0161
000369

Article VII
Duties of the State Trustee
Section 1.

In addition to the regular duties of the State Trustee, the State Trustee shall:
(A)

Serve as co-chair of the audit committee.

(B)

Serve as co-chair of the Board of Trustees.

(C)

Gather data and infonnation of every kind pertaining to the welfare
of Law Enforcement and Correctional Officers and furnish the same
to the lodge on request or when deemed necessary.

(D)

Attend all State Conferences and Board meetings.

27

APPENDIX 0162
000370

Article VIII
Elections of Delegates
Section 1.

Nomination and election of Delegates to State and National Conferences,
meetings called by the District Director Florida State Lodge.
(A)

Delegates to the National Conference shall be elected as prescribed
in Article X of the Grand Lodge By-laws.

(B)

Delegates to the National Conference shall be elected no later than
July preceding the conference.

(C)

Delegates to the State Conference shall also attend all meetings
by the District Director as representatives of the lodge.

(D)

The three qualified candidates receiving the highest number of
shall be declared Delegates.

(E)

The term of office of the Delegates shall commence upon their
election and terminate upon the election of their successors.

(F)

The State Trustee for this lodge will be elected at a meeting of the
Delegates to the State Conference and announced prior to the taking
of nominations of other State Officers during the general session of
the conference.

called

votes

28

APPENDIX 0163
000371

Article IX
Recall of Officers
Section 1.

Petition to recall: If six or more members in good standing of this lodge have
sufficient proof in hand to show that any officer or officers have acted
dishonestly or otherwise detrimental to the best interest of the lodge, they may
file a petition to recall with the Board of Directors. A copy of the charges shall be
filed in duplicate fonn, and must be submitted with the petition to recall. The
Board of Directors shall forward a copy of the charges to the Officer or Officers
against whom the petition is directed.

Section 2.

Recall election: the Board of Directors shall call a special meeting within fifteen
(15) days after the accused officer or officers receive notification of the charges,
and so notify the accused to allow him or them to reply to the charges, by virtue
of a personal appearance, at which time the plaintiffs shall appear in person. If
the Board of Directors find sufficient cause to justify the recall petition, they
shall proceed with a recall election. The charges shall be read at the next regular
meeting of the lodge. A vote of 2/3 of the majority of the members present at the
regular meeting to sustain the recall petition is necessary to remove the accused
from office.

Section 3.

Appeal: the accused Officer shall retain all rights to appeal the recall election to
the District Director, State and National Lodges.

29

APPENDIX 0164
000372

Article X
Fees and Dues
Section 1. The dues for members of Jim Fogleman Lodge #50 Inc. shall be $25.00 a month or
$300 per year. Members may pay their dues:

Section 2.

(A)

Monthly by cash, check or via electronic funds transfer such as ACH
withdrawal; each member choosing the ACH method of payment shall
sign an authorization form authorizing FOP Jim Fogleman Lodge #50,
Inc. to withdraw their dues from the personal checking or savings
account of their choice. If the lodge is equipped to accept and process
check, debit and/or credit cards then a member may choose that option
for payment of their dues:

(B)

In advance for the current year: each member not choosing to pay dues
monthly will pay all dues for the current year, directly to the
Secretary of Jim Fogleman Lodge #50 Inc. Fraternal Order of Police.
Payment of dues shall be made by January 31st of each year.

(C)

Payroll Deduction: When and if authorized by the Palm Beach County
Sheriffs Office or any other agency, each member choosing to pay dues
by this method shall sign a payroll deduction authorization, authorizing
the Sheriff of Palm Beach County and/or other agency administrator(s) to
withhold the amount prescribed from the member's pay and submit that
amount to the treasurer of Lodge #50 each pay period.

Members who retire, but choose to remain classified as an active member, will
pay per capita tax to the State and National Lodges along with the costs of any
benefits, except for legal aid, provided by this lodge.

30

APPENDIX 0165
000373

Article XI
Meetings
Section 1.

Regular meeting of this lodge shall be held once a month.

Section 2.

The President may call a special meeting of the lodge at any time. He must call
a special meeting of the lodge when requested to do so by five (5) members in
good standing, when such requests are made in writing and signed by said
members. The purpose of the special meeting shall be clearly stated in the
written request.

Section 3.

Notification of all special meeting shall be posted on the bulletin boards of all
line-up rooms twenty-four hours preceding the meeting.

Section 4.

No business other than that for which the special meeting has been called can be
transacted at any special meeting.

Section 5.

There must be a quorum present before a regular meeting can be held. A quorum
shall consist of twelve active members, two of whom must be elected members
of this lodge, except when a special meeting is called by an Officer of the Grand
Lodge or State Lodge. A quorum for a special meeting shall consist of the five
members calling for the meeting and two Officers of the lodge.

Section 6.

No petitions for membership or amendments to the constitution or by-laws can
be presented at any special meeting.

Section 7.

The location, date and time of each meeting shall be designated by the lodge
President with the approval of the Board of Directors.

Section 8.

The majority vote shall govern, except in balloting on petitions for membership,
amendments to the by-laws, and where the vote is stipulated in specific sections
of these by-laws.

Section 9.

Any member or the President may call for a secret ballot on any issue coming
before this lodge.

31

APPENDIX 0166
000374

Article XII
Amendments
Section 1.

Section 2.

Section 3.

Section 4.

An amendment to this constitution and by-laws must be submitted at a regular
meeting of the lodge.
(A)

Said amendment must be in writing and read before the membership
present.

(B)

Said amendment must be signed by two (2) members in good standing.

The proposed amendment shall be reviewed by the by-laws committee who shall:
(A)

Notify by e-mail or other commonly accepted electronic/digital
communication methods available to all members of the lodge, of the
proposed amendment along with a statement that the proposal is/is not in
conflict with the State and National by-laws.

(B)

Such notification shall allow a ten (10) day period for review prior to the
amendment being voted upon by the membership present at the next
regular meeting.

The proposed amendment shall be voted upon by the membership present at the
next two regular lodge meetings.
(A)

The amendment must receive a 2/3 pass vote at both meetings.

(B)

An amendment receiving a pass vote at both meetings shall be forwarded
to the State Lodge By-laws Committee for approval.

The proposed amendment shall take effect immediately upon approval by the
State Lodge.

32

APPENDIX 0167
000375

Article XIII
Expenses of Lodge Officers and Delegates
Section 1.

The elected Officers and Delegates, when attending a State Board meeting or
conference, shall receive expenses as prescribed in subsections (A), (B), (C),
and (D) of this section.
(A)

Travel: shall be paid at tourist rate air transportation, When traveling in
areas not covered by air transportation, mileage will be paid at the rate
of $.22 per mile for any mileage over twenty (20) miles.

(B)

Hotel accommodations: shall be paid at the rate prescribed by the host
lodge for the event.

(C)

Meals: shall be paid at the rate of $35.00 per day.

(D)

Registration and installation banquet fees: shall be paid at the rate
prescribed by the host lodge.

33

APPENDIX 0168
000376

Article XIV
Committees
Section 1.

All committees shall be appointed by the President and Vice President, with the
exception of the nomination committee which will be elected by the membership
at the October meeting.

Section 2.

The President shall name the Chairperson of all committees.

Section 3.

No committee shall enter into any contract under the name of Jim Fogleman
Lodge #50 Inc. Fraternal Order of Police.

Section 4.

Any committee failing to meet within thirty (30) days of appointment shall be
declared dismissed by the President and a new committee appointed if deemed
necessary.

Section 5.

There shall be standing committees on membership, by-laws and standing rules,
way and means, public relations, legal aid, and legislation.

Section 6.

Each committee shall consist of a minimum of three members.

Section 7.

Special committees may be appointed as deemed necessary by the President.

Section 8.

The nominations committee shall return a complete slate of officers
recommended for nomination at the regular meeting in November, at which time
additional nominations can be made from the floor by any regular member. No
member of this committee will appear on the nominations committee slate,
however they may be nominated from the floor.

Section 9.

The term of all committees shall expire upon the expiration of the term of office
of the President or as provided for elsewhere in these by-laws.

34

APPENDIX 0169
000377

Article XV
Audit and Budget
Section 1.

The fiscal year of Jim Fogleman Lodge #50 Inc. shall be from January 1 to
December 31, inclusive of each year. In addition to the annual audit to be made
by the Board of Trustees, said Board of Trustees shall annually cause a complete
audit and report of all funds and financial books and records of the lodge to be
made for the fiscal year by a certified public accountant.

Section 2.

The Board of Directors will meet in November of each year, called by the
President, to fonnulate a line item budget of all facets of the lodge administration
and operational structure for the next fiscal year.
(A)

Every Committee Chair, Advisor, Sub-Contractor or Employee will,
before October 1 of each fiscal year, advise the Board of Directors, in
writing of the anticipated operating expenses in their area of interest for
the up-coming fiscal year.

(B)

The budget approved by the Board of Directors shall be submitted for
approval of the general membership, remain in force for that fiscal year.

(C)

The budget shall include an estimate of anticipated revenue, anticipated
expenditures, and line item estimates of the need of the administrative
and operational functions of the lodge. Line items will include, but not be
limited to the following topics;
1. Conferences and board meetings
2. Legal Aid
3. Officers and committees
4. Building fund
5. Charitable works

(D)

At no time will the estimate of revenue for the fiscal year exceed ninety
(90%) if the actual revenues collected the previous fiscal year.

(E)

The ten percent (10%) monies non-appropriated, plus any surplus funds
collected above anticipated revenues, shall be invested as contingency,
and subject to appropriation to insufficient accounts, after the President
has declared that an emergency exists in a particular account, and the
President has notified the Board of Directors.

35

APPENDIX 0170
000378

(F)

Regardless of any other provision of the constitution and by-laws, the
President is not required to honor any warrant or voucher in excess of the
budgeted amount for any particular line item or sub-line item account;
unless an emergency appropriation from contingency monies has been
approved by the Board of Directors and the general membership.

(G)

All Officers, Committee Chairs, Advisors, Sub-Contractors or
Employees shall cooperate with the institution and compliance
requirements of a Jim Fogleman Lodge #50 Inc. fiscal accountability
system.

36

APPENDIX 0171
000379

Article XVI
Legal Aid
Section 1.

Jim Fogleman Lodge #50 Inc. shall provide legal aid to members in good
standing in accordance with the requirements of the constitution and by-laws
of the Grand Lodge and the State Lodge and the standing rules of the legal fund
established by this lodge.

Sections 2.

A fund shall be established, maintained and administered by the Board of
Directors, of this lodge, for the express purpose of providing legal aid to
members in good standing of Jim Fogleman Lodge #50.
(A)

Section 3.

The legal fund shall be maintained from dues monies paid by the
membership. No other monies will be placed in the fund. Each month,
the Treasurer shall deposit forty (40) % of the dues monies collected into
an account designated as the legal fund.

At no time will any lodge funds be expended for legal aid in excess of the actual
amount of monies in the legal aid fund. No funds of this lodge shall be
transferred to the legal fund other than in the method described in Section 2. (A)
of this by-law.

37

APPENDIX 0172
000380

Filing# 77869912 E-Filed 09/13/2018 04:06:18 PM

IN THE CIRCUIT COURT OF THE 15™ JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
EDWARD MANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILLS. TWIGG,
Plaintiff(s),

vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,

)
)
)
)
)
)
)
)
)
)
)
)
)
)
./

CASE NO.: 50-2014-CA-009494-X:XXX-MB AH

Defendant(s).
____________

PLAINTIFFS' RESPONSE TO COURT'S ORDER REQUIRING PARTIES TO
ADDRESS WHETHER OR NOT §617.0607, F. S. PERMITS
A PRIVATE RIGHT OF ACTION
As the court noted at the hearing of August 28, 2018, the statute rebukes the Defendant's
argument that Plaintiffs cannot maintain a cause of action under §617. 0607, Fla. Stat., wherein the
legislature provided that" [a]ny proceeding challenging an expulsion, suspension, or termination [of
a member of a not for profit corporation], including a proceeding in which the defective notice is
alleged, must be commenced within 1 year after the effective date of the expulsion, suspension, or
termination." §617.0607(3), Fla. Stat. Defendant acknowledges as much when it cites Florida
Research Inst. for Equine Nurturing, Dev. & Safetyv. Dillon, 247 So. 2nd 538 (Fla.

4th

DCA 2018),

reviewing just such a challenge. However, Defendant then goes on to misrepresent the holding of
that case as establishing that "Plaintiffs are not entitled to judicial review of their membership status
or reinstatement to as any officer within the Fraternal Order of Police." Defendant's "Supplement

1

APPENDIX 0173
000381

FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 09/13/2018 04:06: 18 PM

to the Motion for Summary Judgment," etc., p. 1. The case actually holds that persons alleged to be
"members" of a not for profit corporation were indeed entitled to bring an action for termination of
their membership; one party, the wife, won at trial for wrongful termination of her membership, but
the trial court was reversed, because the corporation followed its by laws in terminating her, and the
stature only requires a procedure that is fair and reasonable and is carried out in good faith, and does
not require notice and a hearing. Id. at 543.
In this case, Defendant never filed the by laws in support of the motion for summary
judgment, and the Plaintiffs alleged, in their First Amended Verified Complaint, the following facts,
which must be accepted as true for summary judgment:
3.
Plaintiffs were unlawfully removed and or expelled from the
Defendant's board and/or membership rolls after Plaintiff EDWARD J. MANAK
objected to what he reasonably believed to be misuse and/or misappropriation of
funds by new treasurer Carlos Dorta.
4.
Manak was improperly removed as treasurer of the Defendant on or
about August 26, 2014 , after he refused to resign as treasurer and turn over all
records to anew treasurer. Manak later objected to the movement of the funds from
five (5) PNC Bank accounts that the Defendant owned to personal accounts of the
new treasurer of the Defendant, Carlos Dorta, which took place on or about
September 16, 2014.
5.
After Manak was improperly ousted by the Board in retaliation for
objecting to improper removal and in violation of Defendant's bylaws, he appealed
to the Fraternal Order of Police Florida State Lodge which ordered him reinstated as
Treasurer on or about October 1, 2014. Despite this, Manak was then expelled by the
Defendant as a member on or about January 13, 2015; was denied a hearing on said
expulsion by the Chairman of trustees of the Florida State Lodge, Rob Robertson on
or about June 11, 2015, and was prevented from seeking an appeal to the national
Grand Lodge by David Frazier.
6.
Plaintiffs JERMAINE T. DAVIS, WILBUR S. VEASY and WILL
S. TWIGG objected to Manak's planned removal as treasurer and the apparent
planned misuse and/or misappropriation of funds by the new treasurer and were
expelled from the Defendant in retaliation and in violation of Defendant's bylaws for
same on or about July 8, 2014 (Davis and Twigg) and on or about July 29, 2014
(Veasy).

2

APPENDIX 0174
000382

The by laws were never filed by the Defendant in support of summary judgment, and all
materials relied upon must be submitted by the moving party 20 days prior to the hearing. Page 16
of the bylaws, attached herein, provide for a the process for expelling a member, attached as
Exhibit 1; Plaintiffs' Verified First Amended Complaint and the Declaration of Jermaine Davis,

create an issue of material fact, on whether or not Defendant complied with the process which
require that 1) charges be in writing; 2) that the member be given an opportunity to address the
charges at a regular meeting; 3) 2/3 of the members present "shall be required" to "expel" the
accused. More importantly, Defendant never established any ofthese facts in its summary judgment

motion, so Plaintiffs had no obligation to refute said facts, but did so any way. The Declaration of
Davis establishes the following:
5.
Plaintiff Manak was not properly removed as treasurer from FOP
Lodge #50, but was removed because the FOP Lodge #50 Board Members wanted
unlawful access to lodge funds. On or about September 1, 2014, at the PGA National
Resort and Spa, Manak was reinstated as treasurer by the Florida State Lodge after
which Manak said aloud that he would have a forensic audit done as was his right.
The FOP Executive Board sought to expel Manak to stop him from conducting such
an audit.
6.
Manak was improperly removed as treasurer of the Defendant on or
about August 26, 2014, after he refused to resign as treasurer and turn over all
records to a new treasurer. Manak later objected to the movement of the funds from
five (5) PNC Bank accounts that the Defendant owned to personal accounts of the
new treasurer of the Defendant, Carlos Dorta, which took place on or about
September 16, 2014. After Manak was improperly ousted by the Board in retaliation
for objecting to improper removal and in violation of Defendant's bylaws, he
appealed to the Fraternal Order of Police Florida State Lodge which ordered him
reinstated as Treasurer on or about October 1, 2014. Despite this, Manak was then
expelled by the Defendant as a member on or about January 13, 2015; was denied a
hearing on said expulsion by the Chairman of trustees of the Florida State Lodge,
Rob Robe1isononor about June 11, 2015, and was prevented from seeking an appeal
to the national Grand Lodge by David Frazier. Manak was unlawfully expelled from
the FOP due to the Lodge's bad faith and unfair play.
7.
My unlawful expulsion from FOP Lodge #50 was overturned by the
FOP Florida State Lodge Board of Trustees on February 13, 2015, at the Orlando,
3

APPENDIX 0175
000383

Florida conference/meeting. During this meeting it was finally admitted by an FOP
Lodge #50 Executive Board member and the current FOP Lodge #50 secretary that
the meeting halls doors were locked with the intention of locking out dues paying
members who had a right to be present. On October 2, 2014, the FOP Florida State
Lodge Grievance Committee advised FOP Lodge #50's Executive Board President,
Vice President, and other FOP Lodge #50 Executive Board Members that FOP Lodge
#50 is to be run by its members and not the Executive Board, and the Executive
Board is not permitted to lock its members out of Executive Board Meetings. This
is not the first time that FOP Lodge #50's Executive Board Members have been
warned about not locking its members out of meetings, as the same thing happened
during a meeting on April 29, 2014. The FOP Florida State Lodge Constitution and
Bylaws, Article 20 (Discipline) and the FOP Grand Lodge Constitution and Bylaws,
Article 23 (Discipline) state the non prevailing party may appeal the decision to the
FOP Grand Lodge or the Biannual Conference, which FOP Lodge #50 failed to do
when both Twigg' s and my expulsions were overturned.
8.
In spite of the same issues that Manak faced, Twigg was reinstated as
a member by the Florida State Lodge. Subsequently FOP Lodge #50 charged him
again with the same charges which should never have been done because the
constitutions and bylaws only permitted FOP Lodge #50 to appeal the Grand Lodge
when Twigg won his first appeal.
9.
Veasy was expelled without notice and without a hearing as required.
Veasy obtained valid membership in Lodge #50. He did nothing wrong. Veasy was
unlawfully expelled because he objected to violations of Twigg's rights under the
FOP Constitution and Bylaws.
Given these facts, summary judgment is not possible.
Moreover, Defendant claimed that Plaintiffs other than Manak, lack standing to pursue this
claim because they were not employed by the PBSO at the time of the expulsions, citing, but again,
not providing the Court, with Article III of the Bylaws. According to Verified First Amended
Complaint the expulsions were on: July 8, 2014 (Davis and Twigg) and on or about July 29, 2014
(Veasy). Twigg was still employed until he was fired August 10, 2017, years after being expelled.
Moreover, the evidence from the Plaintiffs is that their non membership had nothing whatsoever to
do with their non membership and they were never told that was the reason for the expulsion.
Finally, the Declaration of Ed Manak, filed of record on August 28, 2018 with plaintiffs Emergency

4

APPENDIX 0176
000384

Motion Not to Enter Summary Judgment Against Veasy et al., prior to entry of the order on summary
judgment on September 11, 2018 (the order is not dated but was received via email that day from
the court), establishes that:
4.

Without notice and an opportunity to be heard, the executive board unlawfully voted
to expel Wilbur Veasy from membership. He was not expelled from members/tip
because lte /tad been terminatedfromPBSO on or about April 17, 2013. In/act,
Mr. Veasy joined FOP after lte was terminated. He was expelled because Mr.
Veasy came to my defense at an earlier executive board meeting on or about May,
2014, wlten there was an attempt by tlte executive board to force me to resign. I
had objected to relinquishing the office of treasurer as well as turning over PNC bank
accounts to the executive board due to my concerns that they would misspend the
funds on personal goods and services. Moreover, we ltave historically /tad many
former employees ofPBSO wlto ltave either retired or been fired by tlte PBSO who
ltave remained members in good standing witlt tlte Defendant. For example, Keith
Burns was fired, and tit en permitted to join tlte FOP and all of /tis legal fees were
paid by tlte FOP (in a criminal case where lte was acquitted and an arbitration
case wlticlt was settled); Jermaine Davis, wlto was terminated by PBSO August 23,
2012. Mr. Davis was not expelled by tlte Defendant because of /tis termination by
PBSO. I attended a meeting oftlte executive board on July 8, 2018, and Davis's
employment or lack tltereofwit/1 PBSO was not tlte reason/or /tis expulsion.

(Emphasis added). The Manak Declaration is attached as Exhibit 2. The Manak Declaration was file
with Plaintiffs Emergency Motion because, at the summary judgment hearing, the Defendant
misrepresented the law on these types of organizations being not subject to any court review, as it
attempts again to do while citing the Florida Research Inst. for Equine Nurturing case. In the case
of McCune v. Wilson, 237 So. 2d 169 (Fla. 1970), the Florida Supreme Court held that a
professional organization such as the Defendant in this case must follow fair procedures when it
takes disciplinary action against a member of said organization:
Professional organizations, although voluntaiy in nature, often attain a quasi-public
significance. In public view, membership in such organizations may appear to be a
tangible demonstration of professional competence and skill, professional
responsibility, and acceptance by one's professional peers. The fact that an individual
member expelled from membership may not be prohibited from practicing his chosen
occupation or profession is not a sufficient test to determine whether he needs and
5

APPENDIX 0177
000385

is entitled to judicial protection from unfair proceedings or arbitrary actions. When
a voluntary association achieves this quasi-public status, due process considerations
come into play. Such is the policy of the judicial decisions and statutes of this State.
Disciplinary action against a member of a professional organization, although falling
short of expulsion from occupation, may have an import which transcends the
organization itself because it conveys to the community that the disciplined member
was found lacking by his peers. For this reason, it is suitable and proper that an
organization, whether a domestic or foreign nonprofit corporation, or a nonchartered
nonprofit association, be held to reasonable standards of due process and fairness,
especially those inherent in its own by-laws, rules or customs.
While the courts should be loathe to intervene in purely private organizational
matters, nonintervention is not justified where a quasi-public organization takes
action and imposes penalties which carry the odor of public sanctions. It is clear that
not all private associations must observe due process standards. However, such
standards must be observed when a private association becomes quasi-public,
assumes a public purpose of its own, incorporates and seeks the tax shelters and other
protections of public law, or otherwise assumes a larger purpose or statute than
pleasant, friendly and congenial social relationships.
The public policy underlying the Florida Statutes is in harmony with standards herein
affirmed. See§ 617.10(2), F.S.A., which provides that if a person is an incorporator
or member of a nonprofit corporation 'before his membership shall cease against his
consent he shall be given an opportunity to be heard, unless he is absent from the
county where the corporation is located. * * *' Also see§ 617.11(3), which provides
that a nonprofit corporation chartered out-of-state operating without a Florida permit
'shall not be permitted to bring or maintain any suit or other proceeding before any
court or administrative body of this state; but failure to obtain such permit shall not
affect the validity of any contract with or conveyance by such foreign corporation.'
As this provision makes clear, the American Institute of Real Estate Appraisers or
any other foreign nonprofit corporation in Florida, if it fails to obtain a permit in
Florida, may not maintain suit; however, the contract and property rights of persons
with whom the corporation has transactions will be protected by the law.
We hold that a private organization, particularly if tinged with public stature or
purpose, may not expel or discipline a member adversely affecting substantial
property, contract or other economic rights, except as a result of fair proceedings
which may be provided for in organization by-laws, carried forward in an atmosphere
of good faith and fair play.
The decision of the District Court Sub judice is quashed, and this case remanded to
the District Court with instructions to affirm the judgment of the Circuit Court of
6

APPENDIX 0178
000386

Dade County.

Finally, on this issue, defendant again failed to file the by law on membership in support of
summary judgment, but claimed the by law required current employment at the PBSO for
membership. This is not true, as the Manak Declaration attests; moreover, the by law provides that
there are three classes of membership: active, retired and honorary. This by law is attached as

Exhibit 3. Veasy and Davis chose to retire after their termination, as did Twigg, although his
termination did not occur until three years after his expulsion. The by law on membership moreover
states that "[a]ny regular appointed and full time employed Law Enforcement or Correctional
Officer shall be eligible for membership in the [FOP] ... "; however, this language in no way restricts
others from also seeking, and obtaining membership, as the Manak Declaration attests. Finally, the
Defendant has never raised as an Affirmative Defense the issue of standing in its Answer and
Affirmative Defenses, hence this issue was waived under Rule 1.140, FRCP. The standing issue was
sprung without amending the affirmative Defenses.
For all of the foregoing reasons, the court must deny summary judgment against Manak and
grant rehearing on the remaining three plaintiffs.

7

APPENDIX 0179
000387

Respectfully submitted,

"'I/'
'

i

I

ISI'.
RCIA
}
Flor da Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone:
(561) 832-7732
Telecopier:
(561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buscbel@bglaw-pa.com) to: Robert C. Buschel, Esq., Buschel Gibbons, P.A.,
100 S.E. Third Avenue, Suite 1300, Fort Lauderdale FL 33394 this (1._" day of
~
~
,2018.
'~.

8

APPENDIX 0180
000388

Constitution and By-Laws
Of

Fraternal Order of Police
Jim Fogleman Lodge #50

,,
I

Revised 1994
Seal of Jim Fogleman Lodge #50

ii
:I

Revised 2011 (October Board Meeting
Fort Lauderdale, FL)
Seal of Jim Fogleman Lodge #50

PLAINTIFF'S
}
EXHIBIT

1 _

_.:,,c__--1

000396 0181
APPENDIX
000389

I
/

/

r

I

Article Ill
II
\

Membership

.

Section 1.

Any regular appointed and full time employed Law Enforcement or C01rectional
Officer shall be eligible for membership in the Fraternal Order of Police, Jim
Fogleman Lodge #50, Inc, subject to the provisions of this constitution and
bylaws of the order. No person shall be denied membership because of race,
religion, color, creed, gender, age or national origin.
The Fraternal Order of Police shall deny membership to anyone who is, or has
been a member of the communist party, or of any organization known (regardless
of what name) to advocate the abolition or destruction of our government by
force or subversion.

Section 2.

Section 3.

(A)

The term, "regularly appointed Law Enforcement and Correctional
Officer", shall mean, for the purposes hereof, any Law Enforcement or
Correctional Officer who meets the minimum standards, has received the
training and the education required by the United States, the State of
Florida and the agency by which they are appointed, and is granted arrest
powers.

(B)

The tenn "Full Time Employed" shall mean Law Enforcement and_
Correctional Officers that are engaged in such employment as their full
time occupation.

There shall be three classes of membership; active, retired, and honorary.

(A)

Active Membership:
1. Shall include regular, appointed or elected foll time Law
Enforcement and Correctional Officers.
2. May include retired, regular appointed or elected Law Enforcement
and Correctional Officers.
3. May include, subject to the approval of the State Lodge Board of
Trustees and Jim Fogleman Lodge #50 Inc., regular appointed or
elected Law Enforcement or Correctional Officers who have left the
employ of their respective agency and who have remained in good
standing with the lodge.
4. Only active members herein described shall have voice and vote.

8

000390

APPENDIX
0004030182

Article IX
Discipline
Section 1.

If any member of the lodge should abuse the usage of the lodge or be accused of any
offense against the lodge or its membership, he may be reprimanded, suspended or
expelled.

Section 2.

The charges must be preferred in writing and submitted to the lodge at a regular meeting.

Section 3.

The accused member shall be given the opportunity to answer the charges in person at the
next regular meeting.

Section 4.

A vote of 2/3 of the members present, to reprimand, suspend or expel the accused, shall
be required to discipline the accused member.

Section 5.

The accused member shall have the right to appeal to the District Director and the State
and National Lodges, any discipline imposed by the lodge.

Section 6.

The accused member shall retain all rights and privileges of membership pending the
appeals process.

Section 7.

Any member of this lodge who is in arrears for dies for a period of more than 90 days

shall automatically be suspended from the lodge.
Section 8.

The membership committee chaim1an shall notify the member in writing that he is in
arrears and suspended.

Section 9.

The delinquent member may be reinstated upon payment of all delinquent dues and fees.
.I

16

APPENDIX 0183
000391

IN THE CIRCUIT COURT OF THE 15TH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA

EDWARDMANAK,
JERMAINE DAVIS,
WILBUR VEASY AND
WILLS. TWIGG,

)
)

)

Plaintiff(s)',

vs.
FRATERNAL ORDER OF
POLICE JIM FOGLEMAN
LODGE #50 INC.,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)

CASE NO.: 50-2014-CA-009494-XXXX-MB AH

------------I
AFFIDAVIT OF EDWARD J, MANAl{

UNDER PENALTY OF PERJURY, I declare as follows:
1.

My name is Edward J. Manak and I have personal knowledge of the facts herein.

2.

I am currently employed as a Deputy Sheriff for the PBSO and have been so employed
since 1982.

3.

On or about July 9, 2014, I was the treasurer duly elected of the Defendant.

4.

Without notice and an opportunity to be heard, the executive board unlawfully voted to
expel Wilbur Veasy from membership. He was not expelled from membership because
he had been terminated from PBSO on or about April 17, 2013. In fact, Mr. Veasy joined
FOP after he was terminated. He was expelled because Mr. Veasy came to my defense at
an earlier executive board meeting on or about May, 2014, when there was an attempt by
the executive board to force me to resign. I had objected to relinquishing the office of

1

j

PLAINTIFF'S
E!IBIT

APPENDIX 0184
000392

treasurer as well as turning over PNC bank accounts to the executive board due to my
concerns that they would misspend the funds on personal goods and services. Moreover,
we have historically had many former employees of PBSO who have either retired or
been fired by the PBSO who have remained members in good standing with the
Defendant. For example, Keith Burns was fired, and then pennitted to join the FOP and
all of his legal fees were paid by the FOP (in a criminal case where he was acquitted and
an arbitration case which was settled); Jennaine Davis, who was tenninated by PBSO
August 23, 2012. Mr. Davis was not expelled by the Defendant because of his
termination by PBSO. I attended a meeting of the executive board on July 8, 2018, and
Davis's employment or lack thereof with PBSO was not the reason for his expulsion.

IS
, GARCIA
Florida Bar No. 437883
GARCIA LAW FIRM, P.A.
120 South Olive Avenue Suite 401
West Palm Beach, FL 33401
Telephone: (561) 832M7732
Telecopier: (561) 832-7137
E-mail: isidrogarcia@garcialaborlaw.com
COUNSEL FOR PLAINTIFF
2

APPENDIX 0185
000393

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy was furnished VIA FLORIDA EFILING PORTAL (buschel@bglaw-pa.com) to: Robert C. Buschel, Esq., Buschel Gibbons, P.A.,

100 S ~ d Avenue, Suite 1300, Fort Lauderdale, FL 33394 this :25l "'clay of
r"-r.2018.

3

APPENDIX 0186
000394

(B)

Retired Membership:

Shall be comprised of regular, appointed or elected Law Enforcement or
CoJTectional Officer who withdraw from active membership upon or
after retirement from their respective agency.
(1) Retired members pay no per capita tax and have no voice or vote.

(2) The only benefit a retired member has is a membership card issued
by this lodge.
(C)

Honorary Membership:
Shall be comprised of individuals recognized by this Lodge for
exceptional service or contribution to law enforcement, community or
the Fraternal Order of Police.

Section 4.

No person shall be a member of Jim Fogleman Lodge #50 Tnc. while still a
member of another F.O.P. Lodge, nor shall any member who is delinquent or has
been suspended for any reason, be eligible for membership in Jim Fogleman
Lodge #50 Tnc.

Section 5.

The Fraternal Order of Police Jim Fogleman Lodge #50 Inc. may deny
membership to anyone who is, or has been, a member of any organization
regardless of what name, which advocates the abolition, destruction, or violent
ove1ihrow of the Government of the United States, or any State or Political
subdivision thereof.

Section 6.

Any active member may be granted a transfer from Jim Fogleman Lodge #50 to
another lodge, or from another lodge to Jim Fogleman #50 provided that he or
she is a member in good standing, both lodges agree to the transfer, and the
member cannot be active in his or her former lodge because of collective
bargaining law restrictions or geographical location.

Section 7.

AU persons seeking membership in this lodge shall submit in writing a petition
for membership, authorized by the lodge and conforming to the regulations of the
Grand Lodge. All questions on all petitions must be answered and warranted by
the applicant to be true. All petitions for membership must be recommended by
an active member in good standing.

Section 8.

AU petitions for membership shall be referred to the membership committee of
three (3) members who shall investigate the applicant and report their findings to
the next general business session of the lodge. The President shall have the
authority to grant further time for investigation jf deemed necessary.
9

PLAINTIFF'S
EXHIBIT

oooz.n 0187
~
APPENDIX

000395

~

Section 9.

Any petition for affiliation shall be through transfer or demit issued in regular
fom1, and said demit must be presented within one year from the date of issue.

Section 10.

All petitions for membership in this lodge shall be voted upon, and if the
petitioner shall receive a two thirds vote of the members present, and voting, the
petitioner shall be declared accepted, and the secretary of the lodge shall notify
the applicant.

Section 11.

1n consideration of the benefits to which such member is entitled while a member
in this lodge, the member shall, upon seve1ing his connection with the lodge for
any reason whatsoever, fmfeit all rights and claims to funds and properly of this
lodge.

Section 12.

Specifically excluded from membership are Private Security Guards, Special
Police, members of profit making security and correctional organizations,
auxiliary or Reserve Police.

Section 13.

No person at any time shall be a member of the auxiliary or associate lodge when
they quality for membership in the Fraternal Order of Police active lodge.

10

0004050188
APPENDIX
000396

Filing# 78824464 E-Filed 10/03/2018 04:02:06 PM
IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION AH
CASE NO. 50-2014-CA-009494-XXXX-MB
EDWARD J MANAK,
JERMAINE T DAVIS,
WILBUR S VEASY,
et al.,
Plaintiff/Petitioners
vs.
FRATERNAL ORDER OF POLICE JIM FOGLEMAN LODGE #50 INC,
Defendant/Respondent.
- - - - - - - - - - - - - - - -I

ORDER DENYING DEFENDANT'S MOTION FOR SUMMARY
JUDGMENT AS TO EDWARD J. MANAK
THIS CAUSE came before the Court at the hearing upon Defendant's Motion for Sunnnmy
Judgment. The Court requested briefs and case law concerning Sec. 617.0607, F.S., as to
Plaintiff Edward J. Manak Upon receipt and review of the briefs and supplemental case law, it
IS

ORDERED that Defendant's Motion for Sunnnmy Judgment as to Edward J. Manak is
DENIED.
DONE AND ORDERED, in West Palm Beach, Palm Beach County, Florida.

/:
~
.A;;/~ d.

~

so;2014;cA~oo9494:xxxx.r,m=101031~01s _

;?f

'

L~Sm{l!!":_Judge

:So-2oi4-cA-009494_x:Xxx-l\m :1oio31261B'
Lisa S..Small
Judge

COPIES TO:
EUGENE GIBBONS
ISIDRO M. GARCIA

No Address Available
224 DATURA STREET
SUITE 900
WEST PALM BEACH, FL
33401

Pagelof2

Gibbons@BGlaw-pa.com
ISIDROGARCIA@GARCIAL
ABORLAW.COM
eservice@garcialaborlaw.com
markJohnson@garcialaborlaw .c
om
hannah.bourget@garcialaborlaw
.com

APPENDIX 0189

000397
FILED: PALM BEACH COUNTY, FL, SHARON R BOCK, CLERK, 10/03/2018 04:02:06 PM

Case No.50-2014-CA-009494-XXXX-MB
JERMAINE T. DAVIS
RANDY ALAN FLEISCHER
ROBERT C. BUSCHEL,
ESQ
ROBET BUSCHEL
WILBUR S. VEASY
WILL S. TWIGG

No Address Available
No Address Available
201 S.E 9TH STREET
FT LAUDERDALE, FL 33316
No Address Available
No Address Available
No Address Available

Page 2 of 2
000398

No E-mail Address Available
randy@rafesq.co m
buschel@bglaw-pa.com
indira@bglaw-pa.com
buschel@bglaw-pa.com
No E-mail Address Available
No E-mail Address Available

APPENDIX 0190

Filing# 91017073 E-Filed 06/12/2019 07:27:16 PM

IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
CASE NO.: 502014CA009494:XXXXMB

EDWARD J MANAK,
JERMAINE T DAVIS,
WILBUR S VEASY,
and WILL S TWIGG
Plaintiffs,
V.

FRATERNAL ORDER OF POLICE
JIM FOGLEMAN LODGE #50 INC
Defendant.

- - - - - - - - - - - - - - - -I

MOTION FOR RECONSIDERATION

Plaintiffs, JERMAINE T DAVIS, WILBUR S VEASY, and WILL S TWIGG, by and
through the undersigned counsel, hereby file this Motion for Reconsideration of the Court's
September 11, 2018 Order Granting Summary Judgment against them, and in support thereof state
as follows:
INTRODUCTION

On June 21, 2018, Defendant, FRATERNAL ORDER OF POLICE JIM FOGLEMAN
LODGE #50 INC, filed a Motion for Summary Judgment alleging, among other things, that
Plaintiffs, JERMAINE T DAVIS, WILBUR S VEASY, and WILL S TWIGG did not have
standing to maintain an action against it. The basis of the allegation was that the Plaintiffs were
not members in good standing with the Defendant and could not have been members in good
1
MILSON LAW. PA

)-------

APPENDIX 0191

201 S. BISCAYNE BLVD., SUITE 2650. MIAMI, FL 33131

305209.0321

000417
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 06/12/2019 07:27: 16 PM

standing for various reasons. On September 11, 2018 this Court entered an Order holding that
Plaintiffs did not have standing and granting Defendant's Motion against them.
The First Amended Complaint in this action alleges that Defendant attempted to terminate
Plaintiffs from the organization in bad faith. Plaintiffs were all members of the organization at the
time of this improper action, and therefore did have standing to bring this suit. The information
provided to the Court by Defendant was incorrect and misleading regarding both the facts and the
law governing this matter, and Plaintiffs therefore are seeking reconsideration of the Court's Order
removing them from this action. 1
ARGUMENT

L

Reconsideration generally
An order granting a motion for summary judgment is not a final judgment; rather, it is a

nonfinal order. See White Palms ofPalm Beach, Inc. v. Fox, 525 So. 2d 518,519 (Fla. 4th D.C.A.
1988). A trial court has the inherent authority to reconsider and alter or retract such orders prior to
the entry of final judgment. Silvestrone v. Edell, 721 So. 2d 1173, 1175 (Fla. 1998). A motion
directed to a nonfinal order is actually a "motion for reconsideration" based upon this inherent and
discretionary authority of the trial court. Bettez v. City of Miami, 510 So. 2d 1242, 1242-43 (Fla.
3d D.C.A. 1987)

1
Plaintiffs previously filed an Emergency Motion to Not Enter Summary Judgment Against Veasy Davis and Twigg.
This Court ruled that the Motion was not an emergency in its August 29, 2018 Order, but did not appear to have a
separate ruling on the Motion itself. To that end, Plaintiffs also renew the previously filed Motion for this Court's
further consideration with the present Motion.

2
MILSON LAW, PA

)-------

APPENDIX
0192
305.209.0321

201 S. BISCAYNE BLVD., SUITE 2650, MIAMI, FL 33131

000418

Additionally, a Court has the power under Fla. R. Civ. P. l.540(b)(3) to relieve a party
from an order if there is misrepresentation by the adverse party. Where an adverse party makes a
misrepresentation by affidavit to obtain a judgment, a moving party is entitled to relief from such
judgment. See Lacore v. Giralda Bake Shop, Inc., 407 So.2d 275 (Fla. 3d DCA 1981). Likewise,
an omission of material fact constitutes a misrepresentation that entitles a movant for relief from a
judgment or order. Crowley v. Crowley, 678 So.2d 435 (Fla. 4th DCA 1996).

IL

The Plaintiffs' cause of action was properly before the Court
Plaintiffs allege in the First Amended Complaint that they were improperly removed from

membership by Defendant in retaliation for opposing corruption within the organization. They
further allege that the removal was not done properly in accordance with the Defendant's by-laws
and constitution. According to prevailing case law, Plaintiffs have properly stated a cause of action
against Defendant.
In McCune v. Wilson, 237 So.2d 169 (Fla. 1970), the Florida Supreme Court established
that professional organizations, despite being voluntary in nature, often attain a quasi-public
significance. Such organizations are therefore subject to following due process standards when
expelling a member, as such expulsion carries the odor of public sanctions. The Court held that "a
private organization, particularly if tinged with public stature or purpose, may not expel or
discipline a member adversely affecting substantial property, contract or other economic rights ,
except as a result of fair proceedings which may be provided for in organization by-laws, carried
forward in an atmosphere of good faith and fair play." Id. Here, Defendant is a chapter of the wellknown quasi-public organization, the Fraternal Order of Police, and expelling the Plaintiffs had
"an import which transcends the organization itself because it conveys that the disciplined member
3
MILSON LAW, PA

)-------

APPENDIX
0193
305.209.0321

201 S. BISCAYNE BLVD., SUITE 2650, MIAMI, FL 33131

000419

was found lacking by his peers." Id. Under such circumstances, the Plaintiffs were entitled to due
process and good faith proceedings, not proceedings tinged by retaliation, before being expelled
by Defendant from the organization.
Further, in the Fourth District Court of Appeals case Boca West Club, Inc. v. Levine, 578
So.2d 14 (Fla. 4th DCA 1991 ), the Court confirmed that the plaintiff was afforded a proper hearing
and opportunity to be heard by the organization. It then went through a detailed analysis of whether
the club complied with its own bylaws and regulations. Plaintiffs here are entitled to such an
analysis by the fact finder, as they alleged that they were not afforded such due process before
being removed from membership.

IIL

Plaintiffs had standing to bring their action despite misrepresentations by the
Defendant
Standing requires a litigant to demonstrate that he or she reasonably expects to be affected

by the outcome of the proceedings, either directly or indirectly. Hayes v. Guardianship of

Thompson, 952 So. 2d 498, 505 (Fla. 2006). Standing is that sufficient interest in the outcome of
litigation which will warrant the court's entertaining it. 3709 N. Flagler Drive Prodigy Land Tr. v.

Bank of Am., N.A., 226 So. 3d 1040, 1041 (Fla. 4th DCA 2017). As explained above, Plaintiffs
properly stated a cause of action for their improper removal by Defendant.
In support of its Motion for Summary Judgment, Defendant proffered the affidavit of
Patrick Yoes, the National Secretary of the National Fraternal Order of Police. Mr. Yoes' affidavit
contained several material misrepresentations regarding Plaintiffs' membership in Defendant's
organization. Firstly, Yoes claims in paragraph 12 that "Davis has not been a member of the FOP
since 2012." Davis, however was a member through 2015, well after the time of the incidents

4
MILSON LAW, PA

)-------

APPENDIX
0194
305.209.0321

201 S. BISCAYNE BLVD., SUITE 2650, MIAMI, FL 33131

000420

alleged in the Complaint, as evidenced by his membership card (signed by Yoes) and an invoice
sent to him. See Exhibit A. Next Yoes claims in paragraph 14 that "Veasy has not been a member
of the FOP since 2013." However Veasy, like Davis, was a member until he was surreptitiously
and involuntarily dropped from the rolls in 2015. Lastly, Yoes asserts that Twigg was "expelled
from membership" on July 8, 2014. Firstly, this is the exact improper expulsion that is being
addressed in the Complaint. Secondly, like Davis, Twigg was issued a membership card (again,
signed by Yoes), which shows that he was an active member through 2015. See Exhibit B.
Additionally, both Twigg and Davis were specifically reinstated into the organization at the state
level once Defendant initially tried to remove them without due process. See Exhibit C.
The misrepresentations in the affidavit of Yoes were material and mislead this Court as to
Plaintiffs' standing. All of Plaintiffs would still be members of the Defendant organization if
improper actions had not been taken against them, and they therefore have standing to bring this
action for wrongful expulsion.
CONCLUSION

On a Motion for Summary Judgment, the facts must be construed in the light most
favorable to the nonmovant, Buntin v. Carter, 234 So.2d 131 (Fla. 4th DCA 1970), in this case
Plaintiffs. Here, Plaintiffs have asserted that they were members of the Defendant organization,
and that but for the wrongful termination of their membership, still would be, and inferences must
therefore be drawn in favor of that conclusion. See Moore v. Morris, 475 So.2d 666 (Fla. 1985).
Most importantly, the Defendant's material misrepresentations in support of its motion entitle
Plaintiffs to relief from the Order discharging them from this suit.

5
MILSON LAW, PA

)-------

APPENDIX
0195
305.209.0321

201 S. BISCAYNE BLVD., SUITE 2650, MIAMI, FL 33131

000421

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been served, on
June 12, 2019, electronically via the Florida Courts E-Filing Portal to all registered participants or
by regular U.S. Mail to all nonparticipants.

MILSON LAW, PA
Citigroup Building
201 S. Biscayne Blvd., Suite 2650
Miami, FL 33131
Ph: (305) 209-0321
By: /s/ Nicole Milson
Nicole A. Milson, Esq.
Fla. Bar No. 86157

6
MILSON LAW, PA

)-------

APPENDIX
0196
305.209.0321

201 S. BISCAYNE BLVD., SUITE 2650, MIAMI, FL 33131

000422

----.--,,,_.,__.,,.,-------.,-----.

APPENDIX 0197

000423

~....,-.---..-

~-.

~.......,,......

This is to certify that the L'.eidge named above hereof
has legally formed for the purpose.of constituting
• 'a branch of the Fraternal Ord~r of'Police, under a charter
granted by the National F.raternal Order of Police.

The Voice of Our Nation's Law Enforcement Officers®

ACTIVE MEMBER

-~~~-- ~----~~----------

)>

-CJ·
--I

m
><
:::c

··'

Fraternal Order of Police
Jim Fogleman Lodge #50, Inc
P.O. Box 16372
West Palm Beach, FL 33416-6372

It's Time to Renew Your Membership
To renew your annual dues by mail:
1. Update your contact information or leave blank if no changes
2. Detach bottom portion and return with your payment
3. Make checks payable to FOP Jim Fogleman Lodge 50, Inc.
Please do not send cash

JERMAINE DAVIS
1061 SERENADE CIRCLE
ROYAL PALM BEACH, FLORIDA 33411

Email;
Phone
Alt Phone

MEMBER ID
19290]

EXPIRATION DATE
12/31/2015

1

MEMBER TYPE
ACTIVE

jayd045@yahoo.com
561-333-6396
561-436-7 508

Total Due

$360.00

Please keep this portion for your records

ATTENTION ACTIVE MEMBERS
Enjoy the convenience of having your annual dues paid monthly from your checking account by enrolling in the ACH payment plan.
Simply attach a voided check in lieu of the total payment due. Once enrolled, twelve monthly payments in the amount of $30.00 will
be automatically deducted from your account. It's that easy. This payment plan is not available for retired members.

For more information call the Lodge Office at 561-687-7554 or visit our new website at www.foplodge50.org

-------------------------------------------------Detach this portion and return with your check. To update your address, phone and email, please print the correct information below.

Address

Email

------------------!

Telephone(,___)-(___)-(_ _ _ _ __

City, State, Zip

Return by mail with payment to:

Invoice Date 02/27/2015

FOP LODGE #50
P.O. BOX 16372
WEST PALM BEACH, FL 33416-6372

Total Due
Member ID

Name
Address

$360.00
19290
ACTIVE
JERMAINE DAVIS
1061 SERENADE CIRCLE
ROYAL PALM BEACH, FLORIDA 33411

APPENDIX 0198

000424

000425
...

'

''

~\-.

.-;·

',.

'

.,-

·:

. .

~1

. .:.

'; .'

·..-4:

;

,

~

.,

.,

._

.

-·

-

-

.

.,
'

• :.:

-~rt.-..

(

~~···~·.
' .r .•.·

•

·,~ , ~
,,, ..,,~,.

f'.. , ~
a..=:~

i

'

'

.,

••

•.......,.)',

f

..,,-:-:

•,,

.-J·" -'

.

-

'

;;1:... ·. -~'\. "':_:·

!. . ...._...

11

._..,,..

'

"'·. .. ..,;;.
~ .... .

ii·. .·~·
....... ··7}.
..... "',.:,,';'!· . ....
.,.,._

~

-- ___. ,_· '.~.. 1· ': j;'. :·

)

.;:,

•,. -~-

·. 'i

!.

-·--.--·---~.. ---··----··-------'-- ....

'----~~'. · ~ -

fr If fIf ff 11 If ff I• l' Il11' ('''I' I• l,, I ft fh' l(Ih'Lt l ll' I' H' I
1

-1

i

3-~

I

:.··

~

------------··-···--·-·

ACTIVE MEMBER
The Voice of Our Nation's Law Enforcement Officers•

0~£6~#
'v'Gl~Ol.:l

I Iv££

OS# 38001 N'v'~3180.:l ~Ir

881M1111M
This Is to certify that the Lodge named above hereof
has legally formed for the purpose of constituting
a branch of the Fraternal Order of Police, under a charter
granted by the National Fraternal Order of Police.

,H1'1t'~v,,,.,,-._
,.
·r.~

.

,:"'"'J ~..,,......... ...,..,~~ ..•;.,.;: ·"'
.
·4-.., '
.d,_,,,.,,.......
"~-._...
. _.,.,Ill".
,or.·.

·Q.?_J
National Secretary
WWW.fop.net

-~·,,.._.

... . . . . ........ ··- .... ···- . . .... , 'i7Ti>'J · ~·.t ;~~,:.~:·~:~;;i:--3 ,.:JS:

..,;ti'
·,14 ~,, .......,1~1,*'f"'-T. ~4..,
,, "-',~,,..,~.,..

..,,,,. ,,~ ....,..,,.,., •.,·'1"';,-,,.,,..,,,-:'1-\..,.,..
..., .
.

'
'"tl,

-.
...,,,,,~'1,_t-r•'h

....,,,.,..........--

.

··,,i,."'t
..z '..L."·rc7>
! <7'.-:r.:-;.·~
r ,.... "". ... ;r.. r:r'.'.r.t;f>'f
..... ,,..• ~ .. ,,1;. ,..,_.,,;,.
..:.ts:->~·.

,.....-:-.r:·.
A·
1.....,,.,..,

.,.l"V"•

' "'(....

..,..,,,,.,.,~,,,,,,.,,,,,..#'
. """'

'\

\.

:'"1,

...
:1:1:1'
. .1
,4

,.

:.,·•r
:1111.I

8 .ll81HX3
. , ,I

'it : 1 : ., • U 1 ;'I : J · : ~ ~ i '. ·'., J"! ~ >; · ·H ! "!' •

APPENDIX 0199

, '•l·"ii';t
1dif1', ,,i,1.11:,1id·,
· 1JJ 1
.. ,c·,;1:1,~1- 1•.,;/,1:'.·.,,!• . ·
~
~
'I;,: .
• '

"

••

>

'

•

(

I

;

'

!

'i

. ,. . •.

.•

.~

'

'

)

. EXHIBIT C
Fraternal Order of Police
..
. .
~-.$

~

u••

:,..,.

~

FLORIDA STATE LODGE

March 19, 2015

,('
'!L

"\

,.

'1\;

Brother Jermaine Davis

--

-

'"

-

-- - . _ :, ,,1·::r;::~L{i'1i:::;i:;:;::::t\-,.,. . ,.•, .•.;..

-

-

Please read below the results of your grievance heard atthe October Board of Trustees meeting of the
Florida State Lodge, Fraternal Ord;'~ of P~lice}id~tecI:tEt6h~/!3rd

'\."\·'':. •.

,Jllif:r''.:f •\ . :r;r 1:;::: · ·-~.·- .·

• ,. ,;• •

I

2Q14'.'·,.,.

::/,:;,,::t:.: . • .i /,' i\
I

,•

The Board of trustees was empaneled and he_ara your'!!r1t:t:er as brought forth; \Jpon conclusion of the
y'·:}i;:.'.

~"·:,·''··

?r·\(,,t

,

··,'.'."it·:•,,.:,,: ·.\,."'.d}:i+[(!'P!i,!,/'.:.)·.

l\\(h-~,;

. · .. -1:-,";

presentation, deliberations
began
and the·results
afeasJollows;
'\,,;-i,··\. ,
I•
,,.L ,. ·,/1:j1J::,.. ~Y ,. ' ,. '·'··
'·1
• V:r,,' ,•,',,\:.~;,,,
~
.,:);t·
,/ti;:·
J:'.'>·";·:;··., '.
..:1 .. .,, . ,····:h,_:i,:l:
.'!':;;~:···'
·;:\
The Florida State Lodge Fraternal Order of Police, Board of Trustees have considered ,your grievance and
!\('',;:,/:·····

1
" 1,.,,..

:,-/;·:(:/:\·:·:·..:.: ·:;

.2~·I?_L;c;:}'1>{f.1;~:~;,'2\\;.""

'".....

···

_·

,,

·. ·

. ··1 .\:,:·.;::;/i~·;:';~J:':;;-:t·.·::r<.:("i. , ·:\'.~~:':t;:,;/·;,,.,

· .

\.,:·,.-,,,;:,:

~~t
~i~~'.~~
Lodge so is to r~Jp~~1teN~uas,~.rrief!!ber i~;go.qcfs,t,~-~~i,ng,;~nd all,?WY()},Mpe':~{JviI~~!:1!faria rights of
such membershi1:>"im01ediifotvand without'prejJct12t:, '. ·:},.,
"'
-.·_• ··•;;,?Il:Cl..:::;:_"";'.
t.- ;"
>
. -~~::i .,~;~1.Y. ~}d , ., ,,_.. :-\/; -· .,. .
- f ·., \~~ ::-,~" .,~4-, . :··"''11':"i:;::.:::\f~,/'·i
., .,. .:<!::,~. :i r -~,~':. :.~ ~.~ ,- .; :·,~·
,r,·~•.
,· ---_·: ·. ,:'.:·-r~? -. ··-~ .
-.
.
. - -.·

find

in your}avor'.'-t;';'.a,~!8:~~.?{~~,r~rot.herp~~is~'..~J~

receiv~

1:eJ,9~~S!p/igh~s,.a~gas such
··:tt ·
0

••

,:::\.:·:::)

,,•

• •,

; ••

Fraternallvi '\

.

"'

i:: ·-'(.. '.!::>;'· 1

1;£".~~~p;;5J;;:~1;~f '

'

~~,,~~it{,1;,
Lynette Clinch Secretar:y ;, '\ .'{
Fraternal Ord~~J>f Pd'!isi> )(
Florida State Lodge:{
ir··

.- .~ - ·:,

_: :·: =:2;

·,.

'\

'\

;',(r:::5,•. ,..

j"

'\'

/'.':.<

~ ::,t,~_,,,o,,'~i~r··
~

· - ·.,i,

~ -

..,
/ i~f/,; .
· Cc: President Jim Prest6n · ·
1st V. P, Lonnie Miller Jr.
2nd V. P. Kelly Shefflitt
Chairman of Trustees, Robb Robertson
. William Williams, Lodge SO President
Lodge SO Secretary

APPENDIX 0200

242 Office Plaza, Tallahassee, Florida 32301 • Post Office Bo:x 1349, Tallahassee, Florida 32302-1349
Telephone: 850-656-9881 • Toll Free: 800-873-FOPl • Fa:x: 800-873-3670 • Web: www.floridastatefop.org
Labor Council Committee:
000426 888-485-0351

~

--.

Fraternal Order of Police
I

.

FLORIDA STATE LODGE

April 17, 2015

Brother Twiggs,

_.· - ,- :l/:3~{-~--:/. - -~! -- F~ ~_:_·_ -.

- -

_.---.-~:_~-~_-_\._>~~",.::_ (~:~-~~~,,_--~~.

-

Please read belo the· results of your grie;a~cth-;~r~r~'tthe~October Board ofT_rustees meeting of the
Florida State Lod~etFrate(n-~I Order of Poil{ci~t;cr();t<Jlitrf~ 2014.
"'=\_~ ~0:- ~\,.

:~:,:~: Ifi\1t!i~;~}*{1i1~:;~!i,J1f'~IDJ:!~iffl{~}~i~ri:i;h.
0

The Flo~ida State Lodge Fralern'aLOrder o.f 1'oljfe~Board~aj'.Trustees havfcgpside_fedyo1.(r grievance and

Ef~:ctst;~~~

find in VC}~~;fayo~rlf~;t1~Jlllth~!-Br~!h.~~1J#ligfcl1{1i}~~~eire~i~
~si~crJ~_;o be
reinstatecl,_ym.i_asl~ 1-t'lember'irfgood stan!iihg;';abd_ aJl~yiyou·t~e_ privileges·and rights-of ~uch ~,
;-"""' -~
~-:."""~-__,l'"_--::_
_
-._I-· f :<'".,,--;_;-;·---~---::_;..'--=:·;::---:-~':a,_-<±:~---=,;~."' I
'==
:..::-:--:-:::._
membership im_ ediately and without prejudice;,"·=i::._::,··,.·---;;:~~-~
__
-_.;i

· · ·· · p:j~. \~~~e~ff!J1ri1 . ;;.,\

_~:~~;it~,·;~;j~T

.-_

Florida State Lod e ,
l

I'--,.!"

:~~~

c\_.:

:--.•
"

, ....'

--~i.

Cc:
Lodge SO, Presid nt.
Jim Preston, Stat President
Lonnie Miller Jr., 1st Vice President
Kelly Shifflett, 2" Vice President I
I
Mike Kelly, Distri 4 Director
j
Robert RobertsoI, Chairman of Trustees

.I

APPENDIX 0201

242 Office Plaza, T llahassee, Florida 32301 _• Post Office Box 1349, Tallahassee, Florida 32302-1349
Telephone: 850-656-9881 • Toll Free: 800-873-FOPl • Fax: 800-873-3670 • Web: www.floridastatefop.org
Labbr Council Committee:
000427 888-485-0351
I

•

I

Filing# 91065987 E-Filed 06/13/2019 03:08:19 PM
IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
CIRCUIT CML DMSION AH
CASE NO. 50-2014-CA-009494-XXXX-MB
EDWARD J MANAK,
JERMAINE T DAVIS,
WILBUR S VEASY,
et al.,
Plaintiff/Petitioners
vs.
FRATERNAL ORDER OF POLICE JIM FOGLEMAN LODGE #50 INC,
Defendant/Respondent.
- - - - - - - - - - - - - - - -I

ORDER DENYING MOTION FOR RECONSIDERATION
THIS CAUSE came before the Court on June 13, 2019 upon receipt and review of
Plaintiffs' Davis, Veasy and Twiggs Motion for Reconsideration of the Court's September 11,
2018 Order Granting Summary Judgment filed June 12, 2019. It is,

ORDERED that the Plaintiffs' Davis, Veasy and Twiggs Motion for Reconsideration
filed June 12, 2019 is DENIED.
DONE AND ORDERED, in West Palm Beach, Palm Beach County, Florida this 13th
day of June, 2019.

~

/:

.h /~ d

~ ;?f

'

so;2014;cA~oo9494;xxx,c.r,1B= 06/13/2019

.

L~Smttii":_Judge

50-20i4~cA~009494~XX:XX-1ffi

Lisa s. _Small

0'51fa12oi!i

Judge

COPIES TO:
JERMAINE T. DAVIS

No Address Available

jayd045@yahoo.com

ROBERT C. BUSCHEL, ESQ 201 S.E 9TH STREET
buschel@bglaw-pa.com
FT LAUDERDALE, FL 33316 indira@bglaw-pa.com
ROBET BUSCHEL

No Address Available

buschel@bglaw-pa.com

WILBUR S. VEASY
WILLS. TWIGG

No Address Available
No Address Available

jlopezwils@msn.com
willstwigg@yahoo.com

EDWARD MANAK

No Address Available

edwardmanak@att.net

Page 1 ofl

APPENDIX 0202

000431
FILED: PALM BEACH COUNTY, FL, SHARON R. BOCK, CLERK, 06/13/2019 03:08: 19 PM

Filing # 99746482 E-Filed 12/03/2019 11:11:45 PM

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA,
FOURTH DISTRICT
CASE NO. 4D19-2152
L.T. NO. 2014-CA-009494
WILBUR S. VEASY, WILL S. TWIGG
and JERMAINE T. DAVIS
Plaintiffs/Appellants
v.
FRATERNAL ORDER OF POLICE JIM
FOGLEMAN LODGE #50, INC.
Defendant/Appellee,

APPELLANTS, WILBUR S. VEASY,
WILL S. TWIGG AND JERMAINE T. DAVIS’,
INITIAL BRIEF

Attorney for Appellants/Plaintiffs

MILSON LAW, PA
Citigroup Center
201 S. Biscayne Blvd., Suite 2700
Miami, Florida 33131
Tel.: (305) 209.0321
Nicole A. Milson, Esq.
Fla. Bar. No.: 86157
nicole@milsonlaw.com

APPENDIX 0203

TABLE OF CONTENTS

TABLE OF CONTENTS ......................................................................................... 2
TABLE OF AUTHORITIES ................................................................................... 4
PRELIMINARY STATEMENT ............................................................................. 7
STATEMENT OF THE CASE ................................................................................ 7
I.

PARTIES .................................................................................................... 7

II.

FACTS ........................................................................................................ 8

III.

THE PROCEEDINGS ................................................................................ 8

SUMMARY OF ARGUMENT ............................................................................. 10
STANDARD OF REVIEW .................................................................................... 12
I.

STANDING ............................................................................................. 12

II.

SUMMARY JUDGMENT ...................................................................... 12

III.

MOTION FOR REHEARING ................................................................ 12

IV.

MOTION FOR RELIEF FROM JUDGMENT ....................................... 13

ARGUMENT ........................................................................................................... 13
I.

INTRODUCTION .................................................................................... 13

II.

THE TRIAL COURT ERRED IN ALLOWING THE MATTER OF
STANDING TO BE ASSERTED WHEN IT WAS NOT PLED IN
APPELLEE’S ANSWER AND AFFIRMATIVE DEFENSES ................. 14

III.

THE TRIAL COURT ERRED IN ENTERING SUMMARY JUDGMENT
WHEN DEFENDANT HAD NOT RESPONDED TO ANY
OUTSTANDING DISCOVERY ............................................................. 15

IV.

PLAINTIFFS HAVE STANDING IN THIS MATTER ........................ 16
2
Milson Law, PA

APPENDIX
0204
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

V.

SUMMARY JUDGMENT IS IMPROPER ON THE EVIDENCE
PRESENTED............................................................................................ 17

VI.

THE TRIAL COURT ERRED IN DECLINING TO REHEAR ITS
ORDER .................................................................................................... 22

VII. THE TRIAL COURT ERRED IN DENYING PLAINTIFFS’ MOTION
FOR RECONSIDERATION WITHOUT A HEARING ......................... 23
CONCLUSION ...................................................................................................... 24
CERTIFICATE OF COMPLIANCE WITH FONT REQUIREMENT .................. 26
CERTIFICATE OF SERVICE ................................................................................ 26

3
Milson Law, PA

APPENDIX
0205
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

TABLE OF AUTHORITIES
CASES

PAGES

3709 N. Flagler Drive Prodigy Land Tr. v. Bank of Am., N.A., 226 So. 3d 1040,
1041 (Fla. 4th DCA 2017) ....................................................................................... 16
Bogatov v. City of Hallandale Beach, 192 So. 3d 600, 602 (Fla. 4th DCA 2016)
................................................................................................................................. 19
Cong. Park Office Condos II, LLC v. First–Citizens Bank & Tr. Co., 105 So.3d
602, 607 (Fla. 4th DCA 2013) ................................................................................. 15
Coquina Ridge Properties v. E. W. Co., 255 So. 2d 279, 280 (Fla. 4th DCA 1971)
.................................................................................................................................. 19
Craven v. TRG-Boynton Beach, Ltd., 925 So. 2d 476, 479 (Fla. 4th DCA 2006) .. 12
Dynasty Exp. Corp. v. Weiss, 675 So. 2d 235, 239 (Fla. 4th DCA 1996) .............. 24
Everett Painting Co. v. Padula & Wadsworth Constr., Inc., 856 So.2d 1059, 1061
(Fla. 4th DCA 2003) ................................................................................................ 12
Fatherly v. Cal. Fed. Bank, FSB, 703 So.2d 1101, 1102 (Fla. 2d DCA 1997) ...... 22
Florida Power & Light Co. v. Hayes, 122 So. 3d 408 (Fla. 4th DCA 2013) ......... 22
Freemon v. Deutsche Bank Tr. Co. Americas, 46 So. 3d 1202, 1204 (Fla. 4th DCA
2010) ........................................................................................................................ 13
Glynn v. First Union Nat. Bank, 912 So. 2d 357 (Fla. 4th DCA 2005) .................. 15
Herbits v. City of Miami, 207 So.3d 274, 281 (Fla. 3d DCA 2016) ........................ 12
Holl v. Talcott, 191 So. 2d 40 (Fla. 1966) ............................................................... 13
Holl v. Talcott, 191 So. 2d 40, 43 (Fla. 1966) ........................................................ 19
Holl v. Talcott, 191 So. 2d 40, 46–47 (Fla. 1966) .................................................. 22
4
Milson Law, PA

APPENDIX
0206
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

J.J.K. Int'l, Inc. v. Shivbaran, 985 So.2d 66, 68 (Fla. 4th DCA 2008) .................... 13
Jaffer v. Chase Home Fin., LLC, 155 So. 3d 1199 (Fla. 4th DCA 2015) ............... 14
Jones v. Stoutenburgh, 91 So. 2d 299 (Fla. 1956) .................................................. 19
Kissman v. Panizzi, 891 So. 2d 1147 (Fla. 4th DCA 2005) .................................... 15
Krivanek v. Take Back Tampa Political Comm., 625 So.2d 840, 842 (Fla. 1993).. 15
Lenhal Realty, Inc. v. Transamerica Commercial Fin. Corp., 615 So.2d 207 (Fla.
4th DCA 1993) ........................................................................................................ 18
Martin County v. Edenfield, 609 So. 2d 27, 29 (Fla. 1992) .................................... 18
McLean v. JP Morgan Chase Bank Nat'l Ass'n, 79 So.3d 170, 173 (Fla. 4th DCA
2012) ....................................................................................................................... 17
Petrucci v. Brinson, 179 So. 3d 398 (Fla. 1st DCA 2015) ...................................... 13
Petrucci v. Brinson, 179 So. 3d 398, 400 (Fla. 1st DCA 2015) ............................. 22
Pitcher v. Zappitell, 160 So. 3d 145, 149 (Fla. 4th DCA 2015) ............................. 18
Pub. Def., Eleventh Judicial Circuit of Fla. v. State, 115 So. 3d 261, 282 (Fla.
2013) ....................................................................................................................... 17
Republic of Ecuador v. Dassum, 255 So. 3d 390, 394–95 (Fla. 3d DCA 2017) ..... 15
Residential Mortg. Servicing Corp. v. Winterlakes Prop. Owners Ass'n, Inc., 169
So. 3d 253 (Fla. 4th DCA 2015) .............................................................................. 12
Reynolds v. Nationstar Loan Services, LLC, 190 So. 3d 219 (Fla. 4th DCA 2016)
.................................................................................................................................. 12
Reynolds v. Nationstar Loan Services, LLC, 190 So. 3d 219, 221 (Fla. 4th DCA
2016) ....................................................................................................................... 17
Schuster v. Blue Cross & Blue Shield of Fla., Inc., 843 So.2d 909, 912 (Fla. 4th
DCA 2003) ............................................................................................................... 15
5
Milson Law, PA

APPENDIX
0207
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Sconyer v. Scheper, 119 So. 2d 408, 412 (Fla. 2d DCA 1960) .............................. 19
Sconyer v. Scheper, 119 So. 2d at 412 ..................................................................... 25
Singer v. Star, 510 So.2d 637, 639 (Fla. 4th DCA 1987) ........................................ 16
Westport Recovery Corp. v. Midas, 954 So. 2d 750, 752 (Fla. 4th DCA 2007) .... 17
Wills v. Sears, Roebuck & Co., 351 So.2d 29 (Fla. 1977) ...................................... 18
Wilson v. State Rd. Dept., 201 So. 2d 619, 622 (Fla. 1st DCA 1967) .................... 19

Rules

Pages

Fla. R. Civ. P. 1.540(b)(3) ...................................................................................... 24

6
Milson Law, PA

APPENDIX
0208
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

PRELIMINARY STATEMENT
Throughout this Initial Brief, Appellants will be referred to as “Plaintiffs” and
Appellee will be referred to as “Defendant.” References to pages of the Record will
be labeled “R.”
Pursuant to this Court’s August 26, 2019 Order, this Appeal is proceeding in
accordance with Fla. R. App. 9.110(k) as an appeal of the Final Judgment entered
against Appellants by the trial court on September 24, 2019, and the directly related
rulings.

STATEMENT OF THE CASE
I.

PARTIES

Plaintiffs, WILBUR S. VEASY, WILL S. TWIGG and JERMAINE T.
DAVIS, are all individuals who are former officers with the Palm Beach County
Sheriff’s Office. Each Plaintiff was a member of Defendant, FRATERNAL ORDER
OF POLICE JIM FOGLEMAN LODGE #50, INC.
Defendant, FRATERNAL ORDER OF POLICE JIM FOGLEMAN LODGE
#50, INC. is a Florida not-for-profit corporation. Defendant’s membership is largely
composed of current and former officers of the Palm Beach County Sheriff’s Office.
7
Milson Law, PA

APPENDIX
0209
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

II.

FACTS

In 2014, Plaintiffs were each dues-paying members of the Defendant, along
with the fourth Plaintiff in this underlying action, Edward Manak. At the time,
Edward Manak served as the elected Treasurer for the Defendant. Unfortunately,
Defendant’s other officers made plans to surreptitiously oust Manak from his
position. Plaintiffs learned of the plan to remove Manak, and because of their belief
that the removal was being performed improperly and for suspicious purposes,
Plaintiffs vocally objected to the plan. In July 2014, Plaintiffs were expelled from
their memberships with Defendant in retaliation for their support of Manak.
Plaintiffs’ expulsions were performed in bad faith and were not performed in
accordance with Defendant’s bylaws. Plaintiffs therefore sued Defendant for
damages and injunctive relief.
III.

THE PROCEEDINGS

On August 1, 2014, Edward Manak initiated an action regarding the efforts to
remove him as treasurer. (R.000010) On August 18, 2017, the First Amended
Verified Complaint for Damages (the “Complaint”) was filed, adding Plaintiffs to
this action. (R.000158) On December 11, 2017, Defendant filed its Answer and
Affirmative Defenses to the Complaint. (R. 000202)

8
Milson Law, PA

APPENDIX
0210
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

On June 21, 2018, Defendant filed a Motion for Summary Judgment and
Motion for Protective Order. (R.000217). At a hearing on August 28, 2018, the trial
court verbally granted summary judgment against Plaintiffs. Following the hearing,
prior to the entry of an order, Plaintiffs filed an Emergency Motion to Not Enter
Summary Judgment Against Veasy, Davis and Twigg, fundamentally requesting
rehearing of the trial court’s verbal ruling. (R. 000310) The trial court denied the
Motion as an emergency (R. 000326) and ultimately entered an Order on September
11, 2018 granting summary judgment against Plaintiffs. (R. 000328)
Plaintiffs again requested rehearing of the trial court’s Order in Plaintiffs’
Response to Court’s Order Requiring Parties to Address Whether or Not §617.0607,
F.S. Permits a Private Right of Action. (R. 000381) The trial court denied summary
judgment in regards to Manak (R. 000397), but did not rehear or reconsider its
September 11, 2018 Order against Plaintiffs. On June 12, 2019, Plaintiffs lastly filed
a Motion for Reconsideration on the basis of misrepresentations made by Defendant.
(R. 000418). The trial court denied the Motion for Reconsideration on June 13, 2019
without hearing. (R. 000431).
This appeal followed.

9
Milson Law, PA

APPENDIX
0211
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

SUMMARY OF ARGUMENT
The Complaint essentially alleges that Plaintiffs were improperly expelled
from their memberships with Defendant in 2014, and that they were damaged as a
result of the wrongful expulsion. Defendant’s Motion for Summary Judgment
asserted, among various other things, that Plaintiffs did not have standing to pursue
this action. The trial court entered summary judgment against Plaintiffs holding that
“there are no genuine issues of material fact as to these Plaintiffs not having standing
to proceed with the claims against Defendant.” However, Defendant admitted in its
Answer that Plaintiffs were members of Defendant’s organization, and evidence
submitted in support of summary judgment affirmed that Plaintiffs’ memberships
were terminated, as alleged, in 2014. Therefore, the trial court erred in several ways
in entering summary judgment on the grounds that Plaintiffs did not have standing
to pursue this action.
Firstly, the trial court erred by allowing the Defendant to assert the defense of
standing on summary judgment when the defense was not raised in its Affirmative
Defenses. Without raising the issue, the standing defense was waived by Defendant
at the time of summary judgment, and the Court should not have allowed the
argument at the hearing.

10
Milson Law, PA

APPENDIX
0212
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Even if Defendant’s argument had been properly before the Court, the Court
did not draw all inferences in favor of the Plaintiffs, as required. Instead it
improperly weighed the competing written testimony submitted by the parties and
made a determination in favor of Defendant. However, Defendant’s own evidence
demonstrated conflicting information on Plaintiffs’ memberships, and summary
judgment was therefore improper in light of such conflict.
Ultimately, the Court erred in finding that Plaintiffs did not have standing, as
standing simply means that the Plaintiffs are the correct parties to assert the rights
and damages alleged in the Complaint. Plaintiffs are clearly asserting their own
personal rights and damages against Defendant, and cannot be said under any
circumstances to be the improper parties to make such allegations.
Lastly, summary judgment was wholly inappropriate where Defendant had
admittedly refused to respond to any discovery.
Following the summary judgment Order, the trial court abused its discretion
by refusing to rehear and reconsider its ruling. Plaintiffs repeatedly submitted
additional evidence that Defendant had made misrepresentations to the Court
regarding Plaintiffs’ memberships and their expulsion. Such evidence would have
properly precluded summary judgment and it was within the Court’s purview to
actually consider such evidence before maintaining its ruling. Additionally, the
11
Milson Law, PA

APPENDIX
0213
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Court was required to hold an evidentiary hearing on the Defendant’s
misrepresentations.
For all of the above reasons, Plaintiffs assert that it was error for the trial court
to enter and maintain summary judgment against them on the issue of standing, and
the final judgment should be vacated.

STANDARD OF REVIEW
I.

STANDING

Standing is a pure question of law that is reviewed de novo. Herbits v. City of
Miami, 207 So.3d 274, 281 (Fla. 3d DCA 2016). Reynolds v. Nationstar Loan
Services, LLC, 190 So. 3d 219 (Fla. 4th DCA 2016).
II.

SUMMARY JUDGMENT

The standard of review of the entry of summary judgment is de novo. Everett
Painting Co. v. Padula & Wadsworth Constr., Inc., 856 So.2d 1059, 1061 (Fla. 4th
DCA 2003); Craven v. TRG-Boynton Beach, Ltd., 925 So. 2d 476, 479 (Fla. 4th
DCA 2006).
III.

MOTION FOR REHEARING

Denial of a motion for rehearing is reviewed for abuse of discretion. Residential
Mortg. Servicing Corp. v. Winterlakes Prop. Owners Ass'n, Inc., 169 So. 3d 253

12
Milson Law, PA

APPENDIX
0214
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

(Fla. 4th DCA 2015); Petrucci v. Brinson, 179 So. 3d 398 (Fla. 1st DCA 2015); Holl
v. Talcott, 191 So. 2d 40 (Fla. 1966).
IV.

MOTION FOR RELIEF FROM JUDGMENT

The standard of review of an order on a motion for relief from judgment is
whether there has been an abuse of the trial court's discretion. J.J.K. Int'l, Inc. v.
Shivbaran, 985 So.2d 66, 68 (Fla. 4th DCA 2008); Freemon v. Deutsche Bank Tr.
Co. Americas, 46 So. 3d 1202, 1204 (Fla. 4th DCA 2010).

ARGUMENT
I.

INTRODUCTION

Plaintiffs’ verified Complaint essentially alleges that Plaintiffs, Wilbur S. Veasy,
Will S. Twigg and Jermaine T. Davis, were improperly expelled from their
memberships with Defendant, and that they were damaged as a result of the wrongful
expulsion. (R.000159, ¶ 6, 7) Defendant admits in its Answer and Affirmative
Defenses that Plaintiffs were members of Defendant’s organization. (R.000202, ¶ 1)
Lack of standing is not raised by Defendant in its Affirmative Defenses. (R.000203)
Defendant’s Motion for Summary Judgment and Motion for Protective Order
alleges that Plaintiffs do not have standing to sue for the wrongful expulsions
because they are not eligible to be members of the organization (R. 000218, ¶ 5)

13
Milson Law, PA

APPENDIX
0215
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Defendant’s request for a protective order impliedly admits that it has failed to
respond to Plaintiffs’ discovery. (R.000223)
Defendant submitted, with its Motion, two sworn statements that reference
Plaintiffs, the Affidavit of Patrick Yoes (R. 000226) and the Declaration of Thomas
Hannigan (R. 000230). Yoes asserts that each of the Plaintiffs “are not a member in
good standing” with Defendant. Hannigan asserts that Plaintiffs are all presently
ineligible to be members of Defendant. (R. 000232)
Plaintiffs filed the Declaration of Jermaine Davis, in opposition to the Motion,
which again asserts that Plaintiffs were unlawfully expelled from their membership
and suffered damages as a result. Plaintiffs also filed the Declaration of Mark
Johnson confirming that Defendant refused to complete any propounded discovery
or depositions. (R. 000261)

II.

THE TRIAL COURT ERRED IN ALLOWING THE MATTER OF
STANDING TO BE ASSERTED WHEN IT WAS NOT PLED IN
DEFENDANT’S ANSWER AND AFFIRMATIVE DEFENSES

The trial court’s first error was allowing Defendant to present the issue of
standing on summary judgment. Defendant did not raise an issue of the Plaintiff’s
lacking standing in its affirmative defenses. It is well-established that lack of
standing is an affirmative defense that if not pled, is waived. See Jaffer v. Chase
14
Milson Law, PA

APPENDIX
0216
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Home Fin., LLC, 155 So. 3d 1199 (Fla. 4th DCA 2015); Kissman v. Panizzi, 891 So.
2d 1147 (Fla. 4th DCA 2005); Glynn v. First Union Nat. Bank, 912 So. 2d 357 (Fla.
4th DCA 2005); Republic of Ecuador v. Dassum, 255 So. 3d 390, 394–95 (Fla. 3d
DCA 2017); Krivanek v. Take Back Tampa Political Comm., 625 So.2d 840, 842
(Fla. 1993); Cong. Park Office Condos II, LLC v. First–Citizens Bank & Tr. Co.,
105 So.3d 602, 607 (Fla. 4th DCA 2013); Schuster v. Blue Cross & Blue Shield of
Fla., Inc., 843 So.2d 909, 912 (Fla. 4th DCA 2003).
In Republic of Ecuador v. Dassum, the appellate court determined that the trial
court erred in allowing the defendant to assert that the plaintiff did not have standing
as the defendant had not made any such assertion in its affirmative defenses.
Republic of Ecuador v. Dassum, 255 So. 3d at 395. Similarly here, Defendant did
not include lack of standing as one of its twelve enumerated affirmative defenses.
Such an assertion on summary judgment was therefore outside of the scope of the
pleadings and improperly heard on summary judgment by the trial court. The entry
of final judgment against the Plaintiffs, on this basis alone, must be reversed in
accordance with prevailing law.

III.

THE TRIAL COURT ERRED IN ENTERING SUMMARY
JUDGMENT WHEN DEFENDANT HAD NOT RESPONDED TO
ANY OUTSTANDING DISCOVERY

15
Milson Law, PA

APPENDIX
0217
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Summary judgment should not be granted until the facts have been sufficiently
developed for the court to be reasonably certain that no genuine issue of material
fact exists. Singer v. Star, 510 So.2d 637, 639 (Fla. 4th DCA 1987). As a general
rule, a court should not enter summary judgment when the opposing party has not
completed discovery. Id.
Defendant admittedly refused to complete any of Plaintiffs’ discovery, instead
combining its request for a protective order against the propounded discovery in its
Motion for Summary Judgment. Plaintiffs then filed the Declaration of Mark
Johnson confirming that Defendant had not responded to any discovery. (R.000261)
It was therefore clear to both parties and the court that the facts could not have been
sufficiently developed in this matter in order to enter summary judgment for
Defendant on any issue, including the matter of standing. The final judgment against
Plaintiffs must be vacated on this basis.

IV.

PLAINTIFFS HAVE STANDING IN THIS MATTER

Fundamentally, the trial court erred in holding that the Plaintiffs do not have
standing to pursue this action against Defendants. Standing is that sufficient interest
in the outcome of litigation which will warrant the court's entertaining it. 3709 N.
Flagler Drive Prodigy Land Tr. v. Bank of Am., N.A., 226 So. 3d 1040, 1041 (Fla.

16
Milson Law, PA

APPENDIX
0218
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

4th DCA 2017). A party's standing is determined at the time the lawsuit is filed.
McLean v. JP Morgan Chase Bank Nat'l Ass'n, 79 So.3d 170, 173 (Fla. 4th DCA
2012). Reynolds v. Nationstar Loan Services, LLC, 190 So. 3d 219, 221 (Fla. 4th
DCA 2016). Generally, standing requires a would-be litigant to demonstrate that he
or she reasonably expects to be affected by the outcome of the proceedings, either
directly or indirectly. Pub. Def., Eleventh Judicial Circuit of Fla. v. State, 115 So.
3d 261, 282 (Fla. 2013). To have standing, a party must establish an injury that may
be redressed by the requested relief. Westport Recovery Corp. v. Midas, 954 So. 2d
750, 752 (Fla. 4th DCA 2007).
Standing is therefore a simple concept of whether the party requesting relief is
the party that is entitled to relief. In the present case, Plaintiffs are asserting that
their own memberships were illegally terminated by Defendant, that they personally
were damaged by the improper termination, and that they are seeking injunctive
relief and damages for the loss of their memberships. They are clearly asserting their
own rights and are the parties that would benefit from the relief requested if they
were to prevail. Plaintiffs therefore very clearly have standing to pursue their claims
against Defendant in this action, and the final judgment on those grounds should be
reversed.
V.

SUMMARY JUDGMENT IS IMPROPER ON THE EVIDENCE
PRESENTED
17
Milson Law, PA

APPENDIX
0219
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

The evidence presented by Defendant in support of its Motion was wholly
insufficient to establish that Plaintiffs lacked standing in this matter. The right to
trial by jury is a concept so deeply imbedded in our jurisprudence that only in those
cases where there is no issue whatever of a material fact and it is made to appear that
the moving party is entitled to a judgment as a matter of law should one be granted.
Pitcher v. Zappitell, 160 So. 3d 145, 149 (Fla. 4th DCA 2015); Martin County v.
Edenfield, 609 So. 2d 27, 29 (Fla. 1992).The law is well settled in Florida that a
party moving for summary judgment must show conclusively the absence of any
genuine issue of material fact, and the court must draw every possible inference in
favor of the party against whom a summary judgment is sought. Wills v. Sears,
Roebuck & Co., 351 So.2d 29 (Fla. 1977).
Defendants moving for summary judgment must conclusively prove both the
factual existence of the defense upon which they rely and its legal sufficiency.
Lenhal Realty, Inc. v. Transamerica Commercial Fin. Corp., 615 So.2d 207 (Fla.
4th DCA 1993). Only where the movant tenders competent evidence in support of
his motion does the burden shift to the other party to come forward with opposing
evidence. Id. Before it becomes necessary to determine the legal sufficiency of the
affidavits or other evidence submitted by the party moved against, it must first be
determined that the movant has successfully met his burden of proving a negative,

18
Milson Law, PA

APPENDIX
0220
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

i.e., the non-existence of a genuine issue of material fact. Holl v. Talcott, 191 So. 2d
40, 43 (Fla. 1966).
It is also settled that when ruling on a motion for summary judgment, the trial
court is not authorized to try or weigh facts or the credibility of the witnesses in
determining whether there exists a genuine issue of material fact. Coquina Ridge
Properties v. E. W. Co., 255 So. 2d 279, 280 (Fla. 4th DCA 1971); Jones v.
Stoutenburgh, 91 So. 2d 299 (Fla. 1956); Sconyer v. Scheper, 119 So. 2d 408, 412
(Fla. 2d DCA 1960).
Even where the evidence is uncontradicted, the trial court lacks the authority to
enter a summary judgment or decree if such evidence is reasonably susceptible to
conflicting inferences. Wilson v. State Rd. Dept., 201 So. 2d 619, 622 (Fla. 1st DCA
1967). When evidence of inconsistency in testimony and documentary evidence
itself creates a disputed issue of fact for the jury, it may not be resolved by the trial
court adversely to the nonmoving party on motion for summary judgment. Bogatov
v. City of Hallandale Beach, 192 So. 3d 600, 602 (Fla. 4th DCA 2016).
Defendant’s only summary judgment evidence regarding Plaintiffs was the Yoes
affidavit and the Hannigan declaration. Neither document establishes that Plaintiffs
are the improper parties to present their claims or that Plaintiffs would not be the

19
Milson Law, PA

APPENDIX
0221
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

parties entitled to the requested relief should they prevail, and the documents are
factually conflicting.
The Yoes affidavit admits that Plaintiffs were members of Defendant’s
organization and simply disputes when they were members. Additionally, Yoes cites
the National Fraternal Order of Police Constitution and By-laws, which are not
controlling or relevant in this matter, and were never filed with the court.
Specifically, he cites an “Article 3, Section 1.E,” which allegedly states that “any
member belonging to a state or subordinate lodge that is delinquent or has been
suspended shall not be a member in good standing.” (R. 000227). A plain reading
of that clause as written would be that if the lodge itself is “delinquent” or
“suspended” then its members are not in good standing. Yoes clearly misinterprets
it to mean that if the members themselves are “delinquent” or “suspended” then they
are not in good standing. However, Yoes fails to allege any facts to establish that
any of the Plaintiffs are “delinquent” or “suspended” at any point in the affidavit.
Further, there is no factual allegation that members who are not in “good standing”
with the National organization are somehow barred from pursuing a lawsuit against
Defendant, a local organization, for its improper actions. The Yoes affidavit is
nothing more than a misleading attempt to misdirect the court from the actual cause
of action.

20
Milson Law, PA

APPENDIX
0222
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

The Hannigan declaration actually directly contradicts the Yoes affidavit, stating
that Plaintiffs Twigg and Davis were actually members until their expulsion in 2014
(R.000232). Hannigan also makes a vague allegation that Plaintiff Veasy
“subsequently… resigned” (R. 000233), which differs from the Yoes testimony.
While the Hannigan testimony disputes Plaintiffs’ reason and timing of their
expulsion from Defendant, it does not establish in any manner that they are the
incorrect parties to pursue the Complaint’s claims of wrongdoing. Instead, the fact
that there is a glaring conflict between the Yoes testimony and the Hannigan
testimony presents an issue of fact regarding when and how the Plaintiffs’
memberships actually ended, and precludes summary judgment.
Plaintiffs were therefore not required to put forth any evidence on standing as
Defendant clearly failed to tender competent evidence that would prove the nonexistence of a genuine issue of material fact on this issue. Plaintiffs did in fact present
evidence, however, through the Davis declaration, which directly controverted
Hannigan’s factual version of events regarding Plaintiffs’ expulsion from
membership. (R.000246) The only way to enter summary judgment in the face of
such conflicting testimony was for the trial court to have weighed the credibility of
Davis versus Hannigan, to make a determination of fact that Hannigan’s version was

21
Milson Law, PA

APPENDIX
0223
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

correct.

As fact-finding and weighing credibility on summary judgment are

improper, summary judgment is again precluded here.
VI.

THE TRIAL COURT ERRED IN DECLINING TO REHEAR ITS
ORDER

A trial court has broad discretion to grant a rehearing of a summary judgment
when the party seeking rehearing submits matters that would have created an issue
precluding summary judgment. Fatherly v. Cal. Fed. Bank, FSB, 703 So.2d 1101,
1102 (Fla. 2d DCA 1997); Petrucci v. Brinson, 179 So. 3d 398, 400 (Fla. 1st DCA
2015). Florida's appellate courts have reversed in cases where evidence submitted
with a motion for rehearing would have raised an issue of material fact precluding
summary judgment. Id. When the motion is filed by one against whom a summary
judgment has been entered, the discretion not to grant is narrowed and every
disposition should be indulged in favor of granting the motion. Florida Power &
Light Co. v. Hayes, 122 So. 3d 408 (Fla. 4th DCA 2013); Holl v. Talcott, 191 So. 2d
40, 46–47 (Fla. 1966). Not only should the opposing party's papers on summary
judgment be liberally read and construed, as opposed to a strict reading of the
movant's papers, but this same favorable weighting of the balance should be used on
the opposing party’s subsequent motion for rehearing. Id.
Plaintiffs twice submitted to the trial court additional argument and
documentation demonstrating that Defendant had legally and factually misled the
22
Milson Law, PA

APPENDIX
0224
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

court. In their Emergency Motion to Not Enter Summary Judgment Against Veasy,
Davis and Twigg, Plaintiffs submitted an affidavit of Edward Manak reiterating that
Defendant’s assertions for when, why and how Plaintiffs were terminated were false.
(R.000314). Plaintiffs also submitted letters from Defendant that stated the date and
a reason, other than those asserted on summary judgment, that Plaintiffs Davis and
Twigg were expelled. (R. 000317, 000318, 000320, 000321) In Plaintiffs’ Response
to Court’s Order Requiring Parties to Address Whether or Not §617.0607, F.S.
Permits a Private Right of Action, Plaintiffs again asserted that Defendant had
misled the court regarding Plaintiffs’ membership and ability to continue being
members if they hadn’t been improperly expelled. Plaintiffs also submitted an
excerpt of Defendant’s by-laws regarding membership and discipline to demonstrate
that there was nothing in the document precluding Plaintiffs memberships or rights
that would divest them of standing to pursue their claim against Defendant.
(R.000389) Plaintiffs also again pointed out that Defendant had waived the issue of
standing. After being presented with such evidence that showed that summary
judgment was undeniably improper, the trial court abused its discretion by failing to
rehear its Order against Plaintiffs.
VII. THE TRIAL COURT ERRED IN DENYING PLAINTIFFS’
MOTION FOR RECONSIDERATION WITHOUT A HEARING

23
Milson Law, PA

APPENDIX
0225
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Plaintiffs lastly filed a Motion for Reconsideration alleging that they were
entitled to relief from the court’s Order under Fla. R. Civ. P. 1.540(b)(3) due to the
misrepresentations made by Defendant in its Motion and affidavits regarding
Plaintiffs’ membership status. (R.000417) Plaintiffs again submitted additional
documentation demonstrating that Defendant’s assertions were blatantly false,
including copies of the 2014 membership cards of Davis and Twigg. (R. 000423,
R.000425) If the allegations in the moving party's motion for relief from judgment
“raise a colorable entitlement to rule 1.540(b)(3)'s relief, a formal evidentiary
hearing on the motion, as well as permissible discovery prior to the hearing, is
required. Dynasty Exp. Corp. v. Weiss, 675 So. 2d 235, 239 (Fla. 4th DCA 1996).
Instead of holding an evidentiary hearing, the trial court denied the Motion for
Reconsideration the day after it was filed although there was no opposition even
filed by Defendant. Under theses circumstances, Plaintiffs were entitled to an
evidentiary hearing, and it was error for the trial court to deny the Motion without
one.
CONCLUSION
It is clear from the motions and evidence in the record that the trial court erred
in entering summary judgment against Plaintiffs on the issue of lack of standing.
Where the judgment was based upon written evidence rather than live testimony, the
trial court was in no better position to arrive at a correct conclusion as to the
24
Milson Law, PA

APPENDIX
0226
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

credibility of the witnesses at the time the summary judgment was entered than is
the appellate court on appeal, and the trial court’s conclusion does not warrant the
presumption of correctness. Sconyer v. Scheper, 119 So. 2d at 412. This Court
therefore is free to make the correct determination regarding the law and evidence
in this matter.
The issue of standing never should have been before the trial court on
summary judgment as the issue was waived. Summary judgment was also improper
where the Defendant had refused to respond to discovery. More importantly,
Plaintiffs clearly have standing to pursue their claims against Defendant as they
themselves are the parties injured by Defendant’s wrongful actions. Defendant failed
to show any evidence demonstrating otherwise, and in fact, presented conflicting
evidence that precluded the entry of summary judgment. Once the trial court was
made aware that Defendant’s submitted testimony on the matter was false, the trial
court was obligated to rehear the matter and vacate the summary judgment Order
against Plaintiffs. Lastly, Plaintiffs were at least entitled to an evidentiary hearing
on their request for relief from judgment due to Defendant’s misrepresentations. In
light of the errors made by the trial court, Plaintiffs respectfully request that this
Court vacate the final judgment, and allow Plaintiffs to proceed with their case
before a jury.

25
Milson Law, PA

APPENDIX
0227
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

CERTIFICATE REGARDING FONT SIZE AND TYPE
The undersigned attorney hereby certifies that the foregoing Initial Brief of
Appellant was typed in Times New Roman, 14-point size.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been
served, on December 3, 2019, electronically via the Florida Courts E-Filing Portal
to Robert C. Buschel, Esq., attorney for appellee, at Buschel@BGlaw-pa.com,
whose physical address is 100 S.E. Third Avenue, Fort Lauderdale, FL 33394.

MILSON LAW, PA
Citigroup Building
201 S. Biscayne Blvd., Suite 2700
Miami, FL 33131
Ph: (305) 209-0321
By: /s/ Nicole Milson
Nicole A. Milson, Esq.
Fla. Bar No. 86157

26
Milson Law, PA

APPENDIX
0228
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Filing # 108154173 E-Filed 05/29/2020 05:35:41 PM

IN THE DISTRICT COURT OF APPEAL
FOURTH DISTRICT OF THE STATE OF FLORIDA
WILBUR S VEASY,
WILL S TWIGG,
and JERMAINE T DAVIS

CASE NO.: 4D19-2152

Appellants,
v.
FRATERNAL ORDER OF POLICE JIM
FOGLEMAN LODGE #50 INC
Appellee.
_______________________________________/

APPELLANTS’ MOTION FOR ISSUANCE OF A WRITTEN OPINION,
REHEARING, REHEARING EN BANC, AND CERTIFICATION
Appellants, WILBUR S VEASY, WILL S TWIGG, and JERMAINE T
DAVIS, by and through the undersigned counsel, pursuant to Fla. R. App. P. 9.330
and Fla. R. App. P. 9.331, hereby file this Motion for Issuance of a Written Opinion,
Rehearing, Rehearing en banc, and Certification in regards to its May 14, 2020
Order, and in support thereof state:

1

Milson Law, PA

APPENDIX
0229
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

INTRODUCTION
In this matter, the trial court entered partial final judgment based on a
summary judgment finding that solely concluded that there were no genuine issues
of material fact as to Appellants “not having standing” in their claims against
Defendant. As there were several procedural and substantive errors made by the trial
court, Appellants filed the present appeal.
Although Appellants deeply respect the authority of this Court, the entry of a
per curiam affirmance in this matter appears to conflict with the previously stated
opinions of this Court, the other Florida Courts of Appeals, the Supreme Court of
Florida, and the Florida Constitution. Without a written opinion, Appellants must
presume that the trial court’s “standing” ruling was summarily affirmed, and that
their constitutional right to access court was improperly abrogated. A trial court
being permitted to decide which plaintiffs are barred from court without any
supporting rule, law or fact, is a matter of great public importance. Appellants
therefore are requesting a written opinion in this matter to properly identify the
conflicts, a rehearing en banc to resolve intradistrict conflicts, and certification to
resolve conflicts with rulings of other districts and the Florida Supreme Court.

2

Milson Law, PA

APPENDIX
0230
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

ARGUMENT

I.

This Court’s order appears to conflict with existing precedent on
determination of standing
This standard of review of the trial court’s finding that Appellants lacked

standing in this action was de novo. Appellants clearly are the correct parties in
interest to assert the violation of their own rights by Appellee in this action, namely
the improper and bad faith expulsion from their membership in the Fraternal Order
of Police, and the injuries stemming therefrom. A determination by this Court that
Appellants did not have standing would therefore be in derogation of the prevailing
case law in this District that standing exists where a party has established an injury
that may be redressed by the requested relief. Westport Recovery Corp. v. Midas,
954 So. 2d 750, 752 (Fla. 4th DCA 2007). A determination of lack of standing also
goes against the standard held by the Supreme Court of Florida that standing simply
requires parties to demonstrate that they reasonably expect to be affected by the
outcome of the proceedings, either directly or indirectly. Pub. Def., Eleventh Judicial
Circuit of Fla. v. State, 115 So. 3d 261, 282 (Fla. 2013). A change from or constraint
on the current definition of standing would actually be a significant departure from
the fundamental right to access to court as delineated in Art. I, § 21, Fla. Const.,
which guarantees broad accessibility to the courts for resolving disputes. See
Westphal v. City of St. Petersburg, 194 So. 3d 311 (Fla. 2016). A written opinion
3

Milson Law, PA

APPENDIX
0231
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

would thoroughly explain the reason for the deviation from all prior precedent on
standing, as well as provide a basis for the Supreme Court to review the
constitutional implications.

II.

This Court’s Order appears to conflict with existing precedent on
procedural rules regarding determination of standing and entry of
summary judgment
Appellants asserted, and the record on appeal reflects, that Appellee did not

raise the issue of the Appellants’ lacking standing in its affirmative defenses. It is
well-established in this District that lack of standing is an affirmative defense that if
not pled, is waived. See Alexopoulos v. Gordon Hargrove & James, P.A., 109 So.3d
248 (Fla. 4th DCA 2013); Cong. Park Office Condos II, LLC v. First–Citizens Bank
& Tr. Co., 105 So.3d 602, 607 (Fla. 4th DCA 2013); Jaffer v. Chase Home Fin.,
LLC, 155 So. 3d 1199 (Fla. 4th DCA 2015); Kissman v. Panizzi, 891 So. 2d 1147
(Fla. 4th DCA 2005); Glynn v. First Union Nat. Bank, 912 So. 2d 357 (Fla. 4th DCA
2005); Schuster v. Blue Cross & Blue Shield of Fla., Inc., 843 So.2d 909, 912 (Fla.
4th DCA 2003). A written opinion is therefore necessary to explain the deviation
from prior precedent, as the judgment was affirmed on the basis of lack of standing.
The affirmance also conflicts with the same principle of law in other districts found
in Republic of Ecuador v. Dassum, 255 So. 3d 390, 394–95 (Fla. 3d DCA 2017) and
B.B.S. v. R.C.B., 252 So.2d 837, 839 (Fla. 2d DCA 1971), and most importantly
4

Milson Law, PA

APPENDIX
0232
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

conflicts with the same principle stated in the Supreme Court case of Krivanek v.
Take Back Tampa Political Comm., 625 So.2d 840, 842 (Fla. 1993). A written
opinion would therefore provide a legitimate basis for Supreme Court review under
these circumstances.
Additionally, Appellants asserted in this appeal, and the record reflects, that
Appellee refused to respond to any discovery in this action. A court should not enter
summary judgment when the opposing party has not completed discovery. Singer v.
Star, 510 So.2d 637, 639 (Fla. 4th DCA 1987). This Court’s order affirming
summary judgment therefore deviates from prior precedent in this District as well as
the same precedent in other Districts such as in Harper v. Wal-Mart Stores E., L.P.,
134 So. 3d 557 (Fla. 5th DCA 2014), Almond Entm't, Inc. v. Bayview Loan Servicing,
LLC, 98 So. 3d 723 (Fla. 2d DCA 2012), Payne v. Cudjoe Gardens Prop. Owners
Ass'n, Inc., 837 So. 2d 458 (Fla. 3d DCA 2002), and Harvey Covington & Thomas,
LLC v. WMC Mortg. Corp., 85 So. 3d 558 (Fla. 1st DCA 2012). A written opinion
is needed to state why this Court has deviated from its established position on this
matter. A written opinion would further allow the Supreme Court to resolve any
conflict amongst the District courts presented by this Court on this matter.

5

Milson Law, PA

APPENDIX
0233
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

III.

This Court’s Order appears to improperly apply the prevailing substantive
law in this matter to affirm the entry of summary judgment
The evidence presented by Appellee in support of its Motion for Summary

Judgment was wholly insufficient to establish that summary judgment was
appropriate in this matter on any grounds. Appellee’s only evidence consisted of a
conclusory affidavit and a factually conflicting conclusory declaration regarding
when Appellants’ memberships were terminated. When evidence of inconsistency
in testimony and documentary evidence itself creates a disputed issue of fact for the
jury, it may not be resolved adversely to the nonmoving party on motion for
summary judgment. Bogatov v. City of Hallandale Beach, 192 So. 3d 600, 602 (Fla.
4th DCA 2016); Wilson v. State Rd. Dept., 201 So. 2d 619, 622 (Fla. 1st DCA 1967);
Heithmeyer v. Sasser, 664 So.2d 358 (Fla. 4th DCA 1995). As Appellee only offered
conflicting evidence, and its motion only offered conclusory legal opinions not even
based on that evidence, Appellee failed to successfully meet its burden of
conclusively proving the non-existence of all genuine issues of material fact, and
summary judgment is improper. See Holl v. Talcott, 191 So. 2d 40, 43 (Fla. 1966);
Lenhal Realty, Inc. v. Transamerica Commercial Fin. Corp., 615 So.2d 207 (Fla.
4th DCA 1993). Further, as Appellants submitted their own declaration refuting the
facts asserted by Appellee’s evidence, this Court would have had to engage in
unauthorized weighing of the opposing witnesses’ credibility to still affirm summary
6

Milson Law, PA

APPENDIX
0234
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

judgment in this matter. Coquina Ridge Properties v. E. W. Co., 255 So. 2d 279, 280
(Fla. 4th DCA 1971); Jones v. Stoutenburgh, 91 So. 2d 299 (Fla. 1956); Sconyer v.
Scheper, 119 So. 2d 408, 412 (Fla. 2d DCA 1960). A written opinion is necessary
on this issue to explain how this Court deviated from the prevailing case law to enter
summary judgment based on inconsistent, inconclusive and refuted evidence. A
written opinion would likewise assist the Supreme Court in resolving any conflict
created by this conclusion, as it has been the longstanding controlling law in this
jurisdiction that summary judgment should be granted sparingly. Williams v. City of
Lake City, 62 So.2d 732 (Fla. 1953).
In addition to a lack of summary judgment evidence, there is no law
supporting the affirmance of summary judgment against Appellants. As detailed
supra, Appellants do have standing under the law to redress their claims against
Appellee in this action. To the extent that this Court affirmed the entry of summary
judgment on an alternate basis, such as Appellee’s assertion that Appellants
essentially failed to state a proper cause of action, such a decision would conflict
with prevailing and controlling case law as well. The cases relied on by Appellee of
Florida Research Institute for Equine Nurturing, Dvlpmt. and Safety, Inc. v. Dillon,
247 So.3d 538 (Fla. 4th DCA 2018), Boca W. Club, Inc. v. Levine, 578 So.2d 14
(Fla. 4th DCA 1991) and Everglades Protective Syndicate, Inc. v. Makinney, 391

7

Milson Law, PA

APPENDIX
0235
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

So.2d 262 (Fla. 4th DCA 1980) do not refute that a private club must act in good
faith and according to its bylaws when expelling members. An expelled member
who alleges that the expulsion constituted fraud or bad faith has stated a proper cause
of action. Werber v. Imperial Golf Club, Inc., 413 So. 2d 41, 43 (Fla. 2d DCA 1982)
Even more importantly, the Florida Supreme Court has specifically carved out and
elaborated a right to judicial review of the improper actions of professional
organizations like Appellee in McCune v. Wilson, 237 So.2d 169 (Fla. 1970). A
written opinion is needed to explain the reasoning behind this affirmance and its
conflict with controlling law, so that the Supreme Court may review same.

IV.

This Court’s Order appears to allow the trial court to abuse its discretion
in not rehearing its summary judgment order when presented with
additional evidence

Appellants repeatedly requested rehearing and reconsideration of the trial court’s
order on the basis of the procedural deficiencies, the evidentiary issues, and the lack
of supporting law. Additional evidence that was submitted with their requests for
rehearing raised issues of material fact that further precluded summary judgment,
namely that Appellee had been untruthful regarding Appellants’ memberships and
how they had been expelled. Under these circumstances, the discretion not to grant
the rehearing was narrowed, every disposition should have been indulged in favor
8

Milson Law, PA

APPENDIX
0236
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

of granting the motion, and Appellants’ moving papers should have been liberally
read and construed. Florida Power & Light Co. v. Hayes, 122 So. 3d 408 (Fla. 4th
DCA 2013); Petrucci v. Brinson, 179 So. 3d 398, 400 (Fla. 1st DCA 2015); Fatherly
v. Cal. Fed. Bank, FSB, 703 So.2d 1101, 1102 (Fla. 2d DCA 1997); Holl v. Talcott,
191 So. 2d 40, 46–47 (Fla. 1966). When Appellants requested relief from the court’s
summary judgment order under Fla. R. Civ. P. 1.540(b)(3) a formal evidentiary
hearing on the motion, as well as permissible discovery prior to the hearing, was
required. Dynasty Exp. Corp. v. Weiss, 675 So. 2d 235, 239 (Fla. 4th DCA 1996).
This Court’s affirmance allows the trial court to avoid following the law of this
jurisdiction on summary judgment rehearings. A written opinion is necessary to
explain this deviation from clear prior precedent, and allow the Supreme Court to
review the conflicting and controlling law.
V.

Rehearing en banc
Due to the legal and factual irregularities of this affirmance, as enumerated

above, Appellants are respectful requesting that this appeal be reheard. As the issue
of standing and access to court is one of exceptional importance to all litigants,
Appellants are specifically requesting that the rehearing be made en banc.
Additionally, Appellants believe it is of utmost importance to maintain conformity
in this jurisdiction regarding the manner that summary judgments are granted on the

9

Milson Law, PA

APPENDIX
0237
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

issue of standing or any other basis. To that end, pursuant to Fla. R. App. P.
9.331(d)(2), the undersigned counsel affirms:
I express a belief, based on a reasoned and studied professional judgment,
that the case or issue is of exceptional importance. I express a belief, based on
a reasoned and studied professional judgment, that the panel decision is
contrary to the following decisions of this court and that a consideration by the
full court is necessary to maintain uniformity of decisions in this court:
a. Standing – Westport Recovery Corp. v. Midas, 954 So. 2d 750, 752 (Fla.
4th DCA 2007)
b. Procedural rules – Alexopoulos v. Gordon Hargrove & James, P.A., 109
So.3d 248 (Fla. 4th DCA 2013); Cong. Park Office Condos II, LLC v.
First–Citizens Bank & Tr. Co., 105 So.3d 602, 607 (Fla. 4th DCA 2013);
Singer v. Star, 510 So.2d 637, 639 (Fla. 4th DCA 1987)
c. Summary judgment evidence – Bogatov v. City of Hallandale Beach, 192
So. 3d 600, 602 (Fla. 4th DCA 2016); Heithmeyer v. Sasser, 664 So.2d
358 (Fla. 4th DCA 1995); Lenhal Realty, Inc. v. Transamerica
Commercial Fin. Corp., 615 So.2d 207 (Fla. 4th DCA 1993); Coquina
Ridge Properties v. E. W. Co., 255 So. 2d 279, 280 (Fla. 4th DCA 1971)

10

Milson Law, PA

APPENDIX
0238
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

d. Judicial review of professional organizations - Florida Research Institute
for Equine Nurturing, Dvlpmt. and Safety, Inc. v. Dillon, 247 So.3d 538
(Fla. 4th DCA 2018); Boca W. Club, Inc. v. Levine, 578 So.2d 14 (Fla. 4th
DCA 1991); Everglades Protective Syndicate, Inc. v. Makinney, 391 So.2d
262 (Fla. 4th DCA 1980)
e. Rehearing of summary judgment orders - Florida Power & Light Co. v.
Hayes, 122 So. 3d 408 (Fla. 4th DCA 2013); Dynasty Exp. Corp. v. Weiss,
675 So. 2d 235, 239 (Fla. 4th DCA 1996)

VI.

Certification
As the present Order of affirmance appears to conflict with persuasive

opinions on these issues from other Districts, as well as controlling case law from
the Florida Supreme Court, Appellants respectfully request that this Court certify the
following questions, in the language this Court sees fit, to the Supreme Court for
review:
a. Does an appellate determination that Plaintiffs do not have standing to sue
a professional organization that they allege has damaged them by
improperly expelling them in bad faith, unconstitutionally deprive them of
their right to access court in departure from Pub. Def., Eleventh Judicial
11

Milson Law, PA

APPENDIX
0239
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Circuit of Fla. v. State, 115 So. 3d 261, 282 (Fla. 2013), Art. I, § 21, Fla.
Const. and Westphal v. City of St. Petersburg, 194 So. 3d 311 (Fla. 2016)
b. Is the defense of “lack of standing” waived if not raised as an affirmative
defense prior to a motion for summary judgment in accordance with
Republic of Ecuador v. Dassum, 255 So. 3d 390, 394–95 (Fla. 3d DCA
2017), B.B.S. v. R.C.B., 252 So.2d 837, 839 (Fla. 2d DCA 1971), and
Krivanek v. Take Back Tampa Political Comm., 625 So.2d 840, 842 (Fla.
1993)
c. May summary judgment be entered where a Defendant has admittedly
refused to allow any requested discovery in the action in conflict with all
other District courts on this matter in Harper v. Wal-Mart Stores E., L.P.,
134 So. 3d 557 (Fla. 5th DCA 2014), Almond Entm't, Inc. v. Bayview Loan
Servicing, LLC, 98 So. 3d 723 (Fla. 2d DCA 2012), Payne v. Cudjoe
Gardens Prop. Owners Ass'n, Inc., 837 So. 2d 458 (Fla. 3d DCA 2002),
and Harvey Covington & Thomas, LLC v. WMC Mortg. Corp., 85 So. 3d
558 (Fla. 1st DCA 2012)
d. May an appellate court affirm a summary judgment based upon
inconsistent, inconclusive, refuted evidence in conflict with Wilson v. State
Rd. Dept., 201 So. 2d 619, 622 (Fla. 1st DCA 1967), Holl v. Talcott, 191
So. 2d 40, 43 (Fla. 1966), Jones v. Stoutenburgh, 91 So. 2d 299 (Fla. 1956);
12

Milson Law, PA

APPENDIX
0240
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

Sconyer v. Scheper, 119 So. 2d 408, 412 (Fla. 2d DCA 1960), and Williams
v. City of Lake City, 62 So.2d 732 (Fla. 1953)
e. Do Plaintiffs properly state a cause of action where they allege that a
professional organization has damaged them by improperly expelling them
in bad faith in accordance with Werber v. Imperial Golf Club, Inc., 413 So.
2d 41, 43 (Fla. 2d DCA 1982) and McCune v. Wilson, 237 So.2d 169 (Fla.
1970)
f. Does a trial court abuse its discretion by refusing to rehear its summary
judgment order where Plaintiffs submit evidence that the court was
factually and legally misled in accordance with Petrucci v. Brinson, 179
So. 3d 398, 400 (Fla. 1st DCA 2015), Fatherly v. Cal. Fed. Bank, FSB,
703 So.2d 1101, 1102 (Fla. 2d DCA 1997), and Holl v. Talcott, 191 So. 2d
40, 46–47 (Fla. 1966)

CONCLUSION
For the foregoing reasons, Appellants believe that the absence of a written
opinion in this matter causes more confusion of the rights of this District’s litigants
in regards to their access to court and ability to pursue their claims. Especially in a
summary judgment procedural posture, a written opinion is imperative to ensuring
13

Milson Law, PA

APPENDIX
0241
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

that litigants’ rights have been adequately weighed and considered under the
prevailing and controlling laws. Here, Appellants, who were all public servants with
longstanding careers sullied by Appellee’s actions, are requesting that this Court
provide an opinion that resolves the procedural and substantive discrepancies in this
action, that respects their right to bring this action granted to them in accordance
with McCune v. Wilson, 237 So.2d 169 (Fla. 1970), and allows this action to be
remanded for further proceedings. In the alternative, Appellants respectfully request
that this Court certify the conflicts here to the Florida Supreme Court for
determination.

Respectfully submitted,

MILSON LAW, PA
Citigroup Building
201 S. Biscayne Blvd., Suite 2700
Miami, FL 33131
Ph: (305) 209-0321
By: /s/ Nicole Milson
Nicole A. Milson, Esq.
Fla. Bar No. 86157

14

Milson Law, PA

APPENDIX
0242
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been
served, on May 29, 2020, electronically via the Florida Courts E-Filing Portal to
Robert C. Buschel, Esq., attorney for appellee, at Buschel@BGlaw-pa.com, whose
physical address is 100 S.E. Third Avenue, Fort Lauderdale, FL 33394.

MILSON LAW, PA
Citigroup Building
201 S. Biscayne Blvd., Suite 2700
Miami, FL 33131
Ph: (305) 209-0321
By: /s/ Nicole Milson
Nicole A. Milson, Esq.
Fla. Bar No. 86157

15

Milson Law, PA

APPENDIX
0243
305.209.0321

201 S. Biscayne Blvd., Suite 2700, Miami, FL 33131

